<html>
<title> - GLOBAL TERRORISM: THREATS TO THE HOMELAND, PART I</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
            GLOBAL TERRORISM: THREATS TO THE HOMELAND, PART I

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2019

                               __________

                           Serial No. 116-35

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                U.S. GOVERNMENT PUBLISHING OFFICE 
 39-837 PDF             WASHINGTON : 2020 
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Peter Bergen, Vice President, Global Studies & Fellows, New 
  America:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Ali H. Soufan, Founder, The Soufan Center:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Mr. Brian Levin, Director, Center for the Study of Hate & 
  Extremism, California State University, San Bernardino:
  Oral Statement.................................................    29
  Prepared Statement.............................................    31
Mr. Thomas Joscelyn, Senior Fellow, Foundation for the Defense of 
  Democracies:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50


           GLOBAL TERRORISM: THREATS TO THE HOMELAND, PART I

                              ----------                              


                      Tuesday, September 10, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the Committee] presiding.
    Present: Representatives Thompson, Langevin, Richmond, 
Payne, Rice, Correa, Small, Rose, Underwood, Slotkin, Clarke, 
Titus, Barragan; Rogers, King, McCaul, Katko, Ratcliffe, 
Walker, Higgins, Lesko, Taylor, and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
``Global Terrorism Threats to the Homeland, Part One.''
    To begin I want to note that tomorrow marks the 18th 
anniversary of the terrorist attacks of September 11, 2001. We 
remember those who were lost that terrible day in New York, at 
the Pentagon, and at Shanksville, Pennsylvania. They and their 
loved ones are on Americans' minds and our hearts at this time, 
especially.
    Today I am pleased to welcome our distinguished panel of 
witnesses, and appreciate their testimony before the committee. 
That said, I want to say for the record it is unacceptable that 
the Secretary of Homeland Security, FBI director, and acting 
director of National Counterterrorism Center refused a 
bipartisan invitation to testify at this hearing.
    This committee has a long-standing practice of holding an 
annual hearing to examine threats to the homeland. We continue 
to face threats from foreign terrorist organization and home-
grown violent extremists. Communities like El Paso have 
suffered unspeakable tragedy from domestic terrorist attacks 
recently. Agreeing to come before the committee at the end of 
October, over 3 months after our request was made, is not 
sufficient.
    We will continue to engage the administration and ensure 
this committee has the information necessary to carry out its 
oversight responsibilities. As another year passes Members of 
Congress, especially on this committee, are reminded of the 
duty we have to counter the terrorism threats of today and 
tomorrow.
    Despite organizational setbacks and loss of physical 
territory, foreign terrorist organizations like ISIS and al-
Qaeda remain capable and committed, conducting external attacks 
and influencing like-minded groups and individuals outside of 
Iraq and Syria, perpetrating a circle of violence and extremist 
rhetoric. One such attack took place on Easter Sunday this 
year, when a terrorist group inspired by ISIS killed over 250 
people during coordinated attacks on 3 churches and a hotel in 
Sri Lanka.
    Alarmingly, a recent Pentagon inspector general's report 
stated that ISIS was resurging in Syria after the 
administration's decision to withdraw U.S. troops from the 
country, refuting President Trump's own statements about ISIS 
being defeated. The United States must find ways to responsibly 
and adequately support partners on the ground, and advance 
efforts to keep ISIS from re-establishing itself.
    Additionally, al-Qaeda and its affiliates are still active 
across parts of Africa, the Middle East, and South Asia, and 
the instability in some of these regions is ripe for jihadism 
to flourish. In fact, just last month the State Department's 
counter-terrorism coordinator, Ambassador Nathan Sales, stated 
al-Qaeda is as strong as it has ever been, and has let ISIS 
absorb the brunt of the world's counter-terrorism efforts, 
while patently reconstituting itself. In Somalia the al-Qaeda-
linked group al-Shabaab conducted an attack on a hotel, killing 
26 people, including 2 American citizens, this past July.
    While we can't lose focus on terrorist groups like these, 
we are also facing a growing domestic terrorist--and 
particularly white nationalist--threat to our homeland. 
Addressing this threat, which is often transnational in nature, 
has long been--taken a back seat to other threats faced by the 
United States. Earlier this year the mosque shootings in 
Christchurch, New Zealand, which left 51 dead, exemplify the 
growing transnational connections between white nationalist 
terrorists who inspire and communicate with each other across 
the world.
    Just last month in El Paso, Texas 22 people were killed 
when a 21-year-old white nationalist terrorist opened fire on a 
WalMart, using an AK-47-style assault rifle. The shooter drove 
10 hours from his home in Allen, Texas to El Paso, specifically 
to target Hispanics. In April a 19-year-old white nationalist 
terrorist opened fire using an AR-15-style assault rifle inside 
the Chabad of Poway synagogue on the last day of Passover in 
Poway, California, killing a 60-year-old woman. These attacks 
did not originate in a vacuum, but of--these white nationalist 
terrorists who killed people in Poway, California and El Paso, 
Texas, cited Brandon, the terrorist who carried out the 
Christchurch mosque attacks in New Zealand as an inspiration.
    Sadly, these are just a few of the deadly domestic 
terrorism attacks linked to white supremacy extremism from this 
year. Over the last decade over 70 percent of extremist-related 
killings in the United States were committed by right-wing 
extremists, many of whom flock to social media and on-line 
platforms to espouse their hateful and violent rhetoric.
    Like other terrorists and terrorist groups, white 
supremacist extremists take advantage of social media and on-
line platforms to promulgate their ideology and promote 
violence. On June 26 I held a hearing examining social media 
companies' efforts to counter on-line terror content and 
misinformation. Just last week the committee deposed the owner 
of 8chan, an on-line platform that has been linked to at least 
3 acts of deadly white supremacist extremist violence.
    While we cannot lose focus on the foreign terrorist threat 
to the United States, we have to simultaneously address the 
real and persistent threat of domestic terrorism. Certainly we 
can do both.
    Last month, I met with acting DHS Secretary, Kevin 
McAleenan, in Jackson, Mississippi to discuss domestic 
terrorism at the public launching of the Homeland Security 
Advisory Council Subcommittee for the Prevention of Targeted 
Violence Against Faith-Based Communities.
    Additionally, my legislation, the Domestic and 
International Terrorism Data Act, was reported by the committee 
by voice vote. The bill would require the Government to publish 
an annual public report outlining domestic terrorist incidents 
and exactly what the Government is doing to address these 
incidents. It would also require DHS to research how domestic 
terrorists are linked with transnational terrorist movements, 
including white supremacist movement.
    I look forward to the committee taking up additional 
domestic terrorism legislation later this month.
    Again, I thank the witnesses for joining us today, and 
expect a productive discussion on this important matter.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           September 10, 2019
    To begin, I want to note that tomorrow marks the 18th anniversary 
of the terrorist attacks of September 11, 2001. We remember those that 
were lost that terrible day in New York, at the Pentagon, and in 
Shanksville, Pennsylvania. They and their loved ones are on Americans' 
minds and in our hearts at this time especially.
    Today, I am pleased to welcome our distinguished panel of witnesses 
and appreciate their testimony before the committee. That said, I want 
to say for the record it is unacceptable the Secretary of Homeland 
Security, Federal Bureau of Investigation (FBI) director, and acting 
director of the National Counterterrorism Center (NCTC) refused a 
bipartisan invitation to testify at this hearing. This committee has a 
long-standing practice of holding an annual hearing to examine threats 
to the homeland. We continue to face threats from foreign terrorist 
organizations and home-grown violent extremists, and communities like 
El Paso have suffered unspeakable tragedy from domestic terrorist 
attacks recently. Agreeing to come before the committee at the end of 
October, over 3 months after our request was made, is not sufficient. 
We will continue to engage the administration and ensure this committee 
has the information necessary to carry out its oversight 
responsibilities.
    As another year passes, Members of Congress--especially on this 
committee--are reminded of the duty we have to counter the terrorism 
threats of today and tomorrow. Despite organizational setbacks and loss 
of physical territory, foreign terrorist organizations like ISIS and 
al-Qaeda remain capable and committed of conducting external attacks 
and influencing like-minded groups and individuals outside of Iraq and 
Syria, perpetuating a circle of violence and extremist rhetoric. One 
such attack took place on Easter Sunday this year, when a terrorist 
group, inspired by ISIS, killed over 250 people during coordinated 
attacks on 3 churches and hotels in Sri Lanka. Alarmingly, a recent 
Pentagon inspector general report stated that ISIS was resurging in 
Syria after the administration's decision to withdraw U.S. troops from 
the country, refuting President Trump's own statements about ISIS being 
defeated.
    The United States must find ways to responsibly and adequately 
support partners on the ground and advance efforts to keep ISIS from 
reestablishing itself. Additionally, al-Qaeda and its affiliates are 
still active across parts of Africa, the Middle East, and South Asia. 
And the instability some of these regions is ripe for Jihadism to 
flourish. In fact, just last month, the State Department's 
Counterterrorism Coordinator Ambassador Nathan Sales stated ``al-Qaeda 
is as strong as it has ever been'' and has ``let ISIS absorb the brunt 
of the world's counterterrorism efforts while patiently reconstituting 
itself.'' In Somalia, the al-Qaeda linked group ``al-Shabaab'' 
conducted an attack on a hotel, killing 26 people, including two 
American citizens, this past July. While we can't lose focus on 
terrorist groups like these, we are also facing a growing domestic 
terrorist--and particularly white nationalist--threat to our homeland. 
Addressing this threat, which is often transnational in nature, has 
long been taken a back seat to other threats faced by the United 
States.
    Earlier this year, the mosque shootings in Christchurch, New 
Zealand, which left 51 dead, exemplified the growing transnational 
connections between white nationalist terrorists who inspire and 
communicate with each other across the world. Just last month in El 
Paso, Texas, 22 people were killed when a 21-year-old white nationalist 
terrorist opened fire on a Walmart using an AK-47-style assault rifle. 
The shooter drove 10 hours from his home in Allen, Texas, to El Paso 
specifically to target Hispanics. And in April, a 19-year-old white 
nationalist terrorist opened fire using an AR-15-style assault rifle 
inside the Chabad of Poway synagogue on the last day of Passover, in 
Poway, California, killing a 60-year-old woman. These attacks did not 
originate in a vacuum. Both of these white nationalist terrorists who 
killed people in Poway, California and El Paso, Texas cited Brenton 
Tarrant, the terrorist that carried out the Christchurch mosque attacks 
in New Zealand as an inspiration. And sadly, these are just a few of 
the deadly domestic terrorism attacks linked to white supremacy 
extremism from this year. Over the last decade, over 70 percent of 
extremist-related killings in the United States were committed by 
right-wing extremists, many of whom flock to social media and on-line 
platforms to espouse their hateful and violent rhetoric.
    Like other terrorists and terrorist groups, white supremacist 
extremists take advantage of social media and on-line platforms to 
promulgate their ideology and promote violence. On June 26, I held a 
hearing examining social media companies' efforts to counter on-line 
terror content and misinformation. Just last week, the committee 
deposed the owner of 8chan, an on-line platform that has been linked to 
at least 3 acts of deadly white supremacist extremist violence. While 
we cannot lose focus on the foreign terrorist threat to the United 
States, we have to simultaneously address the real and persistent 
threat of domestic terrorism. And we can certainly do both.
    Last month, I met with Acting DHS Secretary Kevin McAleenan in 
Jackson, Mississippi to discuss domestic terrorism at the public 
launching of the Homeland Security Advisory Council's Subcommittee for 
the Prevention of Targeted Violence Against Faith-Based Communities. 
Additionally, my legislation, the Domestic and International Terrorism 
DATA Act, was reported by the committee by voice vote. The bill would 
require the Government to publish an annual public report outlining 
domestic terrorist incidents and exactly what the Government is doing 
to address these incidents. It would also require DHS to research how 
domestic terrorists are linked with transnational terrorist movements, 
including white supremacist movements. I look forward to the committee 
taking up additional domestic terrorism legislation later this month.

    Chairman Thompson. With that I now recognize the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for 5 minutes for the purpose of an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman. We are once again at 
the anniversary of September 11, 2001. Thousands of innocent 
Americans lost their lives that morning. Our Nation has not 
been the same since.
    Those horrible acts were carried out by an organized, 
trained, and determined terrorist network. Thousands of brave 
men and women have given their lives to eliminate this threat 
to our homeland and our way of life. This anniversary is a 
somber reminder of those sacrifices.
    During the past 18 years the United States and our allies 
dealt a decisive blow to al-Qaeda. Most recently, we have 
broken the Islamic State of Iraq and Syria, ISIS. However, we 
cannot lose sight of the continued danger posed by al-Qaeda and 
its affiliates. Al-Qaeda is rebuilding, expanding its ranks and 
safe havens, and remains intent on attacking the United States.
    Since the Arab Spring and the rise of ISIS, al-Qaeda and 
its affiliates have grown to approximately 40,000 members. 
Their ranks now include battle-hardened specialists and bomb 
makers. This new generation of experts has honed their skills 
in Iraq, Afghanistan, Syria, and Northern Africa. Al-Qaeda 
participation in battles throughout the Middle East and Africa 
have also rebuilt the credibility of a once shattered 
organization.
    The group's propaganda operation is also learning, as well. 
They watched ISIS recruit thousands, including young men from 
al-Qaeda's own ranks, using the latest social media tools. They 
have--now they are exploiting the same tools. Public statements 
from al-Qaeda senior leaders on social media platforms have 
increased by 67 percent over the last several years.
    The terror organization is reintroducing its movement, and 
targeting a new generation of fighters. Their message is clear: 
A continued commitment to target the United States homeland, 
and a call for unity across jihadist factions.
    Recent U.S. airstrikes targeting al-Qaeda fighters hiding 
and plotting external attacks in Syria prove the group remains 
a serious threat. The FBI told us in May that they are actively 
investigating over 1,000 cases of individuals in the United 
States inspired by al-Qaeda and other foreign terrorist 
organization.
    This committee exists because of the horrific attack 
carried out by al-Qaeda. Though oversight and legislation--
through oversight and legislation, it is our job to ensure DHS 
can prevent another attack. Unfortunately, since Democrats took 
the Majority, we haven't had a single full committee oversight 
hearing focused on the threat from foreign terrorists, nor have 
we moved to a--moved a comprehensive DHS authorization bill to 
strengthen the Department's ability to prevent attacks. Our 
recent focus on domestic terrorism is important, but we cannot 
let the Department or this committee lose sight of the serious 
and on-going threat from foreign terrorists.
    I hope our witnesses today will articulate the challenges 
facing DHS, and provide recommendations to enhance our ability 
to defeat those--these and other emerging threats to our 
homeland.
    Finally, I share the Chairman's frustration that DHS, FBI, 
and the National Counterterrorism Center could not be here 
today. Our committee has a long-standing tradition of hearing 
from these witnesses each fall. Like Chairman Thompson, I 
expect them to appear before this committee as soon as 
possible.
    With that I yield back my time.
    [The statement of Ranking Member Rogers follows:]
                           September 10, 2019
                Statement of Ranking Member Mike Rogers
    We are once again at the anniversary of September 11, 2001. 
Thousands of innocent Americans lost their lives that morning. Our 
Nation has not been the same since.
    Those horrible acts were carried out by an organized, trained, and 
determined terrorist network. Thousands of brave men and women have 
given their lives to eliminate this threat to our homeland and our way 
of life.
    This anniversary is a somber reminder of their sacrifices. During 
the past 18 years, the United States and our allies dealt a decisive 
blow to al-Qaeda.
    More recently we've broken the Islamic State of Iraq and Syria 
(ISIS).
    However, we cannot lose sight of the continued danger posed by al-
Qaeda and its affiliates. Al-Qaeda is rebuilding, expanding its ranks 
and safe havens, and remains intent on attacking the United States.
    Since the Arab Spring and the rise of ISIS, al-Qaeda and its 
affiliates have grown to approximately 40,000 members. Their ranks now 
include battle-hardened specialists and bomb makers.
    This new generation of experts has honed their skills in Iraq, 
Afghanistan, Syria, and Northern Africa.
    Al-Qaeda's participation in battles throughout the Middle East and 
Africa have also rebuilt the credibility of a once shattered 
organization. The group's propaganda operation has been learning as 
well.
    They watched ISIS recruit thousands, including young men from al-
Qaeda's own ranks, using the latest social media tools.
    Now they're exploiting the same tools. Public statements from al-
Qaeda senior leaders on social media platforms have increased by 67 
percent over the past several years.
    The terror organization is reintroducing its movement and targeting 
a new generation of fighters.
    Their message is clear: A continued commitment to target the U.S. 
homeland and a call for unity across jihadist factions.
    Recent U.S. airstrikes targeting al-Qaeda fighters hiding and 
plotting external attacks from Syria prove that the group remains a 
serious threat.
    The FBI told us in May that they are actively investigating over 
1,000 cases of individuals in the United States inspired by al-Qaeda 
and other foreign terrorist organizations.
    This committee exists because of a horrific attack carried out by 
al-Qaeda.
    Through oversight and legislation, it is our job to ensure DHS can 
prevent another attack.
    Unfortunately, since Democrats took the majority, we haven't had a 
single full committee oversight hearing focused on the threat from 
foreign terrorists.
    Nor have we moved a comprehensive DHS authorization bill to 
strengthen the Department's ability to prevent attacks.
    Our recent focus on domestic terrorism is important, but we cannot 
let the Department, or this committee, lose sight of the serious and 
on-going threat from foreign terrorists.
    I hope our witnesses today will articulate the challenges facing 
DHS and provide recommendations to enhance our ability to defeat these 
and other emerging threats to our homeland.
    Finally, I share the Chairman's frustration that DHS, the FBI, and 
the National Counter Terrorism Center could not be here today.
    Our committee has a long-standing tradition of hearing from these 
witnesses each fall.
    Like Chairman Thompson, I expect them to appear before the 
committee as soon as possible.

    Chairman Thompson. Thank you. Other Members of the 
committee are reminded that, under committee rules, opening 
statements may be submitted for the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                           September 10, 2019
    Chairman Thompson and Ranking Member Rogers, thank you for this 
opportunity to receive testimony on ``Global Terrorism: Threats to the 
Homeland.''
    I thank today's witnesses for coming before the committee to offer 
testimony on this important topic.
    Witnesses:
  <bullet> Mr. Peter Bergen, vice president, Global Studies & Fellows, 
        New America;
  <bullet> Mr. Ali Soufan, founder, The Soufan Center;
  <bullet> Mr. Brian Levin, director, Center for the Study of Hate & 
        Extremism, California State University, San Bernardino; and
  <bullet> Mr. Thomas Joscelyn, senior fellow, Foundation for the 
        Defense of Democracies (Republican witness).
    I will never forget September 11, 2001.
    Tomorrow marks the 18th anniversary of the attacks that killed 
2,977 men, women, and children.
    I stood on the East Front steps of the Capitol on September 11, 
along with 150 Members of the House of Representatives and sang ``God 
Bless America.''
    As a Member of the House Committee on Homeland Security since its 
establishment today's hearing is of importance to me.
    I am supportive of efforts to employ effective approaches to 
interdicting, disrupting, and dismantling terrorist networks.
    The previous administration focused on how best to use our Nation's 
soft power and military power for minimizing, eliminating, and 
containing terrorists' threats in the region, with a full understanding 
that over-aggressive actions militarily can pull our country into a 
precipitous military struggle that would be open-ended.
    Unfortunately, this administration has diminished the role and the 
capacity of the State Department to keep manageable threats in check, 
while doing the hard work of coalition building so that there would be 
effective burden sharing for actions taken.
    Regrettably, the Department of Homeland Security (DHS), Federal 
Bureau of Investigation (FBI), and the National Counterterrorism Center 
(NCTC) declined to participate in the hearing, citing scheduling 
conflicts, despite a bipartisan request from the committee well in 
advance.
    How can the United States provide a credible bulwark against 
terrorists threats abroad if we cannot get this administration to get 
over its reticence to speaking before committees in this Congress.
    Incredible as it is, the President was planning to meet this 
weekend with the Taliban at Camp David, an organization directly linked 
to the September 11, 2001 attacks on our Nation, while at the same time 
he discourages his political appointees and acting department heads to 
participate in this hearing to assess the threats posed by 
international terror groups, which include the Talban.
    The benefits of the collaborative work done by all levels of law 
enforcement was evidenced by the work done by local, State, and Federal 
law enforcement during Hurricane Harvey and the resulting flood.
    Homeland security and National defense are not and should not be 
made into political issues.
    Our Nation needs our best efforts on the behalf of peace and 
security abroad to assure that we have peace and security at home.
                           september 11, 2001
    September 11, 2001 remains a tragedy that defines our Nation's 
history since that faithful day for many reasons, but the final chapter 
will be written by those who are charged with keeping our Nation and 
its people safe while preserving the way of life that terrorists seek 
to change.
    One of the enduring challenges for Members of this committee is how 
we guide the work of the Department of Homeland Security to ensure that 
September 11 never happens again.
    I offer my thanks and gratitude to the 9/11 Commission Chaired by 
New Jersey Governor Thomas H. Kean and Vice Chair Former Congressman 
Lee H. Hamilton Vice for their work in investigating the events of 
September 11, 2001 and making recommendations to the Nation and the 
Congress on what we need to do to avoid another September 11.
    The 9/11 Commission report provided the fullest possible account of 
the events surrounding 9/11 and identified lessons learned.
    The report chronicled the activities of al-Qaeda which revealed the 
sophistication, patience, discipline, and deadliness of the 
organization to carry out the attacks of September 11.
    From the Commission's work, we learned of the lack of imagination 
among our law enforcement and National intelligence community in 
understanding how dangerous al-Qaeda was to the security of the United 
States and the safety of our citizens.
    We were aware of the threat al-Qaeda posed from attacks carried out 
against Americans and American interests in the 1990's through the year 
2001.
    On February 26, 1993, a truck bomb was detonated below the North 
Tower of the World Trade Center--killing 6 people.
    It was intended to cause both the North and South Towers to 
collapse and if it had been successful thousands would have died on 
that day.
    On August 7, 1998, 224 people were killed and more than 5,000 
injured by bombs exploding almost simultaneously at the U.S. embassies 
in Nairobi, Kenya and Dar es Salaam, Tanzania.
    On October 12, 2000, 17 sailors aboard the USS Cole were killed by 
an al-Qaeda attack using a small boat packed with explosives.
    On September 11, 2001, 2,977, which included 2,504 civilians, were 
killed when al-Qaeda operatives hijacked 3 planes and used them as 
guided missiles to attack both World Trade Towers and the Pentagon.
                victims of the september 11, 2001 attack
    At the World Trade Center site in Lower Manhattan, 2,753 people 
were killed when hijacked American Airlines Flight 11 and United 
Airlines Flight 175 were intentionally crashed in the north and south 
towers.
    Of those who perished during the initial attacks and the subsequent 
collapses of the towers, 343 were New York City firefighters, another 
23 were New York City police officers and 37 others were officers at 
the Port Authority.
    The victims ranged in age from 2 to 85 years.
    At the Pentagon in Washington, 184 people were killed when hijacked 
American Airlines Flight 77 crashed into the building.
    Near Shanksville, Pennsylvania, 40 passengers and crew members 
aboard United Airlines Flight 93 died when the plane crashed into a 
field.
    It is believed that the hijackers crashed the plane in that 
location, rather than the target of the U.S. Capitol, after the 
passengers and crew attempted to retake control of the flight.
    The act of those passengers to stop the hijackers likely saved the 
lives of thousands of their fellow Americans that day.
    The heroic work done by the first responders who rushed into the 
burning Twin Towers and the Pentagon saved lives.
    We will forever remember the law enforcement and firefighters lost 
their lives in the line of duty on September 11.
    This Nation shall forever be grateful for their selfless sacrifice.
    I visited the site of the World Trade Center Towers in the 
aftermath of the attacks and grieved over the deaths of so many of our 
men, women, and children.
    I watched as thousands of first responders, construction workers, 
and volunteers worked to recover the remains of the dead, and removed 
the tons of debris, while placing their own lives and health at risk.
    The men and women who worked at ``Ground Zero'' were called by a 
sense of duty to help in our Nation's greatest time of need since the 
bombing of Pearl Harbor.
    Under the leadership of President Obama, Osama bin Laden was found 
and killed and the prosecution of al-Qaeda has left them without the 
capacity to launch major operations within the United States.
    Congress in response to the new challenges that our first 
responders would face created the Homeland Security Grant Program.
    The grant program would address the challenges that were 
undermining first responder efforts at Ground Zero and the Pentagon.
    Over time Congress has modified the program to provide for more 
targeted investments. First responders and emergency managers across 
the country have testified before our committee that without these 
much-needed grant funds, preparedness, planning, and training 
activities would not be what they are today.
    The Federal Emergency Management Agency's National Preparedness 
Report shows States have high confidence in the capability areas that 
have benefited from Homeland Security investments--such as operational 
coordination, situational assessment, and public alerts and warnings--
and low confidence in capability areas that have received less funding.
    Unfortunately, the last year the Homeland Security Grant prograin 
was fully funded was fiscal year 2010 when Congress appropriated $2.75 
billion for this program.
    In fiscal year 2012--1 year later the funding level was only $1.35 
billion, although the funding level in 2013 had increased to $1.5 
billion--sequestration further reduced the amount available to be 
awarded to States.
    In both fiscal years 2014 and 2015 the Homeland Security Grant 
program was $1.5 billion.
    We know that the funding provided by the Homeland Security Grant 
program has had a significant impact on the ability of first responders 
to react to terrorist events.
    The Boston attacks resulted in the tragic killing of 3 and the 
injuring of more than 260 men, women, and children awaiting the arrival 
of runners in the Boston Marathon.
    This low number of fatalities came as a direct result of the 
training of first responders to meet the security, rescue, and recovery 
needs of those directly impacted by the attack.
                         new terrorist threats
    Today, this Nation faces new threats from terrorists.
    Domestic Terrorism, Extremism, Homegrown Violent Extremism, and 
International Terrorism are all threats that our Nation must access and 
address.
    Groups and individuals inspired to commit terrorist acts are 
motivated by a range of personal, religious, political, or other 
ideological beliefs-there is no magic fonnula for defining how a person 
may become a terrorist.
    Further, the complexity of adding social media as a new source of 
recruitinent for violent extremists is complicating the efforts of law 
enforcement, domestic security and National defense.
    The most difficult challenges our Nation has faced since the 
attacks of September 11, 2001, is the prevention of terrorist's acts 
planned by ``Lone Wolves.''
    Domestic terrorist incidents, particularly from far-right 
extremists, are on the rise, including recent mass shootings in Poway, 
California and El Paso, Texas.
    This week will mark the 18th anniversary of the September 11, 2001 
terrorist attacks, this hearing allows committee Members to gather 
information about the state of terrorism around the world and how 
policy makers can support those charged with securing the Nation.
    Mr. Chairman, I yield back.

    I welcome our panel of witnesses for today. Our first 
witness, Mr. Peter Bergen, is a vice president of Global 
Studies and Fellows, and the director of the International 
Security and Future of War Programs for New America. In 
addition to being a journalist and documentary producer, Mr. 
Bergen held teaching positions at the Kennedy School of 
Government at Harvard University, and the School of Advanced 
International Studies at Johns Hopkins University.
    Next we are joined by Mr. Ali Soufan, the chief executive 
officer of the Soufan Group, and founder of the Soufan Center. 
The Soufan Center--Mr. Soufan is a former FBI supervisory 
special agent who investigated and supervised highly sensitive 
and complex international terrorism cases, including the East 
Africa Embassy bombing, the attack on the USS Cole, and the 
events surrounding the attacks on September 11.
    Our third witness is Mr. Brian Levin. Mr. Levin is a 
criminologist and civil rights attorney, and professor of 
criminal justice, and director of the Center for the Study of 
Hate and Extremism at California State University, San 
Bernardino, where he specializes in analysis of hate crime, 
terrorism, and legal issues.
    Finally, we welcome Mr. Thomas Joscelyn. Mr. Jocelyn is a 
senior fellow at the Foundation for Defense of Democracies, and 
is senior editor of FDD's Long War Journal. Much of his 
research focuses on how al-Qaeda and ISIS operate around the 
globe.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Bergen.

  STATEMENT OF PETER BERGEN, VICE PRESIDENT, GLOBAL STUDIES & 
                      FELLOWS, NEW AMERICA

    Mr. Bergen. Thank you, Chairman Thompson and Ranking Member 
Rogers and the distinguished Members of the committee.
    I wanted to briefly address what happened over the weekend 
at Camp David, because I think it has some relevance to what we 
are discussing today.
    I think President Trump made the right decision, mostly 
because this wasn't really a peace agreement, but a withdrawal 
agreement. We have seen from our own past history that 
withdrawing from these countries can actually impact the United 
States and our allies in ways that are not beneficial to our 
National security.
    Secondarily, this agreement was being conducted without the 
Afghan Government. After all, they are the elected 
representatives of the Afghan people. The Taliban are unelected 
theocrats, and we are treating them as a potential government-
in-waiting, rather than an insurgent group.
    Third, we have an Afghan election coming up on September 
28. President Ghani is going to run. He almost certainly will 
win. It is the fourth election we have had in Afghanistan. We 
in the United States, and the U.S. Government, has for some 
reason treated negotiations with the Taliban as a priority, 
rather than shoring up the election system in Afghanistan, and 
the legitimately-elected government.
    So I am glad that we have had this outcome. President Ghani 
will have a lot more leverage to say, ``We need a seat at the 
table in the next round of negotiations with the Taliban.''
    Bby the way, President Obama reduced the troops in 
Afghanistan from 100,000 to the 8,500 level that we are about 
to get to very soon. He didn't do that with any permission from 
the Taliban or any negotiation with the Taliban. He just did 
it. We don't need their permission to get to the right troop 
level. I think 8,500 or something around that is a reasonable 
level to carry out the counter-terrorism mission that we need 
to do for the foreseeable future.
    So, turning now to kind-of the question of where we are 
today, 18 years after 9/11. If I had come before your committee 
in 2002 and said, ``In the next 18 years, 104 Americans are 
going to be killed by jihadi terrorists,'' that would have 
seemed--in the United States, that would have seemed an 
absolutely absurd prediction. But that is what has happened.
    Why has that happened? There is, I think, three big 
reasons.
    First of all, the actions of people like Ali Soufan, to my 
left, the actions of people on this committee, the actions of 
so many hundreds of thousands of other Americans, we--our 
offensive capabilities have, as Ranking Member Rogers 
mentioned, have inflicted a great deal of damage on al-Qaeda.
    I mean al-Qaeda, the organization that attacked us on 9/11, 
is essentially a local jihadist group in Pakistan with no 
ability to attack us here in the United States. That could 
change if we, for instance, left Afghanistan tomorrow, because 
over time these groups can regroup.
    So our offensive capabilities, the drone program, and our 
defensive capability--just think about the activities of this 
committee, which didn't exist on 9/11, or DHS didn't exist, TSA 
didn't exist, the National Counterterrorism Center didn't 
exist. Our intelligence budget was $20 billion. Now it is $80 
billion a year. I can go on and on with all the things that we 
have done to make the country safer.
    So, therefore, it is not surprising that we haven't been 
attacked by foreign terrorist organizations successfully in the 
United States since 9/11. Again, if I came before you in 2002 
and made that prediction, it would have seemed absurd. But the 
fact is our offensive capabilities, our defensive capabilities, 
and also public knowledge have reduced and managed this threat.
    Now, ``manage'' is a useful verb, I think, in this context, 
because we are never going to win in any conventional sense. 
What we need to do is manage this threat to a level that, 
basically, is not going to interfere with our way of life in a 
meaningful way, as 9/11 did.
    Now, turning to the domestic terrorism threat, which 
Ranking Member Rogers also mentioned, the white right-wing 
threat, the fact is that that is as important a threat to 
United States today as the jihadi threat. New America, where I 
work, and my colleague, Melissa Salyk-Yirk, here is here with 
me, and David Sterman, who also prepared some of this 
testimony, we have been tracking the question of right-wing 
terrorism for a long time.
    Now, I mentioned the figure of 104 jihadi terrorists who 
have been killed, who--104 victims of jihadist terrorism in the 
United States since 9/11. Well, in the mean time, 109 Americans 
have been killed by right-wing terrorists. Then--and I don't 
want to leave those 2 ideologies by themselves, because people 
motivated by black nationalist ideology have killed 8 people in 
the last 2 years. People motivated by a kind of ideological 
misogyny have killed 8 people in the last several years. So we 
face a range of threats from a range of ideologies, and 
prioritizing any one ideology in this context is mistaken.
    Finally, I would like to say, in terms of the ISIS issue, 
obviously it is very good that we defeated them territorially. 
But ISIS wasn't really the problem. ISIS was a symptom of some 
very deep problems in the Middle East, which are not going 
away: Sectarianism; collapse of governance; terrible economies; 
massive immigration into Europe; the rise of European ultra-
nationalist parties, which fuels this in Europe. Unfortunately, 
those underlying conditions continue to exist.
    Thank you.
    [The prepared statement of Mr. Bergen follows:]
                   Prepared Statement of Peter Bergen
                           September 10, 2019
        what are the terrorist threats to the united states? \1\
---------------------------------------------------------------------------
    \1\ Thanks to David Sterman and Melissa Salyk-Virk of New America 
for their inputs to this testimony.
---------------------------------------------------------------------------
    Since the 9/11 attacks, no foreign terrorist organization has 
successfully directed or carried out a deadly attack in the United 
States. With ISIS's territorial collapse, the threat posed by the group 
has receded. It has been more than a year since the last lethal 
jihadist terrorist attack in the United States, and the number of 
jihadist terrorism cases in the United States has declined 
substantially since its peak in 2015. However, ``home-grown'' jihadist 
terrorism, including that inspired by ISIS, is likely to remain a 
threat. While ISIS's inspirational power has lessened in recent years, 
white supremacist extremism is increasingly inspiring deadly violence.* 
The most likely threat to the United States comes from ``home-grown'' 
terrorists inspired by a mixture of ideologies including jihadist, far 
right, and idiosyncratic strains, who are radicalized via the internet 
and take advantage of the availability of semi-automatic firearms in 
the United States. The ``travel ban'' is not an effective response to 
any of these threats.
---------------------------------------------------------------------------
    * This number includes a small number of people who died before 
being charged but were widely reported to have engaged in jihadist 
terrorism-related criminal activity.
---------------------------------------------------------------------------
    The threat to the United States from jihadist terrorism is 
relatively limited. New America's ``Terrorism in America After 9/11'' 
project tracks the 479 cases of individuals who have been charged with 
jihadist terrorism-related activity in the United States since 
September 11, 2001.\2\ In the 18 years since 9/11, individuals 
motivated by jihadist ideology have killed 104 people in the United 
States. Every one of those deaths is a tragedy, but they are not 
national catastrophes as 9/11 was. The death toll from jihadist 
terrorism over the past 18 years is far lower than what even the most 
optimistic of analysts projected in the immediate aftermath of the 9/11 
attacks. Al-Qaeda and its breakaway faction, ISIS, have failed to 
direct a successful attack in the United States since the 9/11 attacks 
and none of the perpetrators of the 13 lethal jihadist attacks in the 
United States since those attacks received training from a foreign 
terrorist group.
---------------------------------------------------------------------------
    \2\ Peter Bergen, David Sterman, Albert Ford, and Alyssa Sims, 
``Terrorism in America After 9/11,'' New America, Accessed July 3, 
2018, https://www.newamerica.org/in-depth/terrorism-in-america/.
---------------------------------------------------------------------------
    ISIS did manage to inspire an unprecedented number of Americans to 
conduct attacks and otherwise engage in jihadist activity. In 2015, 80 
people were charged \2\ in the United States with jihadist terrorism 
activity, the highest number in the post-9/11 era. More than three-
quarters of all deaths caused by jihadists in the United States since 
the 9/11 attacks occurred in 2014 or later, the period when ISIS came 
to prominence.
    However, there has not been a deadly jihadist terrorist attack in 
the United States in more than a year. The last lethal attack was a 
March 2018 stabbing in Florida that killed 1 person. The perpetrator 
was a 17-year-old who admitted being inspired in part by ISIS.\3\ Even 
in this case, the perpetrator appears to have been influenced by a 
range of extremist ideologies, including white supremacy.\4\
---------------------------------------------------------------------------
    \3\ ``Incident/Investigation Report Case No. 17-000176'' (Jupiter 
Police Department, January 12, 2017), https://htv-prod-
media.s3.amazonaws.com/files/juvenile-report-deadly-stabbing-suspect-
1520986286.pdf.
    \4\ Paul Mueller, ``Former Homeland Security Official Says Better 
Communication Needed in Wake of Stabbing,'' CBS 12, March 14, 2018, 
https://cbs12.com/news/local/former-homeland-security-official-says-
better-communication-needed-in-wake-of-stabbing.
---------------------------------------------------------------------------
    ISIS's ability to inspire violence in the United States has 
suffered in the wake of its territorial losses, but policy makers 
should not expect ISIS's territorial collapse to remove the threat of 
ISIS-inspired terrorism in the United States. Sayfullo Saipov's truck 
ramming attack that killed 8 people in Manhattan in October 2017 
happened the same month that ISIS lost control of its capital in Raqqa, 
Syria.
    While the number of terrorism cases isn't an exact proxy for levels 
of threat, it certainly says something about the scale of the threat. 
The number of cases of individuals charged with jihadist terrorism-
related crimes has dramatically decreased since 2015 when it was at its 
peak with 80 cases. There have been 19 such cases as of the end of 
September 6, 2019.
    The relatively limited jihadist terrorist threat to the United 
States is in large part the result of the enormous investment the 
country has made in strengthening its defenses against terrorism in the 
post-9/11 era. The United States spent $2.8 trillion on 
counterterrorism efforts from 2002 to 2017, constituting almost 15 
percent of discretionary spending during that time frame.\5\ That 
effort has made the United States a hard target.\6\ On 9/11, there were 
16 people on the U.S. ``No Fly'' list.\7\ In 2016, there were 81,000 
people on the list.\8\ Before 9/11, there was no Department of Homeland 
Security, National Counterterrorism Center, or Transportation Security 
Administration. As a result, in January 2019, Director of National 
Intelligence Dan Coats testified that the United States is a 
``generally inhospitable operating environment'' for home-grown violent 
extremists compared to most Western countries.\9\
---------------------------------------------------------------------------
    \5\ ``Counterterrorism Spending: Protecting America While Promoting 
Efficiencies and Accountability,'' Stimson Center, May 2018, https://
www.stimson.org/sites/default/files/file-attachments/
CT_Spending_Report_0.pdf.
    \6\ This draws on: Peter Bergen, Emily Schneider, David Sterman, 
Bailey Cahall, and Tim Maurer, 2014: Jihadist Terrorism and Other 
Unconventional Threats (Washington, DC: Bipartisan Policy Center, 
2014), https://bipartisanpolicy.org/library/2014-jihadist-terrorism-
and-other-unconventional-threats/.
    \7\ Steve Kroft, ``Unlikely Terrorists on No Fly List,'' CBS News, 
October 5, 2006, www.cbsnews.com/news/unlikely terrorists-on-no-fly 
list/.
    \8\ ``Feinstein Statement on Collins Amendment,'' Office of Senator 
Dianne Feinstein, June 23, 2016, https://www.feinstein.senate.gov/
public/index.cfm/press-releases?ID=F02871C5-A023-4DEF-AEC3-
EDAF34BEA2BF.
    \9\ Daniel R. Coats, ``Statement for the Record: Worldwide Threat 
Assessment of the U.S. Intelligence Community,'' Senate Select 
Committee on Intelligence (2019), https://www.dni.gov/files/ODNI/
documents/2019-ATA-SFR_SSCI.pdf?utm_source=Gov%20Delivery%20Email- 
&utm_medium=Email&utm_campaign=Media%20Contacts%20Email.
---------------------------------------------------------------------------
    By the beginning of the Trump administration, the jihadist threat 
inside the United States was overwhelmingly lone-actor, ISIS-inspired 
attacks such as Sayfullo Saipov's 2017 vehicular ramming in Manhattan. 
This threat has stressed law enforcement, given the diversity of the 
perpetrators and the lack of organization needed to conduct such 
attacks. However, it is still a far cry from the type of attack that 
al-Qaeda carried out on 9/11.
    Law enforcement and intelligence services will still need to combat 
and monitor the threat to the homeland from foreign terrorist 
organizations. Al-Qaeda in the Arabian Peninsula's attempt to bring 
down a U.S.-bound passenger jet in 2009 with a bomb hidden in a 
terrorist's underwear and the case the same year in which 3 Americans 
trained with al-Qaeda and returned with a plan to bomb the New York 
City subway, and the 2010 failed Times Square bombing by Faisal 
Shahzad, who trained with the Pakistani Taliban, are reminders of this. 
But the fact is that these failed attempts by Foreign Terrorist 
Organizations (FTO) occurred a decade ago indicating that these FTOs 
were having quite a difficult time launching successful attacks in the 
United States whatever their goals might be to do so.
 the most likely terrorist threat: individuals inspired by a range of 
                     ideologies and white supremacy
    Today, the terrorist threat to the United States is emerging from 
across the political spectrum, as ubiquitous firearms, political 
polarization, images of the apocalyptic violence tearing apart 
societies across the Middle East and North Africa, racism, and the rise 
of populism have combined with the power of on-line communication and 
social media. This mixture has generated a complex and varied terrorist 
threat that crosses ideologies and is largely disconnected from 
traditional understandings of terrorist organizations.\10\
---------------------------------------------------------------------------
    \10\ Peter Bergen and David Sterman, ``The Real Terrorist Threat in 
America,'' Foreign Affairs, October 30, 2018, https://
www.foreignaffairs.com/articles/united-states/2018-10-30/real-
terrorist-threat-america.
---------------------------------------------------------------------------
    Since the 9/11 attacks, individuals inspired by jihadist ideology 
have killed 104 people in the United States. However, individuals 
inspired by far-right ideology (including white supremacist, anti-
Government, and anti-abortion views) have killed 109 people. On August 
3, 2019, Patrick Crusius, a 21-year-old white man, allegedly shot and 
killed 22 people at a Walmart in El Paso, Texas after posting a 
manifesto that described his motive as a purported ``Hispanic 
invasion.''\11\ The attack was the deadliest far-right attack in the 
post-9/11 era.
---------------------------------------------------------------------------
    \11\ Peter Bergen and David Sterman, ``The Huge Threat to America 
That Trump Ignores,'' CNN, August 4, 2019, https://www.cnn.com/2019/08/
04/opinions/el-paso-dayton-far-right-threat-bergen-sterman/index.html.
---------------------------------------------------------------------------
    Individuals inspired in part by black nationalist ideology have 
killed 8 people since 9/11, and individuals inspired by forms of 
ideological misogyny also killed 8 people during this period, for 
instance, a shooter killed 6 in Isla Vista, California, in 2014 in 
attacks he framed in terms of his hatred for women.\12\ And last year, 
a gunman killed 2 women at a yoga studio in Tallahassee, Florida, using 
the same rationale.\13\ The diversity of terrorists' political 
motivations warns against overly focusing on any single ideology.
---------------------------------------------------------------------------
    \12\ https://www.bbc.com/news/world-us-canada-43892189.
    \13\ https://www.washingtonpost.com/graphics/2019/local/yoga-
shooting-incel-attack-fueled-by-male-supremacy/.
---------------------------------------------------------------------------
    Though there are many ideological strands, and attackers' 
ideological reference points are often in flux or complex, one 
particular ideological strand--white supremacy--stands out as a 
particular danger. Since the inauguration of President Donald Trump, 
the United States has seen a spate of deadly white supremacist 
terrorist attacks. Every deadly far right attack in this period 
identified by New America had a nexus to white supremacy--together 
killing 43 people; 4 times the number of people killed by jihadist 
terrorists in the same period. There were also more than 3 times as 
many deadly far-right attacks with connections to white supremacy in 
the same period as lethal jihadist attacks.
    According to Michael McGarrity, assistant director of the FBI's 
counterterrorism division, and Calvin Shivers, deputy assistant 
director of the criminal investigative division, ``individuals adhering 
to racially motivated violent extremism ideology have been responsible 
for the most lethal incidents among domestic terrorists in recent 
years, and the FBI assesses the threat of violence and lethality posed 
by racially-motivated violent extremists will continue.'' In July 2019 
the FBI Director Christopher Wray, testified that there have been about 
100 domestic terrorism-related arrests during the past 9 months.
    White supremacist terrorist attacks and violence more generally, 
appears to be increasingly interlinked and internationalized. A study 
by The New York Times determined that ``at least a third of white 
extremist killers since 2011 were inspired by others who perpetrated 
similar attacks'' and that the connections crossed international 
borders. Crusius who carried out the attack at the Walmart in El Paso 
in August had posted a manifesto on 8chan, an on-line message board 
often featuring racist postings, about his support for the terrorist 
who had killed 50 worshippers at 2 mosques in Christchurch, New Zealand 
6 months earlier.
    Just as school shooters learn from other school shooters, 
terrorists learn from other terrorists. Notably, the terrorist who 
carried out the Christchurch attack had posted a manifesto to 8chan 
just before he carried out the attacks at the mosques. Crusius's on-
line manifesto referred to a ``Hispanic invasion'' of Texas as the 
rationale for his imminent terrorist attack in El Paso. Trump has also 
described migrants coming across the Southern Border as an 
``invasion.'' However, Crusius said his views about immigrants predated 
Trump becoming President.
            the territorial defeat of isis in syria and iraq
    Over the past year, the United States and its partners have 
successfully eliminated all of ISIS's territory in Iraq and Syria. In 
March, the U.S.-backed Syrian Democratic Forces (SDF) liberated ISIS's 
last piece of territory in Syria in Baghuz. The loss of its territory 
in Iraq and Syria dramatically undercut ISIS's claim that it is the 
caliphate, because the caliphate has historically been a substantial 
geographic entity, such as the Ottoman Empire, as well as a theological 
construct.\14\ The so-called caliphate also allowed the organization to 
have a constant influx of money through the taxation and extortion of 
millions of subjects, oil sales, ransoms and antiquities sales.\15\
---------------------------------------------------------------------------
    \14\ Peter Bergen, ``Is the Fall of Mosul the Fall of ISIS?,'' CNN, 
July 11, 2017, http://www.cnn.com/2017/07/11/opinions/isis-loss-of-
mosul-and-its-future-bergen/index.html.
    \15\ Callimachi, ``ISIS Caliphate Crumbles as Last Village in Syria 
Falls.''
---------------------------------------------------------------------------
    As ISIS's territorial caliphate collapsed, there was a noticeable 
decline in its propaganda capability. Key propaganda outputs including 
ISIS's English-language magazine Rumiyah ceased publication.\16\ 
According to Europol's 2019 report, ISIS's losses ``had a significant 
impact on its digital capabilities,'' leaving its weekly Arabic Al-Naba 
newsletter as its only regular output.\17\ The United Nations Sanctions 
Monitoring Team's January 2019 assessment said that ``the propaganda 
machinery of the ISIL core is further decentralizing, and the quality 
of its material continues to decline.''\18\
---------------------------------------------------------------------------
    \16\ ``Twenty-First Report of the Analytical Support and Sanctions 
Monitoring Team.''
    \17\ ``Terrorism Situation and Trend Report 2019 (TE-SAT)'' 
(EUROPOL, 2019), https://www.europol.europa.eu/activities-services/
main-reports/terrorism-situation-and-trend-report-2019-te-sat.
    \18\ ``Twenty-First Report of the Analytical Support and Sanctions 
Monitoring Team.''
---------------------------------------------------------------------------
               limits to isis's defeat in syria and iraq
    While ISIS's territorial collapse represents a major success for 
the counter-ISIS coalition, the group remains capable of exploiting 
current and potential future instability in Iraq and Syria to improve 
its position. The U.N. Sanctions Monitoring Committee in February 2019 
assessed that in Iraq, the group's transition ``into a covert network 
is well advanced'' and that ISIS poses a ``major threat'' in the form 
of assassinations of officials and ``frequent attacks'' on 
civilians.\19\ Indeed, precursors of ISIS previously demonstrated their 
ability to continue operations in areas where it has lost territory 
during the ``surge'' of U.S. troops in Iraq in 2008.\20\ A particular 
concern is the Al Hol refugee camp in Kurdish-controlled Syria where 
70,000 mostly women and children from countries around the world are 
warehoused. ISIS's ideology is alive and well in the camp according to 
multiple government and media reports.
---------------------------------------------------------------------------
    \19\ ``Twenty-Third Report of the Analytical Support and Sanctions 
Monitoring Team.''
    \20\ Daniel Milton and Muhammad al-'Ubaydi, ``The Fight Goes On: 
The Islamic State's Continuing Military Efforts in Liberated Cities'' 
(West Point: Combating Terrorism Center, June 2017), https://
ctc.usma.edu/app/uploads/2017/07/The-Fight-Goes-On.pdf; Brian Fishman, 
``Redefining the Islamic State'' (New America, August 18, 2011), 
https://www.newamerica.org/international-security/policy-papers/
redefining-the-islamic-state/.
---------------------------------------------------------------------------
    However, there are other factors that may limit the group's ability 
to achieve a resurgence in the near-term. Iraq has exited the ISIS 
crisis in far better shape than conventional wisdom expected at the 
outset of the counter-ISIS campaign, providing a stronger basis for 
preventing an ISIS resurgence having faced it once already.\21\ In 
addition, the presence in the region of U.S. forces as well as the 
U.S.-backed Syrian Democratic Forces and the well-trained Iraqi Counter 
Terrorism Service makes an ISIS resurgence less likely. However, the 
territorial defeat of ISIS in Syria and Iraq does not mean the defeat 
of the organization as a whole, let alone the larger jihadist movement.
---------------------------------------------------------------------------
    \21\ Douglas Ollivant and Bartle Bull, ``Iraq After ISIS: What To 
Do Now'' (New America, April 24, 2018), https://www.newamerica.org/
international-security/reports/iraq-after-isis-what-do-now/
introduction; After ISIS: What Is Next in the Middle East (Future of 
War Conference: New America, 2018), https://www.youtube.com/
watch?v=P2KitBX24Bc.
---------------------------------------------------------------------------
                       isis beyond syria and iraq
    On Easter Sunday, April 21, 2019, terrorists killed more than 250 
people in coordinated bombings of 3 churches and 3 hotels in Sri 
Lanka.\22\ The 2 groups tied to the attacks are ISIS \23\ and National 
Thowheed Jamath (NTJ).\24\ ISIS claimed the attack 2 days after it took 
place, and later reporting indicated that multiple family networks 
coordinated the bombings. According to the United Nations Secretary 
General's July 2019 report on the threat posed by ISIS, Abu Bakr al-
Baghdadi, ISIS's leader, was not aware of the attack before it 
happened.\25\ However, the attackers were sufficiently connected to 
ISIS's network that ISIS was able to release video of the attack via 
its official platforms.\26\
---------------------------------------------------------------------------
    \22\ Roshni Kapur, ``Sri Lanka's Easter Sunday Bombings: Moving 
Forward,'' Middle East Institute (blog), May 7, 2019, https://
www.mei.edu/publications/sri-lankas-easter-sunday-bombings-moving-
forward; Amarnath Amarasingam, ``Terrorism on the Teardrop Island: 
Understanding the Easter 2019 Attacks in Sri Lanka,'' CTC Sentinel 12, 
no. 5 (June 2019), https://ctc.usma.edu/app/uploads/2019/05/CTC-
SENTINEL-052019.pdf.
    \23\ Jeffrey Gettleman, Dharisha Bastians, and Mujib Mashal, ``ISIS 
Claims Sri Lanka Attacks, and President Vows Shakeup,'' The New York 
Times, April 23, 2019, https://www.nytimes.com/2019/04/23/world/asia/
isis-sri-lanka-blasts.html.
    \24\ Ethirajan, Anbarasan. ``Sri Lanka Attacks: The Family Networks 
behind the Bombings.'' BBC News, May 11, 2019. https://www.bbc.com/
news/world-asia-48218907.
    \25\ ``Ninth Report of the Secretary-General on the Threat Posed by 
ISIL (Da'esh) to International Peace and Security and the Range of 
United Nations Efforts in Support of Member States in Countering the 
Threat'' (United Nations Security Council, July 31, 2019), https://
undocs.org/S/2019/612.
    \26\ Amarasingam, ``Terrorism on the Teardrop Island: Understanding 
the Easter 2019 Attacks in Sri Lanka.''
---------------------------------------------------------------------------
    The Sri Lanka attack illustrates ISIS's ability to inspire attacks 
outside of Syria and Iraq. And it is not a stand-alone case. Since 2017 
ISIS, and its supporters, have conducted attacks in more than 25 
countries.\27\ Even so, there is reason for optimism. The United 
Nations Sanctions Monitoring Team reported a ``substantial reduction in 
global external attacks'' associated with ISIS in 2018.\28\
---------------------------------------------------------------------------
    \27\ Jin Wu, Derej Watkins, and Rukmini Callimachi, ``ISIS Lost Its 
Last Territory in Syria. But the Attacks Continue,'' New York Times, 
March 23, 2019, https://www.nytimes.com/interactive/2019/03/23/world/
middleeast/isis-syria-defeated.html.
    \28\ ``Twenty-Third Report of the Analytical Support and Sanctions 
Monitoring Team.''
---------------------------------------------------------------------------
    ISIS's ability to conduct such attacks is bolstered by two 
overlapping sources of international strength. One is its on-line 
networks--or what some have termed a ``Virtual Caliphate''--which 
produce and spread propaganda but also provide advice for attacks while 
helping ISIS's central organization claim ties to attacks carried out 
by militants thousands of miles away. The second factor is ISIS's more 
official structure of wilayat (provinces) and affiliates. In January 
2019, the U.N. Sanctions Monitoring Team reported that a centralized 
ISIS leadership remains that ``communicates and provides resources to 
its affiliates, albeit at a reduced level.''\29\ Al-Qaeda's continued 
existence and maintenance of its own affiliate network after Osama Bin 
Laden's death warns against dismissing the ability of the group to 
maintain a coherent albeit reduced network after territorial or 
leadership losses.
---------------------------------------------------------------------------
    \29\ ``Twenty-Third Report of the Analytical Support and Sanctions 
Monitoring Team.''
---------------------------------------------------------------------------
    ISIS has shown some evidence of its ability to build or sustain its 
brand and affiliate structure in the wake of the territorial collapse 
in Syria and Iraq. In April 2019, it claimed its first attack in the 
Democratic Republic of Congo, announcing a Central African 
``province.''\30\
---------------------------------------------------------------------------
    \30\ Steve Wembi and Joseph Goldstein, ``ISIS Claims First Attack 
in the Democratic Republic of Congo,'' New York Times, April 19, 2019, 
https://www.nytimes.com/2019/04/19/world/africa/isis-congo-attack.html; 
Rukmini Callimachi, ``ISIS, After Laying Groundwork, Gains Toehold in 
Congo,'' New York Times, April 20, 2019, https://www.nytimes.com/2019/
04/20/world/africa/isis-attack-congo.html.
---------------------------------------------------------------------------
    On the other hand, the strength of ISIS's affiliates should not be 
overestimated. Giving ISIS too much credit for its control over 
affiliates with pre-existing constituencies or exaggerating its 
affiliates' strength can aid ISIS's media strategy of portraying itself 
as in control of a highly centralized, globalized Caliphate even in the 
wake of its territorial defeat in Iraq and Syria.\31\ Many of ISIS's 
affiliates and provinces are either struggling or are under substantial 
military pressure. In Libya, once viewed as a potential fallback for 
the group, ISIS lost its hold of the city of Sirte in late 2016.\32\ 
Yet the group appears to continue to pose a resilient terrorist 
threat.\33\
---------------------------------------------------------------------------
    \31\ For a discussion of these risks see, for example: Daveed 
Gartenstein-Ross and Nathaniel Barr, ``Neither Remaining Nor Expanding: 
The Islamic State's Global Expansion Struggles,'' War on the Rocks, 
February 23, 2016, https://warontherocks.com/2016/02/neither-remaining-
nor-expanding-the-islamic-states-global-expansion-struggles/.
    \32\ Lachlan Wilson and Jason Pack, ``The Islamic State's 
Revitalization in Libya and Its Post-2016 War of Attrition,'' CTC 
Sentinel 12, no. 3 (March 2019), https://ctc.usma.edu/islamic-states-
revitalization-libya-post-2016-war-attrition/.
    \33\ Wilson and Pack; ``Twenty-Third Report of the Analytical 
Support and Sanctions Monitoring Team.''
---------------------------------------------------------------------------
    In other areas, where ISIS held less power, affiliates are facing 
even tougher environments. In January 2019, the U.N. Sanctions 
Monitoring Committee reported that ISIS ``in Yemen now has only a few 
mobile training camps and a dwindling number of fighters,'' that the 
group is not economically self-sufficient, that it recruits few foreign 
fighters, and that its activities in Al-Bayda ``now consist mainly of 
protecting the group's leaders and their family members.''\34\ Some 
affiliates have also seen the deaths of important leaders. For example, 
Abdulhakim Dhuqub, ISIS's second in command in Somalia, was killed by a 
U.S. airstrike in April 2019 in Xiriiro, Somalia.\35\ Abu Sayed 
Orakzai, also known as Sad Arhab and the leader of ISIS in Afghanistan, 
was killed by an airstrike by Afghan and coalition forces in 
Afghanistan in August 2018.\36\
---------------------------------------------------------------------------
    \34\ ``Twenty-Third Report of the Analytical Support and Sanctions 
Monitoring Team.''
    \35\ Kyle Rempfer, ``US Killed No. 2 Leader of ISIS-Somalia, 
Officials Say,'' Air Force Times, April 15, 2019, https://
www.airforcetimes.com/news/your-air-force/2019/04/15/us-killed-number-
two-leader-of-isis-somalia-officials-say/.
    \36\ Ehsan Popalzai, Ryan Browne, and Eric Levenson, ``ISIS Leader 
in Afghanistan Killed in Airstrike, US Says,'' CNN, August 26, 2018, 
https://www.cnn.com/2018/08/26/world/isis-leader-afghanistan-strike/
index.html.
---------------------------------------------------------------------------
    The ISIS affiliate in Afghanistan, however, continues to mount 
large-scale attacks as it did last month when an ISIS suicide bomber 
killed 63 people attending a wedding in the Afghan capital, Kabul. This 
attack underlined how careful the United States must be as it 
negotiates a withdrawal of forces with the Taliban. The United States 
must continue to maintain sufficient counterterrorism capacity to 
ensure that ISIS, al-Qaeda, and elements of the Taliban that reject any 
kind of peace agreement with the Afghan government do not threaten the 
Afghan State or regroup sufficiently to plot attacks in the West.
                       the resiliency of al-qaeda
    Even as ISIS suffers repeated setbacks, al-Qaeda has shown 
resiliency in the face of the counterterrorism campaigns directed 
against it and the challenge from within the jihadist movement posed by 
the rise of ISIS. In August, al-Qaeda marked the 31st anniversary of 
its founding, making the group one of the longest-lasting terrorist 
groups in history.\37\
---------------------------------------------------------------------------
    \37\ For one discussion of terrorist group longevity, see: Jodi 
Vittori, ``All Struggles Must End: The Longevity of Terrorist Groups,'' 
Contemporary Security Policy 30, no. 3 (December 2009): 444-66, https:/
/doi.org/10.1080/13523260903326602.
---------------------------------------------------------------------------
    Eighteen years after 9/11, al-Qaeda continues to operate across 
North Africa and South Asia despite the heavy losses it has sustained, 
including the death of its founder, Osama bin Laden, and of dozens of 
other al-Qaeda leaders who have been killed in drone strikes in 
Pakistan and Yemen. Al-Qaeda in the Indian Subcontinent, Al-Qaeda in 
the Arabian Peninsula, and Al-Qaeda in the Islamic Maghreb all retain 
capacity for sustained local attacks.
    In Syria, al-Qaeda's fortunes are far from clear, though any 
accounting must acknowledge a substantial al-Qaeda presence in the 
country. Al-Qaeda in Syria has undergone changes to its naming and 
organizational design. Initially known as the Nusra Front or Jabhat al-
Nusra, al-Qaeda in Syria adopted the name Jabhat Fateh al-Sham in July 
2016 to distance itself from al-Qaeda core, though then-Director of 
National Intelligence James Clapper labeled it a ``PR move . . . to 
create the image of being more moderate.''\38\ In January 2017 another 
rebranding occurred, with the group taking the name Hayat Tahrir Al-
Sham (HTS).\39\
---------------------------------------------------------------------------
    \38\ Bryony Jones, Clarissa Ward, and Salma Abdelaziz, ``Al-Nusra 
Rebranding: New Name, Same Aim? What You Need to Know,'' CNN, August 7, 
2016, http://www.cnn.com/2016/08/01/middleeast/al-nusra-rebranding-
what-you-need-to-know/index.html.
    \39\ ``Tahrir Al-Sham: Al-Qaeda's Latest Incarnation in Syria,'' 
BBC, February 28, 2017, http://www.bbc.com/news/world-middle-east-
38934206.
---------------------------------------------------------------------------
    Despite its presence in a number of countries, al-Qaeda has not 
demonstrated a capability to strike the West in a decade and a half. 
The last deadly attack in the West directed by al-Qaeda was the July 7, 
2005 bombing of London's transportation system, which killed 52 
commuters.\40\
---------------------------------------------------------------------------
    \40\ Al-Qaeda in the Arabian Peninsula, or AQAP, trained 2 brothers 
in Yemen in 2011 who, more than 3 years later, attacked the Paris 
offices of Charlie Hebdo, a satirical magazine. It is far from clear if 
AQAP had any real role in directing this attack beyond providing 
training years before the attack took place. For more on this attack 
see: Maria Abi-Habib, Margaret Coker, and Hakim Al Masmari, ``Al Qaeda 
in Yemen Claims Responsibility for Charlie Hebdo Attack,'' Wall Street 
Journal, January 14, 2015, https://www.wsj.com/articles/yemens-al-
qaeda-branch-claims-responsibility-for-charlie-hebdo-attack-1421231389.
---------------------------------------------------------------------------
    It is possible that al-Qaeda could feed off of ISIS's setbacks to 
regain leadership of the global jihadist movement.\41\ The U.N. 
Sanctions Monitoring Team notes that al-Qaeda remains stronger than 
ISIS in some regions, and that its leader Ayman al-Zawahiri released 
more statements than ISIS's leader in 2018.\42\ On the other hand, al-
Qaeda has its own troubles with the death of Hamza bin Laden, who was 
widely believed to have been being groomed for leadership.\43\ Hamza 
had appeared in al-Qaeda propaganda videos since he was a child. In 
recent years, he also had started releasing statements that positioned 
himself as one of al-Qaeda's ideologues--for instance, Hamza released a 
statement in 2016 calling for unity among the jihadist militants 
fighting in Syria. Earlier this year the U.S. State Department 
announced $1 million reward for information about Hamza. Despite 
Hamza's increasing public profile there was no evidence to suggest that 
he played a successful operational role in al-Qaeda organizing 
terrorist attacks around the world.
---------------------------------------------------------------------------
    \41\ Bruce Hoffman, ``The Coming ISIS-al Qaeda Merger,'' Foreign 
Affairs, March 29, 2016, https://www.foreignaffairs.com/articles/2016-
03p-29/coming-isis-al-qaeda-merger.
    \42\ ``Twenty-Third Report of the Analytical Support and Sanctions 
Monitoring Team.''
    \43\ ``Twenty-Fourth Report of the Analytical Support and Sanctions 
Monitoring Team Submitted Pursuant to Resolution 2368 (2017) Concerning 
ISIL (Da'esh), Al-Qaida and Associated Individuals and Entities'' 
(United Nations Analytical Support and Sanctions Monitoring Team, July 
15, 2019), https://undocs.org/S/2019/570; Julian E. Barnes, Adam 
Goldman, and Eric Schmitt, ``Son of Qaeda Founder Is Dead,'' New York 
Times, July 31, 2019, https://www.nytimes.com/2019/07/31/us/politics/
hamza-bin-laden-al-qaeda.html.
---------------------------------------------------------------------------
    The possibility of parts of ISIS and al-Qaeda merging also cannot 
be ruled out. At the very least, al-Qaeda's ability to remain resilient 
after decades of counterterrorism efforts suggests that ISIS remnants 
may similarly be able to continue on long after losing its hold on 
Syria and Iraq.
                       the resiliency of jihadism
    Beyond the fates of particular organizations, the jihadist movement 
has proven resilient in the Middle East, parts of the Sahel, North 
Africa and the Horn of Africa, as well as South Asia. This is in large 
part because of continuing instability across these regions.\44\ 
Underlying stressors include the Sunni-Shia sectarian conflict that 
overlaps with the Saudi-Iran regional proxy war playing out in Syria, 
Yemen, and elsewhere; state collapse across the Middle East and North 
Africa, most extensively in Iraq, Libya, Syria, and Yemen; high 
unemployment and economic strain in much of the region; and an on-going 
youth bulge.\45\ This combination of factors, along with trends that 
reduce the barriers to entry to jihadist organizing including the 
sustained use of social media, make it likely that instability will 
continue in the Middle East and North Africa and that this instability 
will enable jihadist activity for the foreseeable future.
---------------------------------------------------------------------------
    \44\ Examining the Global Terrorism Landscape, Subcommittee on 
Middle East, North Africa and International Terrorism (Committee on 
Foreign Affairs) Cong., 1-12 (2019) (testimony of Ali Soufan).
    \45\ This draws on: Peter Bergen, ``Normandy, Istanbul, Dhaka, 
Nice, Baghdad, Orlando: WHY?'' CNN, July 26, 2016, https://www.cnn.com/
2016/07/26/opinions/why-terrorist-attacks-opinion-peter-bergen/
index.html.
---------------------------------------------------------------------------
    Further escalations in either the U.S.-Iran or the Saudi-Iran 
conflicts could provide fresh fuel for jihadists. A major escalation or 
war would likely fuel apocalypticism in the region and do so in a way 
that aligns with the jihadist ideology that has framed Iran and Shia 
Muslims as enemies; the consequences could be similar to the regional 
catastrophe triggered by the 2003 U.S. invasion of Iraq.\46\
---------------------------------------------------------------------------
    \46\ Jesse Morton and Amarnath Amarasingam, ``How Jihadist Groups 
See Western Aggression Toward Iran,'' Just Security, April 16, 2018, 
https://www.justsecurity.org/54946/jihadist-groups-western-aggression-
iran/.
---------------------------------------------------------------------------
                        key trends in terrorism
Low-Tech Attacks: Firearms, Knives, and Vehicles
    The United States should expect low-tech forms of violence (reliant 
on firearms, knives, and vehicular rammings) to remain the most common 
type of terrorist violence in the West.\47\ Of the 8 jihadist attacks 
in the West in 2019 identified by New America, only 1 involved 
explosives. In 6 of the 8 attacks, a knife or other bladed weapon was 
used. In one attack, the perpetrator attempted but failed to carry out 
a vehicular ramming. Of the 108 jihadist attacks in the West since 2014 
identified by New America, only 18 have involved explosives. Of the 14 
deadly jihadist attacks in the United States since 9/11, only 2 
involved explosives. In contrast, 10 involved firearms.
---------------------------------------------------------------------------
    \47\ For the purposes of New America's database, the West is 
defined as consisting of Western Europe, the United States, Canada, and 
Australia. While we recognize that there is substantial variation in 
the threat among these locations, we believe that the countries making 
up this region share similar patterns with regard to the jihadist 
threat that are distinct form other regions and worthy of examination.
---------------------------------------------------------------------------
Explosives and TATP \48\
---------------------------------------------------------------------------
    \48\ This draws on: Peter Bergen, ``Paris Explosives are a Key Clue 
to Plot,'' CNN, November 17, 2015, http://www.cnn.com/2015/11/17/
opinions/bergen-explosives-paris-attacks/index.html.
---------------------------------------------------------------------------
    The attacks involving explosives in the West since 2014 can be 
divided into two categories: (1) Those involving TATP, triacetone 
triperoxide, which has long been the bomb of choice for jihadists in 
the West due to the ease of acquiring the components to make it, as 
compared to military-grade explosives; and (2) those involving 
improvised explosives. Seven of the 18 attacks in the West involving 
explosives since 2014 involved TATP. Eleven involved other improvised 
explosives.
    TATP can be built using the common household ingredient hydrogen 
peroxide, which is used to bleach hair. Though generally more 
accessible than military-grade explosives in the West, making a TATP 
bomb is tricky because the ingredients are highly unstable and can 
explode if improperly handled. The danger of building TATP bombs 
without training can be seen in the case of Matthew Rugo and Curtis 
Jetton, 21-year-old roommates in Texas City, Texas.\49\ They didn't 
have any bomb-making training and were manufacturing explosives in 2006 
from concentrated bleach when their concoction blew up, killing Rugo 
and injuring Jetton. The pair had no political motives: They had just 
wanted to blow up vehicles for fun.
---------------------------------------------------------------------------
    \49\ Cindy George, ``Man Going to Prison for 1906 Texas City 
Apartment Blast,'' Houston Chronicle, June 17, 2008, http://
www.chron.com/news/houston-texas/article/Man-going-to-prison-for-06-
Texas-City-apartment-1658835.php.
---------------------------------------------------------------------------
    TATP therefore can indicate that a perpetrator received training or 
direction from a foreign terrorist group. Indeed, 3 of the 7 attacks 
involving TATP since 2014--the 2015 Paris bombings, the 2016 bombings 
of the Brussels metro and airport by the same ISIS cell, and the 2017 
bombing of an Ariana Grande concert in Manchester, England--were 
directed by ISIS.
    The 4 other attacks since 2014 involving TATP--the September 2017 
bombing at the Parsons Green tube station in London in which the bomb 
failed to fully explode; the August 2017 attacks in Barcelona where 
traces of TATP were found at a suspected bomb factory tied to the plot; 
a June 2017 failed bombing of the Brussels metro that killed only the 
perpetrator; and a May 2019 attack in which a 24-year-old Algerian man 
exploded a bomb that included TATP in Lyon, France, injuring 14 
people--had no known operational link to ISIS.\50\ These attacks 
account for less than 5 percent of all inspired or enabled attacks and 
only a third of inspired or enabled attacks involving explosives.
---------------------------------------------------------------------------
    \50\ Aurelien Breeden, ``Lyon Bomb Suspect Told Police He Pledged 
Allegiance to ISIS,'' New York Times, May 30, 2019, https://
www.nytimes.com/2019/05/30/world/europe/lyon-france-bombing.html; Ian 
Cobain, ``Parsons Green Bomb Trial: Teenager `Trained to Kill by ISIS,' 
'' Guardian, March 7, 2018, https://www.theguardian.com/uk-news/2018/
mar/07/parsons-green-tube-bombing-ahmed-hassan-on-trial; Laura Smith-
Spark, Erin McLaughlin, and Pauline Armandet, ``Explosive TATP Used in 
Brussels Central Station Attack, Initial Exam Shows,'' CNN, June 21, 
2017, http://www.cnn.com/2017/06/21/europe/brussels-train-station-
attack/index.html; Paul Cruickshank, ``Source: Early Assessment Finds 
TATP at Barcelona Attackers' Bomb Factory,'' CNN, August 19, 2017, 
http://www.cnn.com/2017/08/18/europe/spain-terror-attacks-tatp/
index.html.
---------------------------------------------------------------------------
    All of the attacks involving TATP occurred in Europe and none 
occurred in the United States, and is a sign of the greater development 
of and diffusion of expertise and technology in jihadist networks in 
Europe compared to the United States.
    Eight ISIS-inspired attacks and 3 ISIS-enabled attack in the West 
since 2014 used other explosives. For example, Tashfeen Malik and Syed 
Rizwan Farook, who killed 14 people in San Bernardino, California, had 
built pipe bombs using Christmas lights and smokeless powder.\51\ They 
learned the bomb recipe they used from Inspire, the English-language 
propaganda magazine of al-Qaeda in the Arabian Peninsula, whose article 
``Make a Bomb in the Kitchen of Your Mom'' was also used by the Boston 
Marathon bombers.\52\
---------------------------------------------------------------------------
    \51\ Richard Esposito, ``San Bernardino Attackers Had Bomb Factory 
in Garage,'' NBC News, December 4, 2015, http://www.nbcnews.com/
storyline/san-bernardino-shooting/san-bernardino-attackers-had-bomb-
factory-garage-n474321.
    \52\ Adam Nagourney, Richard Perez-Pena, and Ian Lovett, ``Neighbor 
of San Bernardino Attackers Faces Terrorism Charges,'' New York Times, 
December 17, 2015, https://www.nytimes.com/2015/12/18/us/san-
bernardino-enrique-marquez-charges-justice-department.html; Scott 
Malone, ``DIY bomb instructions, device remains shown at Boston 
trial,'' Reuters, March 19, 2015, http://www.reuters.com/article/us-
boston-bombings-trial-idUSK- BN0MF14F20150319.
---------------------------------------------------------------------------
The Use of Armed Drones by Terrorist Groups
    The United States should expect the use of armed drones by 
terrorist groups and other non-state actors to expand. In August 2018, 
Venezuelan President Nicolas Maduro was the target of a bungled 
assassination attempt utilizing 2 quadcopter drones rigged with 
explosives during a speech in Caracas.\53\ He blamed far-right 
political opponents for what he called an assassination attempt.\54\ 
This imaginative, yet forbidding, attack has not only raised concerns 
over the possibility of taking out a head of state with drones, but the 
possibility of attacks at public events, parades, sporting events, etc. 
Already, groups such as ISIS, Hezbollah, the Houthis in Yemen, and 
Hamas, among others, have all used drones in varying capacities, such 
as for surveillance and for armed attacks.\55\
---------------------------------------------------------------------------
    \53\ Peter Bergen and Melissa Salyk-Virk, ``Attack of the Assassin 
Drones,'' CNN, August 07, 2018, https://www.cnn.com/2018/08/07/
opinions/attack-of-the-assassin-drones-bergen-salyk-virk/index.html.
    \54\ ``Apparent Drone Attack in Venezuela Highlights Growing 
Concern for U.S.,'' CBS News, August 6, 2018, https://www.cbsnews.com/
news/maduro-venezuela-apparent-drone-attack-highlights-growing-concern-
in-us/.
    \55\ ``Drone Wars: The Next Generation Report,'' May 2018, accessed 
June 26, 2019, https://dronewarsuk.files.wordpress.com/2018/05/dw-
nextgeneration-web.pdf.
---------------------------------------------------------------------------
    ISIS has deployed drones extensively. In January 2017, ISIS 
announced in its newsletter ``al-Naba'' the establishment of the 
``Unmanned Aircraft of the Mujahideen,'' an operational unit organized 
to engineer and deploy drones in combat.\56\ The terror network has 
been experimenting with drone technology since at least 2015, when 
Kurdish fighters in Syria shot down two small commercial drones 
reportedly belonging to the group--both of which were armed with 
explosives.\57\
---------------------------------------------------------------------------
    \56\ Joby Warrick, ``Use of Weaponized Drones by ISIS Spurs 
Terrorism Fears,'' Washington Post, February 21, 2017, https://
www.washingtonpost.com/world/national-security/use-of-weaponized-
drones-by-isis-spurs-terrorism-fears/2017/02/21/9d83d51e-f382-11e6-
8d72-263470- bf0401_story.html?utm_term=.11aab1591ca9.
    \57\ David Hambling, ``ISIS is Reportedly Packing Drones with 
Explosives Now,'' Popular Mechanics, December 16, 2015, http://
www.popularmechanics.com/military/weapons/a18577/isis-packing-drones-
with-explosives/.
---------------------------------------------------------------------------
    The Houthi rebels in Yemen have also been actively using drones. In 
the first half of 2019, they attacked the Jizan and Abha airports \58\ 
in southern Saudi Arabia, as well as Saudi oil pipelines.\59\ The 
multiple airport attacks have led to significant civilian injuries. 
This escalation does not show signs of stopping in the near future.
---------------------------------------------------------------------------
    \58\ ``Yemen's Houthis Attack Saudi's Abha Airport, Injuring 
Civilians,'' Saudi Arabia News, Al Jazeera, July 02, 2019, https://
www.aljazeera.com/news/2019/07/yemen-houthis-claim-attack-saudi-arabia-
abha-airport-190702005421808.html.
    \59\ Marwa Rashad, ``Yemen's Houthis Target Two Saudi Airports with 
Multiple Drone Attacks,'' Reuters, June 15, 2019, https://
www.reuters.com/article/us-yemen-security-saudi-drone/yemens-houthis-
target-two-saudi-airports-with-multiple-drone-attacks-idUSKCN1TG0M3.
---------------------------------------------------------------------------
    Though ISIS and the Houthis are the clearest cases of sustained 
armed drone campaigns by non-state actors, numerous other groups have 
used drones in combat or maintain the capability to do so. Non-state 
actor UAV use has been seen in as many as 20 countries or territories, 
but only a fraction are used as weapons.\60\ In most cases, UAV use has 
been for intelligence, surveillance, target acquisition, 
reconnaissance, or logistics, and often used for criminal activities 
such as trafficking or smuggling.\61\ In November 2018, Nigeria's 
president announced that Boko Haram had acquired and begun using 
drones.\62\ In July 2018, Russia claimed that one of its military bases 
in Syria was again attacked by drones,\63\ though the responsible group 
is unknown. The PKK used drones against Turkish soldiers in August 
2017.\64\
---------------------------------------------------------------------------
    \60\ Michael Kameras, Bethany McGann, and Jenny Sue Ross, ``U-AV TO 
ACT NOW: A Pilot-Less Study of Trends in Non-State Actor UAV Use and 
Related U.S. Government Policy Recommendations'' (Washington, DC: 
George Washington University, April 2019).
    \61\ Kameras, McGann, and Ross.
    \62\ ``Nigeria Says Boko Haram Now Uses Drones, Mercenaries Against 
Military,'' November 30, 2018, http://www.xinhuanet.com/english/2018-
11/30/c_137642456.htm.
    \63\ ``Unidentified Drones Attack Russian Khmeimim Airbase in 
Syria,'' Uawire.org., July 17, 2018, accessed July 3, 2019. https://
uawire.org/unidentified-drones-attack-russian-khmeimim-airbase-in-
syria#.
    \64\ Gurcan Metin, ``Turkey-PKK `drone-wars' escalate,'' Al-
Monitor, September 18, 2017, http://www.al-monitor.com/pulse/originals/
2017/09/turkey-pkk-drone-conflict-escalates.html.
---------------------------------------------------------------------------
    Hezbollah and Hamas were early adopters of drone technology and 
maintain an armed drone capability. In 2004, Hezbollah flew a military-
grade drone, reportedly acquired from Iran, over Israeli airspace.\65\ 
The Lebanese militant group also conducted strikes in Syria in 2014 
with an armed drone and in 2016 with over-the-counter drones armed with 
small explosives.\66\
---------------------------------------------------------------------------
    \65\ David Axe, ``Hezbollah Drone Is a Warning to the U.S.,'' Daily 
Beast, August 17, 2016, http://www.thedailybeast.com/hezbollah-drone-
is-a-warning-to-the-us.
    \66\ Ibid; Peter Bergen and Emily Schneider, ``Hezbollah Armed 
Drone? Militants' New Weapon,'' CNN.com, September 22, 2014, http://
www.cnn.com/2014/09/22/opinion/bergen-schneider-armed-drone-hezbollah/
index.html.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Soufan to summarize his statement for 5 
minutes.

     STATEMENT OF ALI H. SOUFAN, FOUNDER, THE SOUFAN CENTER

    Mr. Soufan. Thank you, Chairman Thompson, Ranking Member 
Rogers, distinguished Members. Thank you for hearing my 
statement today.
    Tomorrow marks 18 years since al-Qaeda murdered nearly 
3,000 people on American soil. As we honor the dead, we 
remember too the importance of remaining vigilant.
    Today I draw 4 main conclusions: First, both al-Qaeda and 
the so-called Islamic State remain potent threats; second, in 
addition to the jihadi challenge, we now face clear danger from 
white supremacist extremism; third, there are important 
similarities between these two groups of extremists; but 
fourth, under its current approach, the U.S. Government is at a 
clear disadvantage when it comes to combating white supremacy.
    The Islamic State is still today one of the richest jihadi 
groups in history, with access to hundreds of millions of 
dollars looted from Iraq and Syria. Its figurehead, Abu Bakr 
al-Baghdadi, has survived. It presides over global affiliates, 
so-called provinces, all the way from the Sahel to Afghanistan. 
Meanwhile, al-Qaeda continues to mutate and grow, with tens of 
thousands of members across the world, more than 100 times as 
many as the group had on September 11, 2001.
    Both the groups are more than capable of inspiring home-
grown extremists inside the United States. The radicalization 
is reinforced now by images of detention camps like Al Hol in 
Syria, where thousands of children from ISIS members are being 
kept.
    But it is not only jihadi terrorism that threatens our 
homeland. In Charleston, Pittsburgh, Poway, El Paso, 
Charlottesville, and elsewhere across this Nation Americans 
have suffered violence on the hands of white supremacist 
extremists. According to a study by the ADL, in 2018 white 
supremacists killed 3 times as many Americans as the Islamists. 
In May of this year a senior FBI official testified that the 
Bureau is pursuing about 850 domestic terrorism investigations, 
a significant majority of them targeting white supremacists.
    The threat bears a striking resemblance to what we saw with 
jihadism. White supremacists from around the world are 
increasingly forming global networks, much as jihadis did in 
the years leading to 9/11. Supremacists make a propaganda 
warning of an alleged great replacement of whites in the same 
way jihadis talk about supposed war against Islam. White 
supremacists promote violence as an appropriate way to defend 
the purity of the race, just as jihadis use violence to protect 
the purity of their religion. Both groups recruit followers and 
reinforce their messages through social media. While jihadis 
make martyrdom videos, supremacists post on-line manifestos. 
Where jihadis travel to fight in places like Syria and 
Afghanistan, white supremacists now have their own theater in 
which they learn to combat: Eastern Ukraine.
    Recent research shows that around 17,000 foreigners from 50 
countries, including the United States, have gone to fight in 
that conflict. In describing their mission, some white 
supremacists have used the term ``white jihad.'' One neo-Nazi 
group recently adopted the name ``The Base.'' Translated into 
Arabic, ``The Base'' is al-Qaeda.
    These similarities should inform our strategy. Terrorism, 
after all, is terrorism, regardless of race, faith, ideology, 
or creed.
    Our current framework allows for the designation of 
transnational groups as foreign terrorist entities. This gives 
the U.S. authorities 3 main advantages: First, they can monitor 
communications between people connected to the designated 
groups, even among U.S. citizens operating on U.S. soil; 
second, they can share intelligence on the designated groups 
with our allies; third, they can bring charges for providing 
material support to their designated groups, charges that carry 
severe penalties.
    These are important tools. Allies such as the United 
Kingdom and Canada already designated violent supremacist 
entities as terrorist organizations. But so far no white 
supremacist groups have been designated by the United States, 
despite the threat they pose. We need to recognize the 
international nature of this threat, and start treating white 
supremacist terrorists the way we treat other global 
terrorists. Only then can we give our law enforcement the tool 
they need to meet the challenge.
    Eighteen years ago we grossly underestimated the rising 
threat of jihadi terrorism. That inattention cost us dearly on 
September 11, 2001. I cannot say what form the jihadi 
supremacist equivalent of 9/11 might take, but we should not 
wait to find out before we act.
    Thank you.
    [The prepared statement of Mr. Soufan follows:]
                  Prepared Statement of Ali H. Soufan
                           September 10, 2019
                              introduction
    Chairman Thompson, Ranking Member Rogers, distinguished Members: 
Thank you for hearing my testimony today.
    During this session on global terrorism and threats to the 
homeland, my aim is to provide a brief overview of the threat landscape 
while focusing in particular on the challenges facing the United States 
in protecting the homeland from terrorist attacks. We are reminded of 
the importance of remaining vigilant, particularly given tomorrow's 
somber 18-year anniversary of the al-Qaeda attacks on the United States 
on September 11, 2001. But even after untold trillions of dollars \1\ 
spent and thousands of lives lost in the name of counter-terrorism, the 
threat landscape is arguably more complex today than it was nearly 2 
decades ago. The threat from al-Qaeda and other Salafi-jihadist groups 
like the so-called Islamic State remain, joined by the challenges posed 
by violent white supremacist extremism (WSE), an ideology with a 
foothold in the United States and with tentacles stretching across the 
globe, from Ukraine to New Zealand and beyond.
---------------------------------------------------------------------------
    \1\ No official number exists for the combined cost of the ``Global 
War on Terror,'' but estimates range between $3 trillion and $6 
trillion (National Defense Budget Estimates for fiscal year 2019; the 
Costs of War project at Brown University's Watson Institute of 
International and Public Affairs).
---------------------------------------------------------------------------
    Thank you for the opportunity to present this testimony.
    In my years of tracking, analyzing, and ultimately trying to 
disrupt terrorist organizations, I draw 4 main conclusions about the 
current state of global terrorism and threats to the U.S. homeland. 
First, both al-Qaeda and the Islamic State remain a threat to the 
United States homeland, even as both organizations look different than 
they did just a year ago at this same time, given important 
geopolitical developments. Second, in addition to the challenges posed 
by combating Salafi-jihadist organizations, there is a clear and 
present threat posed by violent white supremacy extremism (WSE) and 
violent white supremacy. Third, there are important similarities 
between Salafi-jihadist organizations and violent white supremacist 
extremists, especially in areas such as the use of violence, operating 
on the internet, recruitment, propaganda, financing, and the 
transnational nature of the networks. Fourth, the U.S. Government is at 
a disadvantage, largely due to the lack of comprehensive legislation 
and available tools, when it comes to combating the threat posed by 
violent white supremacist extremists, but there are still important 
lessons that can be gleaned from studying the fight against al-Qaeda 
and the Islamic State.
                   the current state of global jihad
    Months after the collapse of the territorial caliphate in Iraq and 
Syria, the Islamic State remains a viable threat to the United States 
and the international community writ large. The organization's leader, 
Abu Bakr al-Baghdadi is alive and on the lam, while in the group's 
former strongholds, it is reconstituting its networks and waging a low-
level campaign of political assassinations, ambushes, and guerilla 
warfare-style attacks.\2\ IS will be able to continue making money, 
even without a stranglehold on territory, and still has access to 
hundreds of millions of dollars that will aid its efforts to rebuild 
its organization.\3\ A United Nations report recently warned that IS 
``could launch international terrorist attacks before the end of the 
year'' in Europe.\4\ The United States remains vulnerable from home-
grown violent extremists inspired by Islamic State propaganda, 
reinforced in the eyes of would-be jihadists by the daily images coming 
from detention camps like al-Hol, in Syria.\5\ Over the past several 
months, there have been several arrests of American citizens seeking to 
plan attacks on U.S. soil on behalf of the Islamic State.\6\
---------------------------------------------------------------------------
    \2\ Eric Schmitt, Alissa J. Rubin, and Thomas Gibbons-Neff. ``ISIS 
Is Regaining Strength in Iraq and Syria.'' The New York Times, August 
19, 2019, https://www.nytimes.com/2019/08/19/us/politics/isis-iraq-
syria.html; Louisa Loveluck and Mustafa Salim. ``Hundreds of Islamic 
State Militants Are Slipping Back into Iraq. Their Fight Isn't Over.'' 
Washington Post, July 21, 2019, https://www.washingtonpost.com/world/
middle-east/hundreds-of-islamic-state-militants-are-slipping-back-into-
iraq-their-fight-isnt-over/2019/07/21/1fbe4262-a259-11e9-a767-
d7ab84aef- 3e9_story.html.
    \3\ Patrick Johnston, Mona Alami, Colin P. Clarke, and Howard J. 
Shatz. ``Return and Expand? The Finances and Prospects of the Islamic 
State After the Caliphate.'' RAND Corporation, 2019, https://
www.rand.org/pubs/research_reports/RR3046.html.
    \4\ Nick Cumming-Bruce, ``ISIS, Eyeing Europe, Could Launch Attacks 
This Year, U.N. Warns.'' The New York Times, August 3, 2019, https://
www.nytimes.com/2019/08/03/world/middleeast/islamic-state-attacks-
europe.html.
    \5\ Bethan McKernan, ``Inside Al-Hawl Camp, the Incubator for 
Islamic State's Resurgence.'' The Guardian, August 31, 2019, https://
www.theguardian.com/world/2019/aug/31/inside-al-hawl-camp-the-
incubator-for-islamic-states-resurgence; Vivian Yee, ``Guns, Filth and 
ISIS: Syrian Camp Is `Disaster in the Making.' '' The New York Times, 
September 3, 2019, https://www.nytimes.com/2019/09/03/world/middleeast/
isis-alhol-camp-syria.html; Loveluck, Louisa, and Souad Mekhennet. ``At 
a Sprawling Tent Camp in Syria, ISIS Women Impose a Brutal Rule.'' 
Washington Post, September 3, 2019, https://www.washingtonpost.com/
world/at-a-sprawling-tent-camp-in-syria-isis-women-impose-a-brutal-
rule/2019/09/03/3fcdfd14-c4ea-11e9-8bf7-cde2d9e09055_story.html.
    \6\ Madeleine Carlisle, ``19-Year-Old Queens Man Arrested for 
Intending to Commit an Attack on Behalf of ISIS.'' Time, August 30, 
2019, https://time.com/5665735/queens-teen-isis-attack/; Michael 
Kunzelman, ``Man Indicted on Terror Charge in Alleged ISIS-Inspired 
Plot.'' NBC4 Washington, August 29, 2019, http://www.nbcwashington.com/
news/local/Maryland-Man-Indicted-on-Terror-Charge-in-Alleged-ISIS-
Inspired-Plot-558764191.html.
---------------------------------------------------------------------------
    Al-Qaeda, for its part, also seems determined to strike the United 
States. In a message from April 2017, Zawahiri reiterated the 
importance of al-Qaeda's global struggle.\7\ The next month, messages 
from both Osama bin Laden's son Hamza (now allegedly deceased) and AQAP 
emir Qassim al-Raimi both released videos urging al-Qaeda's followers 
to launch attacks in the West.\8\ Yet another speech from Zawahiri, 
this one titled ``America is the First Enemy of the Muslims'' and 
released in March 2018, incited al-Qaeda's followers to strike the 
United States.\9\ A recent United Nations assessment of al-Qaeda's 
links to groups in Syria observed the following in reference to Hay'at 
Tahrir al-Sham (HTS) and Tanzim Huras al-Din (HAD): ``HTS and HAD are 
assessed to share a history and an ideology but to differ on policy. 
HTS centered its agenda on [Syria], with no interest in conducting 
attacks abroad. HAD, by contrast, was said to have a more international 
outlook.''\10\ None of this should be surprising, as al-Qaeda's 
overarching narrative has always been that the West is at war with 
Islam.\11\
---------------------------------------------------------------------------
    \7\ Charles Lister, ``How al-Qa'ida Lost Control of Its Syrian 
Affiliate,'' CTC Sentinel, Vol. 11, Iss. 12, February 2018, p. 6, 
https://ctc.usma.edu/al-qaida-lost-control-syrian-affiliate-inside-
story/.
    \8\ Aaron Y. Zelin, ``Introduction,'' in Aaron Y. Zelin, ed., How 
al-Qaeda Survived Drones, Uprisings, and the Islamic State: The Nature 
of the Current Threat, Washington Institute for Near East Policy, 
Policy Focus 153, June 2017, p. 6, https://www.washingtoninstitute.org/
policy-analysis/view/how-al-qaeda-survived-drones-uprisings-and-the-
islamic-state.
    \9\ Tore Refslund Hamming and Pieter Van Ostaeyen, ``The True Story 
of al-Qaeda's Demise and Resurgence in Syria,'' Lawfare, April 8, 2018, 
https://www.lawfareblog.com/true-story-al-qaedas-demise-and-resurgence-
syria; see also, Thomas Joscelyn, ``Al Qaeda Chief Says America is the 
`First Enemy' of Muslims,'' Long War Journal, March 21, 2018, https://
www.longwarjournal.org/archives/2018/03/al-qaeda-chief-says-america-is-
the-first-enemy-of-muslims.php.
    \10\ Letter dated 15 July 2019 from the Chair of the Security 
Council Committee pursuant to resolutions 1267 (1999), 1989 (2011) and 
2253 (2015) concerning Islamic State in Iraq and the Levant (Da'esh), 
al-Qaeda and associated individuals, groups, undertakings, and entities 
addressed to the President of the Security Council. https://undocs.org/
S/2019/570.
    \11\ Colin P. Clarke and Charles Lister, ``Al-Qaeda is Ready to 
Attack You Again,'' Foreign Policy, September 4, 2019, https://
foreignpolicy.com/2019/09/04/al-qaeda-is-ready-to-attack-you-again/.
---------------------------------------------------------------------------
        the rising threat of violent white supremacist extremism
    But it is not only jihadi terrorism that threatens the U.S. 
homeland. As the Anti-Defamation League reports, in 2018 violent white 
supremacist extremists were responsible for 3 times as many deaths in 
the United States as were Islamists.\12\ Moreover, in May of this year, 
a senior FBI official testified to Congress that the bureau is pursuing 
about 850 domestic terrorism investigations, a ``significant majority'' 
of which are related to white supremacist extremists.\13\ Out of 
necessity, U.S. law enforcement and intelligence agencies are well 
aware of the threat posed to the U.S. homeland from domestic terrorism. 
From Pittsburgh to Poway and El Paso to Charlottesville, violent white 
supremacist extremism plagues the United States on a regular basis, but 
this threat is not just local in nature.
---------------------------------------------------------------------------
    \12\ ``Murder and Extremism in the United States in 2018,'' Anti-
Defamation League, https://www.adl.org/murder-and-extremism-2018.
    \13\ David Shortell, ``FBI is Investigating More than 850 Domestic 
Terrorism Cases,'' CNN.com, May 8, 2019, https://www.cnn.com/2019/05/
08/politics/fbi-domestic-terrorism-cases/index.html.
---------------------------------------------------------------------------
    The attacks in Norway and New Zealand invited closer scrutiny on 
WSE, and revealed that similar to the global jihadist movement, violent 
white supremacists and other elements of the radical ideology maintain 
international linkages and continue to forge global networks with 
ideologues \14\ radicalizing individuals across the globe. Both Breivik 
and Tarrant drew inspiration from grievances from other countries and 
causes, while each presented himself as a defender of global European 
white civilization.\15\ And while the attacks at Utoya and Christchurch 
are among the most prominent of those perpetrated by WSEs, there have 
also been linkages between WSE ideologies and attacks in the United 
States (California, Florida, Kansas, New Mexico, Oregon, South 
Carolina, Wisconsin) Canada, Germany, the United Kingdom, and 
Sweden.\16\
---------------------------------------------------------------------------
    \14\ Some prominent ideologues in the WSE movement include: James 
Mason, Greg Johnson, Martin Lichtmesz, Frodi Midjord, and Kevin 
MacDonald, among others.
    \15\ Daniel Byman, ``Right-Wingers Are America's Deadliest 
Terrorists,'' Slate, August 5, 2019, https://slate.com/news-and-
politics/2019/08/right-wing-terrorist-killings-government-focus-
jihadis-islamic-radicalism.html;. see also, Daniel Byman, ``Right-Wing 
Terrorism Has Gone Global,'' Slate, March 15, 2019, https://slate.com/
news-and-politics/2019/03/new-zealand-mosque-attacks-global-right-wing-
terrorism.html.
    \16\ Weiyi Cai and Simone Landon, ``Attacks by White Extremists are 
Growing. So Are Their Connections,'' New York Times, April 3, 2019, 
https://www.nytimes.com/interactive/2019/04/03/world/white-extremist-
terrorism-christchurch.html.
---------------------------------------------------------------------------
    Yet the emerging epicenter or WSE seems to be located in Russia and 
Ukraine. There are extensive ties between the Russian government and 
far-right groups in Europe.\17\ Russian disinformation efforts on-line 
have fueled anti-immigrant sentiment in countries like Sweden, fueling 
resentment among native-born Swedes and newly-arrived immigrants from 
the Middle East, North Africa, and South Asia. In 2015, Sweden accepted 
163,000 asylum seekers, primarily from Afghanistan, Somalia, and 
Syria.\18\
---------------------------------------------------------------------------
    \17\ Robert Levinson, ``The Fight in the Right: It is Time to 
Tackle White Supremacist Terrorism Globally,'' War on the Rocks, August 
22, 2019, https://warontherocks.com/2019/08/the-fight-in-the-right-it-
is-time-to-tackle-white-supremacist-terrorism-globally/.
    \18\ Jo Becker, ``The Global Machine Behind the Rise of Far-Right 
Nationalism,'' New York Times, August 10, 2019, https://
www.nytimes.com/2019/08/10/world/europe/sweden-immigration-
nationalism.html?rref=collection%2Fbyline%2Fjobecker&action=click&conten
tCollection=- 
undefined&region=stream&module=stream_unit&version=latest&contentPlaceme
nt=- 1&pgtype=collection.
---------------------------------------------------------------------------
    In Ukraine, the aforementioned Azov Battalion has actively 
recruited foreign fighters motivated by white supremacy and neo-Nazi 
beliefs, including many from the West, to join its ranks and receive 
training, indoctrination, and instruction in irregular warfare.\19\ The 
group has cultivated a relationship with members of the Atomwaffen 
Division \20\ as well as with U.S.-based militants from the Rise Above 
Movement,\21\ or RAM, which the FBI has labeled a ``white supremacy 
extremist group'' based in Southern California. The Azov Battalion also 
maintains a political wing, offering ideological education, and ties to 
a growing vigilante street movement which can be counted on for 
violence, intimidation, and coercion.\22\ On the other side of the 
conflict in Ukraine, Russian groups like the Russian Imperial Movement 
and its paramilitary unit, the Imperial Legion volunteer unit, also 
attract and train foreign fighters motivated by white supremacy and 
neo-Nazi beliefs.\23\ Just as jihadists have used conflicts in 
Afghanistan, Chechnya, the Balkans, Iraq, and Syria to swap tactics, 
techniques, and procedures (TTPs) and solidify transnational networks, 
so too are WSEs using Ukraine as a hub or battlefield laboratory, where 
an estimated 17,000 people from over 50 countries has traveled to 
actively participate in the on-going conflict.\24\
---------------------------------------------------------------------------
    \19\ ``IntelBrief: The Transnational Network That Nobody is Talking 
About.'' Soufan Center 22 March 2019, https://thesoufancenter.org/
intelbrief-the-transnational-network-that-nobody-is-talking-about/; 
Oren Dorell, ``Volunteer Ukrainian Unit Includes Nazis,'' USA Today, 
March 10, 2015, https://www.usatoday.com/story/news/world/2015/03/10/
ukraine-azov-brigade-nazis-abuses-separatists/24664937/.
    \20\ Oleksiy Kuzmenko, `` `Defend the White Race:' American 
Extremists Being Co-opted by Ukraine's Far-Right,'' Bellingcat, 
February 15, 2019, https://www.bellingcat.com/news/uk-and-europe/2019/
02/15/defend-the-white-race-american-extremists-being-co-opted-by-
ukraines-far-right/.
    \21\ Criminal Complaint, United States of America v. Robert Paul 
Rundo, Robert Boman, Tyler Laube, and Aaron Eason, United States 
District Court, Central District of California, https://int.nyt.com/
data/documenthelper/421-robert-rundo-complaint/0f1e76cdeef814133f24/
optimized/full.pdf.
    \22\ Tim Hume, ``Far-Right Extremists Have Been Using Ukraine's War 
as a Training Ground. They're Returning Home,'' Vice News, July 31, 
2019, https://www.vice.com/en_us/article/vb95ma/far-right-extremists-
have-been-using-ukraines-civil-war-as-a-training-ground-theyre-
returning-home.
    \23\ Michael Carpenter, ``Russia Is Co-Opting Angry Young Men.'' 
The Atlantic, August 29, 2018, https://www.theatlantic.com/ideas/
archive/2018/08/russia-is-co-opting-angry-young-men/568741/; Josephine 
Huetlin, ``Russian Extremists Are Training Right-Wing Terrorists From 
Western Europe.'' The Daily Beast, August 2, 2017, https://
www.thedailybeast.com/russian-extremists-are-training-right-wing-
terrorists-from-western-europe.
    \24\ Kacper Rekawak, Not Only Syria? The Phenomenon of Foreign 
Fighters in Comparative Perspective, GLOBSEC, 2017.
---------------------------------------------------------------------------
           comparing jihadists & white supremacist extremists
    Although the threat of WSE violence has been omnipresent, as 
outlined in earlier sections discussing the history and evolution of 
the movement, the lion's share of studies and analysis has focused on 
jihadi violence. The impact of the al-Qaeda attacks of September 11, 
2001 was so significant that for the past 2 decades, al-Qaeda and now 
the Islamic State garner far more media attention than terrorist groups 
not motivated by Salafi jihadism.\25\ And while there are obviously 
important differences between jihadis and white supremacist extremists, 
there are also important similarities that can help inform best 
practices and lessons learned in how these organizations can be 
successfully countered. Writing in the New York Times, Max Fisher 
recently observed, ``The ideological tracts, recruiting pitches and 
radicalization tales of the Islamic State during its rise echo, almost 
word-for-word, those of the white nationalist terrorists of 
today.''\26\ John R. Allen and Brett McGurk agree, assessing that while 
WSE attacks ``may differ from Islamic State attacks in degree,'' they 
are also ``similar in kind: driven by hateful narratives, 
dehumanization, the rationalization of violence and the glorification 
of murder, combined with ready access to recruits and weapons of 
war.''\27\
---------------------------------------------------------------------------
    \25\ Controlling for target type, fatalities, and being arrested, 
attacks by Muslim perpetrators received, on average, 357% more coverage 
than other attacks. See Erin M. Kearns et al., ``Why Do Some Terrorist 
Attacks Receive More Media Attention Than Others?'' Justice Quarterly, 
36: 6, 2019, pp. 985-1022.
    \26\ Max Fisher, ``White Terrorism Shows `Stunning' Parallels to 
Islamic State's Rise,'' New York Times, August 5, 2019, https://
www.nytimes.com/2019/08/05/world/americas/terrorism-white-nationalist-
supremacy-isis.html.
    \27\ John R. Allen and Brett McGurk, ``We Worked to Defeat the 
Islamic State. White Nationalist Terrorism is an Equal Threat,'' 
Washington Post, August 6, 2019, https://www.washingtonpost.com/
opinions/we-worked-to-defeat-the-islamic-state-white-nationalist-
terrorism-is-an-equal-threat/2019/08/06/e50c90e8-b87d-11e9-bad6-
609f75bfd97f_story.html.
---------------------------------------------------------------------------
Utility of Violence
    Like jihadis, white supremacist extremists justify the use of 
extreme violence, in some cases bordering on anomie, by citing self-
defense, inherently necessary because of the violence used by their 
adversaries. Both groups often deploy metaphors in their writings and 
propaganda that reflect a firm belief that their societies are under 
siege and that only violence can halt the ``invaders.''\28\ For 
jihadis, this means an assault on Muslims by the West, which seeks to 
destroy Islam and humiliate the ummah. Conversely, white supremacist 
extremists fear encroachment from multiculturalism, immigration, and 
the so-called ``Islamization'' of society. White supremacist extremists 
propaganda relies on themes related to so-called ``replacement 
theory,'' or ``the great replacement,'' which is the idea that Western 
culture is under assault from demographic shifts favoring non-white 
immigrants, something WSEs believe is the deliberate strategy of a 
shadowy cabal of (mostly) Jewish elites.\29\ The conspiracy theory 
claims an ``intellectual'' basis in the work of French philosopher 
Albert Camus and American eugenicist Madison Grant.\30\ The 
exemplification of this violent ideology was captured in the motivation 
of Robert Bowers, the terrorist who attacked the Tree of Life Synagogue 
in Pittsburgh, PA in October 2018. Bowes appeared to target the Tree of 
Life because of what he perceived as the synagogue's assistance for 
immigrants from Muslim-majority countries.\31\
---------------------------------------------------------------------------
    \28\ Sulome Anderson, ``The Twin Hatreds,'' Washington Post, March 
22, 2019, https://www.washingtonpost.com/news/posteverything/wp/2019/
03/22/feature/how-white-supremacy-and-islamist-terrorism-strengthen-
each-other-online/.
    \29\ Rosa Schwartsburg, ``The `White Replacement Theory' Motivates 
Alt-Right Killers The World Over,'' The Guardian, August 5, 2019, 
https://www.theguardian.com/commentisfree/2019/aug/05/great-
replacement-theory-alt-right-killers-el-paso; see also, Jacob Davey and 
Julia Ebner, `` `The Great Replacement: The Violent Consequences of 
Mainstreamed Extremism,' '' Institute for Strategic Dialogue (ISD), 
2019, https://www.isdglobal.org/isd-publications/the-great-replacement-
the-violent-consequences-of-mainstreamed-extremism/.
    \30\ John Eligon, ``The El Paso Screed, and the Racist Doctrine 
Behind It,'' New York Times, August 7, 2019, https://www.nytimes.com/
2019/08/07/us/el-paso-shooting-racism.html.
    \31\ Masha Gessen, ``Why The Tree of Life Shooter Was Fixated on 
the Hebrew Immigrant Aid Society,'' New Yorker, October 27, 2018, 
https://www.newyorker.com/news/our-columnists/why-the-tree-of-life-
shooter-was-fixated-on-the-hebrew-immigrant-aid-society.
---------------------------------------------------------------------------
    Violence is viewed by both groups as something that it both 
utilitarian, but at times theatrical, intended to inspire followers 
while terrorizing others. Only through extreme violence can these 
groups achieve their goals, which requires inducing a climate of fear 
that can in turn be used to reshape society in the image they seek to 
create.\32\
---------------------------------------------------------------------------
    \32\ Ali Soufan, ``I Spent 25 Years Fighting Jihadis. White 
Supremacists Aren't So Different,'' New York Times, August 5, 2019, 
https://www.nytimes.com/2019/08/05/opinion/white-supremacy-
terrorism.html.
---------------------------------------------------------------------------
Cycle of Violence
    In addition to serving as both the means and the end for both 
jihadists and WSEs, violence is also intended to beget further 
violence, contributing to a tit-for-tat cycle that inspires followers 
and provokes a reaction from those not considered within the 
terrorists' in-group. Extreme violence serves as a complement to 
identity politics and the two are inextricably linked in ways that do 
not always appear obvious. The perceived threat to the identity of 
these groups is the ``exact mirror image'' of each other.\33\ The 
comparison even extends to the naming of groups within these movement, 
as neo-Nazis recently adopted the name ``The Base'' for a new social 
networking platform connecting various elements of the extreme 
right.\34\ ``The Base'' was the name selected by Osama bin Laden for 
his group, which when translated into Arabic means ``al-Qaeda.'' In 
terms of organizational structure, white supremacists adopted the 
leaderless resistance model of terrorism before jihadists ever did, 
relying on attacks by lone actors as a means of minimizing infiltration 
of the movement by Federal law enforcement agents in the 1980's.\35\
---------------------------------------------------------------------------
    \33\ Kathy Gilsinan, ``How White-Supremacist Violence Echoes Other 
Forms of Terrorism,'' The Atlantic, March 15, 2019, https://
www.theatlantic.com/international/archive/2019/03/violence-new-zealand-
echoes-past-terrorist-patterns/585043/.
    \34\ Ben Makuch and Mack Lamoureux, ``Neo-Nazis Are Organizing 
Secretive Paramilitary Training Across America,'' Vice News, November 
20, 2018, https://www.vice.com/en_us/article/a3mexp/neo-nazis-are-
organizing-secretive-paramilitary-training-across-america.
    \35\ Bruce Hoffman, ``Back to the Future: The Return of Violent 
Far-Right Terrorism in the Age of Lone Wolves,'' War on the Rocks, 
April 2, 2019, https://warontherocks.com/2019/04/back-to-the-future-
the-return-of-violent-far-right-terrorism-in-the-age-of-lone-wolves/.
---------------------------------------------------------------------------
    Jihadi violence in the Middle East and North Africa has contributed 
to civil war and state failure, which in turn has driven migration of 
predominantly Muslim societies to Europe. As European countries receive 
ever-increasing applications for asylum--in 2015, the European Union 
received more than 1.3 million applications for asylum--segments of 
domestic populations in countries like Germany, France, the United 
Kingdom and elsewhere throughout the continent have perceived the 
demographic shift as threatening to their traditional values.\36\ In 
some cases, this has led to the growth of movements like PEGIDA, or 
Patriotic Europeans Against the Islamization of the West.\37\
---------------------------------------------------------------------------
    \36\ Julia Ebner, The Rage, London: I.B. Tauris & Co. Ltd, London, 
2017, p.79.
    \37\ Katrin Bennhold, ``One Legacy of Merkel? Angry East German Men 
Fueling the Far Right,'' New York Times, November 5, 2018, https://
www.nytimes.com/2018/11/05/world/europe/merkel-east-germany-
nationalists-populism.html.
---------------------------------------------------------------------------
    To extremists on both sides, the current state of world affairs is 
presented as an existential threat to their way of life, and 
exclusionist ideologies fuel a pushback against societal change.\38\ 
Extremists also feel emboldened, convinced that violence will lead to 
revolutionary change. ``Murderous Muslim militants, like America's most 
dangerous young men, feel destiny if not righteous wrath behind 
them.''\39\ Both movements also see attacks contributing to an 
``inspirational contagion'' which will strengthen their respective 
organizations while encouraging further plots.\40\ Each attack builds 
on the last and can have a cumulative effect, reinforcing the validity 
of propaganda that both jihadists and violent white supremacist 
extremists promote.\41\ As Simon Cottee notes, ``jihadists and far-
right violent extremists feed off each other, cynically exploiting the 
outrages of their enemies as a spur and justification for further 
retaliatory bloodshed.''\42\
---------------------------------------------------------------------------
    \38\ Melissa Etehad, ``White Supremacists and Islamic State 
Recruits Have More in Common Than You Might Think,'' Los Angeles Times, 
August 7, 2019, https://www.latimes.com/world-nation/story/2019-08-07/
domestic-terrorism-white-supremacists-islamic-state-recruits.
    \39\ Reuel Marc Gerecht, ``Violent Young Men, Here and Abroad,'' 
The Wall Street Journal, August 13, 2019, https://www.wsj.com/articles/
violent-young-men-here-and-abroad-11565737090.
    \40\ Clint Watts, ``America Has a White Nationalist Terrorism 
Problem. What Should We Do?'' Foreign Policy Research Institute (FPRI), 
May 1, 2019, https://www.fpri.org/article/2019/05/america-has-a-white-
nationalist-terrorism-problem-what-should-we-do/.
    \41\ Rita Katz, ``New Zealand Shooting: White Supremacists and 
Jihadists Feed Off Each Other,'' Daily Beast, March 20, 2019, https://
www.thedailybeast.com/new-zealand-shooting-white-supremacists-and-
jihadists-feed-off-each-other?ref=author.
    \42\ Simon Cottee, ``What Right-Wing Violent Extremists and 
Jihadists Have in Common,'' National Post, April 5, 2019, https://
nationalpost.com/opinion/what-right-wing-violent-extremists-and-
jihadists-have-in-common.
---------------------------------------------------------------------------
Virtual Laboratories/Use of Internet
    The use of the internet itself is not new for terrorist groups, the 
Zapatista National Liberation Army (EZLN) in Mexico successfully 
harnessed power of the internet as early as 1994.\43\ WSE groups have 
also long been adept to operating in the on-line space.\44\ The 
internet helps perpetuate a ``feedback loop of radicalization and 
violence'' that is intended to accelerate the time table toward an 
apocalyptic end of times.\45\ There are legitimate concerns that the 
internet has ``accelerated the radicalization process,'' although 
research demonstrates that there also remains a significant off-line, 
or in-person component to how individuals radicalize.\46\
---------------------------------------------------------------------------
    \43\ Bruce Hoffman, Inside Terrorism, 3d ed., New York: Columbia 
University Press, 2017, p. 210.
    \44\ Kathleen Belew, ``The Right Way To Understand White 
Nationalist Terrorism,'' New York Times, August 4, 2019, https://
www.nytimes.com/2019/08/04/opinion/el-paso-terrorism.html.
    \45\ Max Fisher, ``White Terrorism Shows `Stunning' Parallels to 
Islamic State's Rise,'' New York Times, August 5, 2019, https://
www.nytimes.com/2019/08/05/world/americas/terrorism-white-nationalist-
supremacy-isis.html.
    \46\ Melissa Etehad, ``White Supremacists and Islamic State 
Recruits Have More in Common Than You Might Think,'' Los Angeles Times, 
August 7, 2019, https://www.latimes.com/world-nation/story/2019-08-07/
domestic-terrorism-white-supremacists-islamic-state-recruits. See also, 
https://www.lawfareblog.com/stop-isis-recruitment-focus-offline.
---------------------------------------------------------------------------
    In many ways, social media has exacerbated the issue by helping 
connect transnational nodes of like-minded individuals and groups. In 
the current environment, jihadis have flocked to sites like Telegram 
while WSEs and their supporters operate on Gab and 8chan. It serves as 
a medium for both radicalization and recruitment, as well as terrorist 
learning. WSEs have curated an on-line library of terrorist manuals and 
manifestos, while jihadists have created magazines like Inspire and 
Dabiq that have taught others how to conduct attacks.\47\ It is also 
now well-documented that WSEs have used the internet to study terrorist 
tactics used by jihadists to improve their own capabilities.\48\
---------------------------------------------------------------------------
    \47\ Ali Soufan, ``I Spent 25 Years Fighting Jihadis. White 
Supremacists Aren't So Different,'' New York Times, August 5, 2019, 
https://www.nytimes.com/2019/08/05/opinion/white-supremacy-
terrorism.html.
    \48\ Frank Gardner, ``The Unlikely Similarities Between the Far 
Right and IS,'' BBC, March 30, 2019, https://www.bbc.com/news/uk-
47746271.
---------------------------------------------------------------------------
Propaganda
    Propaganda, media and public relations, and information operations 
of both jihadis and WSEs describe an existential battle between good 
and evil that form the cornerstone of these movements' ideological 
beliefs. For jihadis, this eternal struggle is often framed in terms of 
the battle against the Zionist-Crusader alliance, while for violent 
white supremacist extremists, it is the call of racial holy war, or 
RAHOWA, that most resonates with its adherents. Both movements are also 
dualistic in nature, offering binary choices to potential followers to 
become part of the ideological in-group or risk being labeled as an 
enemy, apostate, or outsider.\49\ The propaganda of jihadis and WSEs 
each portray members as defenders of a unique culture and bulwarks 
against cultural elites deemed unworthy of legitimacy.\50\ And both 
jihadis and white supremacist extremists promote anti-Semitism, aspects 
of austere social conservatism, and variations of obscure and 
antiquated eschatology.\51\
---------------------------------------------------------------------------
    \49\ Scott Stewart, ``What White Supremacism and Jihadism Have in 
Common,'' Stratfor, March 26, 2019, https://worldview.stratfor.com/
article/what-white-supremacism-and-jihadism-have-common.
    \50\ Jim Sciutto, ``The Striking Similarities Between the KKK and 
Islamist Jihadis,'' CNN.com, August 17, 2017, https://www.cnn.com/2017/
08/17/opinions/striking-similarities-between-jihadis-and-kkk-sciutto/
index.html.
    \51\ Imogen Richards, ``Right-Wing Extremism, Salafi Jihadism, and 
The War on Terror,'' ADI, April 2019, https://adi.deakin.edu.au/news/
right-wing-extremism-salafi-jihadism-and-the-war-on-terror.
---------------------------------------------------------------------------
    Each group also seeks to actively undermine the foundations of 
liberal democratic societies, which should be destroyed through 
violence and remade by a small vanguard of true believers.\52\ Both 
movements have also recognized the importance of key figures who have 
become an inspiration for the fringes of their respective movements. 
Jihadists revered the sermons of the American-born preacher and al-
Qaeda in the Arabian Peninsula figurehead Anwar al-Awlaki, whose 
radical views inspired numerous jihadi terrorists to launch 
attacks.\53\ White supremacist extremists also have their own martyrdom 
figures, the most famous of which is Anders Breivik, the terrorist 
responsible for the attacks in Norway that killed 77 people at a summer 
camp for children back in 2011.\54\ Breivik has been lauded as a 
``Saint'' and ``Commander'' and whose beliefs were cited as inspiration 
by the Christchurch attacker Brenton Tarrant.\55\
---------------------------------------------------------------------------
    \52\ Daniel Byman, ``Terrorism and the Threat to Democracy,'' 
Brookings Policy Brief, February 2019, https://www.brookings.edu/
research/terrorism-and-the-threat-to-democracy/.
    \53\ Alexander Melagrou-Hitchens, ``Why Awlaki Mattered,'' Wall 
Street Journal, October 3, 2011, https://www.wsj.com/articles/
SB10001424052970204612504576606522230694328.
    \54\ Colin P. Clarke, ``The Cult of Breivik,'' Slate, March 18, 
2019, https://slate.com/news-and-politics/2019/03/anders-breivik-new-
zealand-right-wing-terrorism-inspiration.html.
    \55\ Lizzie Dearden, ``Revered as a Saint by Online Extremists, How 
Christchurch Shooter Inspired Copycat Terrorists Around the World,'' 
Independent, August 25, 2019, https://www.independent.co.uk/news/world/
australasia/brenton-tarrant-christchurch-shooter-attack-el-paso-norway-
poway-a9076926.html.
---------------------------------------------------------------------------
Recruitment
    Terrorist propaganda serves as a key avenue for exposing potential 
supporters to radical ideologies and helping to recruit new members 
into extremist movements. While jihadis have long circulated martyrdom 
tapes and beheading videos, WSEs have livestreamed their attacks, as 
occurred in Christchurch, and published long manifestos that often 
reference previous high-profile attacks. By spreading these types of 
videos, extremists on both sides are attempting to reach individuals, 
primarily young men (though not exclusively) who may be alienated from 
broader society, feel marginalized or discriminated against, and who 
are disconnected from their communities.\56\
---------------------------------------------------------------------------
    \56\ Melissa Etehad, ``White Supremacists and Islamic State 
Recruits Have More in Common Than You Might Think,'' Los Angeles Times, 
August 7, 2019, https://www.latimes.com/world-nation/story/2019-08-07/
domestic-terrorism-white-supremacists-islamic-state-recruits.
---------------------------------------------------------------------------
    Victimization forms a commonality across both movements, as does a 
distrust of political leaders and public institutions and a feeling of 
helplessness or ineptitude about how to find success and fulfillment in 
modern society.\57\ Self-empowerment is a key element of the recruiting 
pitch, while both jihadis and WSEs focus on themes of ``purity,'' 
militancy, and physical fitness.\58\ The martial aspects of recruitment 
appealed to generations of al-Qaeda militants who answered the call of 
holy war, traveling to training camps to learn guerilla warfare tactics 
and bombmaking techniques. In Ukraine, violent white supremacy 
extremist groups have bonded over shared interest in mixed martial arts 
and so-called ``ultimate fighting'' competitions. The Azov Battalion 
has used this venue as a method for growing its network, including with 
Neo-Nazis from the United States and the West who have traveled to 
Ukraine to forge bonds with white supremacist extremists from Europe 
and elsewhere.\59\
---------------------------------------------------------------------------
    \57\ Jim Sciutto, ``The Striking Similarities Between the KKK and 
Islamist Jihadis,'' CNN.com, August 17, 2017, https://www.cnn.com/2017/
08/17/opinions/striking-similarities-between-jihadis-and-kkk-sciutto/
index.html.
    \58\ Ali Soufan, ``I Spent 25 Years Fighting Jihadis. White 
Supremacists Aren't So Different,'' New York Times, August 5, 2019, 
https://www.nytimes.com/2019/08/05/opinion/white-supremacy-
terrorism.html.
    \59\ Michael Colborne, ``Friday Night Fights With Ukraine's Far 
Right,'' New Republic, July 9, 2019, https://newrepublic.com/article/
154434/friday-night-fights-ukraines-far-right.
---------------------------------------------------------------------------
Financing
    Financing is another area where similarities exist between how 
jihadists raise money and how white supremacist extremists seek to fund 
their organizations. Like jihadis, U.S. and overseas violent white 
supremacy organizations and individuals have leveraged both licit and 
illicit forms of finance, including a range of criminal activities, to 
sustain operations. In the post-9/11 era it has become much more 
difficult for jihadist groups to operate in the licit financial system, 
but as the Islamic State proved, it is possible to raise and spend 
money locally through a range of activities, from oil trafficking to 
extortion, and still remain a financially viable terrorist organization 
capable of governing large swaths of territory while simultaneously 
planning external operations.
    Both crowdfunding and cryptocurrencies are a popular method of 
funding for white supremacist extremists, who have leveraged content 
creation social media platforms, such as Twitter, YouTube, and Facebook 
to seek funding. The intersection and overlap between social media, 
crowdfunding websites, and payment systems facilitate peer-to-peer 
(P2P) financial transactions in a manner that has served as an 
accelerant for violent white supremacy extremism fundraising. While it 
is impossible to precisely quantify the scope of the WSE's financial 
power it is, without question, very significant. Advances in technology 
and the power of social media and crowdfunding has allowed for both 
violent and non-violent radical right actors to avail themselves of a 
large number of like-minded donors who share similar fears. Playing on 
these fears in order to monetize hatred and discord is big business.
            lessons learned from combating global terrorism
    Our current counterterrorism framework was set up in the immediate 
aftermath of 9/11 to deal exclusively with foreign terrorist groups 
like al-Qaeda. For example, the law allows for the monitoring of 
communications between people connected with foreign terrorist groups--
even if they are United States citizens operating on American soil--and 
the sharing of the resulting intelligence among American agencies and 
with our allies. But those monitoring and intelligence-sharing tools 
cannot be used against those connected with terrorist groups based in 
the United States--no matter how dangerous--or even when these 
individuals have connections with WSE transnational groups that have 
been designated as terrorist organizations by our allies. This is 
today's reality because domestic terror supporters are protected by 
free speech laws in ways that jihadis (including those who are United 
States citizens) are not, and we have yet to designate transnational 
WSE organizations.
    Since 2001, a long list of people have been indicted on a charge of 
providing material support to designated foreign terrorist entities 
like al-Qaeda. But for domestic terrorist organizations, material 
support charges are impossible because there is no mechanism for 
designating domestic terrorist groups as such. Moreover, domestic 
terror charges are harder to prove and carry penalties inadequate to 
the gravity of the offense. Even the Oklahoma City bomber, Timothy 
McVeigh, the worst domestic terrorist in the Nation's history, was not 
charged with any terrorism offense for precisely this reason.
    Many of our allies have already changed their own laws to allow 
more robust investigations of domestic terrorists. Britain's domestic 
intelligence agency, MI5, for example, can now use many of the same 
methods against domestic extremism that they have long deployed against 
al-Qaeda, thanks to laws passed following 9/11.
    The FBI should also be able to use many of the same counter-
terrorism tools against domestic extremism as they currently have 
available for countering the Salafi-jihadist threat, with appropriate 
safeguards for our Constitutional freedoms. But this can happen only if 
Congress updates our post-9/11 legislation to allow domestic terror 
groups to be designated in the same way as foreign ones. Our allies--
including Germany, Canada, and the UK--have designated domestic 
terrorist organizations, and we must consider doing the same or at 
least designate the groups designated by our allies as Foreign 
Terrorist Organizations (FTOs). This will allow our law-enforcement 
agencies access to the full suite of monitoring tools and our 
prosecutors the ability to bring meaningful charges for aiding domestic 
terrorism.
    Twenty years ago, we grossly underestimated the rising threat of 
Islamist terrorism. That inattention cost us dearly on Sept. 11, 2001. 
We cannot afford to wait for the white-supremacist equivalent.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Levin to summarize his statement for 5 
minutes.

  STATEMENT OF BRIAN LEVIN, DIRECTOR, CENTER FOR THE STUDY OF 
 HATE & EXTREMISM, CALIFORNIA STATE UNIVERSITY, SAN BERNARDINO

    Mr. Levin. Thank you. Chairman Thompson, Ranking Member 
Rogers, and Members of the committee, my name is Professor 
Brian Levin, and you have heard the introduction of my 
background.
    I also wanted to add, and I wanted to thank everyone on 
this committee. I am former NYPD. We are celebrating an 
anniversary tomorrow. We have to take all threats seriously. I 
want to give a heartfelt thank you to everybody on this 
committee, everyone, irrespective of party.
    I am here on behalf of our university's two-decade-strong 
independent research and policy institution, the Center for the 
Study of Hate and Extremism. I want to thank you for another 
opportunity to come here to discuss our latest findings, most 
of which are coming from our latest Report to the Nation 2019. 
The conclusions are both fascinating and cautionary.
    I also would be remiss if I didn't thank all the scholars 
that helped with this report: Nakashima, Thompson, Nolan, 
Reitzel, Grisham, and Landon.
    But let me go right to the report. This is what came out 
before the latest spate of mass shootings. This is what we 
said: ``While white supremacists and ultra nationalists will 
remain--will maintain their position at the top of the threat 
matrix, the risk is also diversifying. Splintered free speech 
platforms, where hate speech is more prolific, have enabled 
organizationally unaffiliated extremist and loners with a tool 
to congregate, radicalize, and broadcast not only bigotry, but, 
disturbingly, lone acts of mass violence that reference prior 
attacks.'' Let me note this was before El Paso.
    The report also noted recently terrorists used 8chan, 
Telegram, Gab, and Facebook around the time of their attacks. 
8chan, now temporarily non-operational, is a free speech 
platform whose ``Embrace Infamy'' home page slogan is a gift 
wrap on a noxious bazaar of deeply bigoted, misogynistic, and 
violent bombasts in their political section. White supremacist, 
far-right extremists are now the most ascendant transnational 
terror threat facing the homeland in a fluid and somewhat 
diversifying risk matrix.
    Let me say this. I am very glad that we are hearing that we 
are seeing a confluence from across the ideological spectrum. 
We need to--my son--just a point of personal privilege, my son 
played soccer, and he plays defense. You have to look where the 
kicks are coming. You can't just look at one side of the field. 
I think we need that alacrity, and that is why I appreciate the 
committee noting that.
    But we also have to look at where these shots are coming 
from: White supremacist, far-right-extremist-motivated 
homicides. This is our curated data. We are a little different 
from the ADL. We look at those that are motivated by the 
ideology.
    White supremacist, far-right extremists--and I do not mean 
conservative people of goodwill--have killed at least 26 people 
so far this year. We had 16 service members killed in 
Afghanistan so far this year. More people were murdered 
domestically so far in 2019 by just a handful of white 
supremacists than all of those killed in the whole of calendar 
year 2018 in every extremist homicide event.
    This is coming at a time where, disturbingly, mass 
shootings overall, including those with mixed or no discernible 
ideological motives, were also rising. Through September 1 the 
Gun Violence Archive has enumerated 283 mass shootings, 
nationally. That is more than 1 a day, and the first time that 
we have seen this since 2016.
    One of the things that our research has shown is for the 
data, which I think is really interesting. There is a pattern 
of spikes in both violent internet chatter and actual terrorist 
incidents, as well as hate crime. I put a little chart by one 
of our colleagues from our center in there that shows when 
these spikes in hate crime go up. I can show you, whether it is 
here, whether it is in Europe, we see also terror attacks 
around that.
    Similarly, the month of the Charlottesville Unite the Right 
rally and the associated political controversy around it was 
tied for the second-worst month, according to FBI, for hate 
crime for this whole decade.
    If we want to look at another time, around the election of 
President Obama we saw this spike. What did we see around that 
time, as well? Terror plots and terror attacks. In England we 
saw a member of parliament assassinated at a time when these 
hate crimes went up, as well.
    So what we are seeing is a convergence of many things. What 
I would say to you is that we have to have a holistic approach.
    One of our--my guests here today lost her father--this is 
Tina Meins--lost her father in the San Bernardino terrorist 
attack. We have to have a coordinated approach, and that 
includes data. It also includes looking at the weapons of war, 
which are being used now increasingly by terrorists of all 
stripes, but in particular white supremacists and the far 
right. We have to have a coordinated National approach to this.
    I appreciate you having me here to discuss this, and I 
welcome any questions that the Members of the committee have.
    I want to once again, though, thank you for the work. The 
Homeland Security Committee does important work. I think it is 
important that other Governmental agencies come here and speak 
with you so that we are getting a holistic picture for what 
needs to be done. Thank you so much, Chairman.
    [The prepared statement of Mr. Levin follows:]
                   Prepared Statement of Brian Levin
                           September 10, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, my name is Prof. Brian Levin. Thank you so very much for 
your service to our country and for another opportunity to present some 
of the latest findings, on extremism, primarily derived from our Report 
To The Nation: 2019 Factbook On Hate & Extremism In The U.S. & 
Internationally, which are both fascinating and cautionary.
    I am a professor in the Department of Criminal Justice, who is also 
on faculty at our National Security Studies program at California State 
University, San Bernardino (CSUSB). I am here, however, on behalf of 
CSUSB's two-decade strong independent research and policy institution, 
the Center for the Study of Hate and Extremism (``CSHE''). Our 
quantitative and qualitative trend analysis on violent manifestations 
of political conflict and prejudice across both borders and the 
ideological spectrum, has been used by scholars, journalists, and 
policy makers around the world.
    As the best analysis is often a coordinated team effort, I want to 
take this brief opportunity to thank all the scholars who enabled CSHE 
to conduct this important research: Our study co-author Legal Fellow 
Lisa Nakashima, as well as our Cal State-based crew of Drs. Kevin 
Grisham and John Reitzel and our Research Fellow William Lambdin; along 
with Dr. James Nolan of West Virginia University and data analyst 
Andrew Thompson.
 white supremacist-motivated fatalities rise along with mass shooting 
                                 events
    White supremacist/far right extremists are now, the most ascendant 
transnational terror threat facing the homeland, in a fluid and 
somewhat diversifying risk matrix. According to CSHE's preliminary 
data, white supremacist/far right extremist-motivated homicides have 
killed at least 26 people so far this year. More people were murdered 
domestically so far in 2019 by just a handful of white supremacists, 
than all of those killed in the whole of calendar year 2018 in every 
extremist/hate homicide event. The fatalities per incident are also 
trending up as semi-automatic rifles continue to be their weapon of 
choice.
    This is coming at a time where, disturbingly, mass shootings 
overall, including those with mixed or no discernable ideological 
motives are also rising. The three main categories of violent mass 
offenders are listed below, and usually one element is primary, with at 
least one other often playing a more minor supporting role:
    1. The Ideologically Motivated (Religious, Political, or Hybrid)
    2. The Psychologically Dangerous (Sociopath or Unstable)
    3. Revenge, Validation, or Personal Benefit
    Through September 1, the Gun Violence Archive has enumerated 283 
mass shootings (where at least 4 are shot) nationally in 2019, the 
first time since 2016 that there were more than an average of 1 per 
day. Moreover, fatalities by rifle (of which semi-automatics are a 
subset), at 403, reached their highest level in a decade in 2017 
according to the FBI.
             violence increases around political divisions
    Interestingly, our 2018 data showed the majority of white 
supremacist homicides clustered roughly before election time when polls 
indicated a possible party shift in a highly contested mid-term 
election. We also saw an increase in hate crime reports from major U.S. 
cities during that time as well. 2018 was the fifth consecutive annual 
increase in police enumerated hate crime in our multi-city study, and 
the steepest increase since 2015, with nearly half the cities hitting 
decade highs--despite a drop in the first half of the year.
    Similarly, the month of the fatal Charlottesville ``Unite the 
Right'' rally and the associated political controversy around it, was 
tied for the second-worst month this decade for FBI reported hate 
crime. Except for election month 2016, the last months with higher 
totals than August 2017, were around the election of Barack Obama, when 
escalating anti-Black hate crime hit levels not seen since.
    Election month, November 2016, was the worst month in 14 years with 
758 FBI reported hate crimes. Interestingly, other data showed a 
corresponding increase in the volume of both bigoted speech on 4chan, 
as well as an increase in manipulative racially divisive ad buys by the 
Russians on Facebook around that time. The Report On The Investigation 
Into Russian Interference In The 2016 Presidential Election (Mueller 
Report), March 2019 concluded:

``Collectively, the IRA's social media accounts reached tens of 
millions of U.S. persons. Individual IRA social media accounts 
attracted hundreds of thousands of followers . . . According to 
Facebook, in total the IRA-controlled accounts made over 80,000 posts 
before their deactivation in August 2017, and these posts reached at 
least 29 million U.S. persons and `may have reached an estimated 126 
million people.''

    The day after the elections--November 9, 2016--with 44 reported 
hate crimes, was the worst day in 13 years. It was also the day 3 
interdicted militia extremists planned to truck bomb a Garden City, 
Kansas apartment complex populated by Somali-American Muslims. This 
pattern of bursts in hate crime, vile internet chatter, and terror 
around conflictual political events has been repeated elsewhere, as in 
the United Kingdom. There hate crimes not only rose around the Brexit 
vote, a sitting member of parliament was assassinated around that time 
as well. More recently, we have seen an increase in threats against 
American public officials, as well an escalation in precursor extremist 
activity or violence by other ideological movements as we embark on yet 
another highly-conflicted election season.
    2019 will reverse an overall downward trend in American extremist/
hate homicides that we've seen over the last couple of years, due to 
the rising number of mass white supremacist killings. Out of last 
year's total of 22 extremist motivated homicides, 17 were white 
supremacist/far right motivated, one was violent Salafist Jihadist, and 
there were none by the hard left or Antifa, though some of their 
localized splinters certainly have committed a steady string of crimes. 
Jews (for the first time) and African-Americans were the most common 
victims in fatal white supremacist attacks in 2018, while Latinos and 
Asians are this year.
                          a changing landscape
    When I testified before this committee just 4 years ago, only weeks 
before the Paris and San Bernardino terror attacks, the landscape was 
different. Then, I warned that the most urgent transnational terror 
threat facing the American homeland came from violent Salafist 
Jihadists who were often inspired or orchestrated by more organized 
groups.
    D'aesh in particular expanded not only its ``caliphate'' 
territory--to nearly the size of Michigan, but also its terrestrial and 
on-line communal presence, recruitment, and revenues. The reach of its 
fatal extremism, left an escalating violent string of fatalities in its 
wake on America, and elsewhere.
    By the following summer of 2016, they inspired more horror, with 
another semi-automatic rifle rampage, this time at Orlando's Pulse 
night club, killing 49 mostly LGBT victims, and supplanting the San 
Bernardino massacre as the most fatal post-9/11 terror foreign 
influenced attack.
    That year our center enumerated just 3 white supremacist/far right 
homicides. White supremacists, had changed their tactics in an attempt 
to openly enter the mainstream in the prejudice tinged fissures over 
debates on issues of public concern like terrorism and immigration. 
Neo-Nazis, white supremacists, and alt-right adherents engaged in more 
large public demonstrations in the 2\1/2\ years leading just into and 
after Charlottesville, than in the whole of the previous decade. Nazis 
and Holocaust deniers even ran for Congressional and Senate seats in 
California and Illinois. Since Charlottesville, however, public 
organized groups have splintered amidst legal, financial issues and 
internecine squabbles, leaving a fragmented extremist landscape.
  white nationalism is an interconnected transnational threat to the 
                                homeland
    Earlier, in May I cautioned the committee that: ``For today's 
digital, often loner white nationalist terrorist, internet platforms 
are force multipliers that record and disseminate not only graphic 
violence, but narcissistic manifestos as well, in a scripted on-line 
folkloric chain of violence. These extreme views are disturbingly 
common in the general population.''
    Our aforementioned 137-page ``Report to the Nation: 2019'' released 
in July further elaborated on this threat in its summary:

``While white supremacists and ultra-nationalists will maintain their 
position at the top of the threat matrix, the risk is also diversifying 
well beyond the far right, to include those with antagonistic 
ideologies, those inspired by zealots and conflicts abroad, and those 
with more personal grievances in an increasingly coarse and fragmented 
socio-political landscape . . . 
``[H]atemongers have increasingly migrated to splintered free speech, 
encrypted and affinity-based platforms, and messaging services, where 
hate speech is more prolific . . . The internet has enabled . . .  
organizationally unaffiliated extremists and loners with a tool to 
congregate, radicalize, and broadcast not only bigotry, but 
disturbingly, lone acts of mass violence that reference prior 
attacks.''

    The report further noted, ``recently, terrorists used 8chan, 
Telegram, GAB, and Facebook around the time of their attacks.'' 8chan, 
now temporarily non-operational, is a free speech platform whose 
``embrace infamy'' homepage slogan was gift wrap on a noxious bazar of 
deeply bigoted, misogynistic, and violent bombast in their political 
speech section.
                         the great replacement
    Within days of our latest report release, another link in this 
transnational horrific ``chain of violence'' that I discussed in May 
was forged. On the morning of August 3, a 21-year-old white male from 
Allen, Texas posted a methodical 4-page diatribe on 8chan after driving 
across the State. It opened with praise for both the Christchurch 
terrorist who killed 49 at two mosques, and his lengthy manifesto 
entitled ``The Great Replacement,'' which was itself lifted off a 2012 
French book by Renaud Camus, with the same title, about European 
``white genocide.'' The New Zealand terrorist, in turn was also 
inspired by, yet another manifesto writing white supremacist terrorist 
who murdered 77 in Norway in 2011.
    The young Texan further explained the influence that the French 
book had on him:

    ``This attack is a response to the Hispanic invasion of Texas . . . 
I am simply defending my country from cultural and ethnic replacement 
brought on by an invasion . . . Actually, the Hispanic community was 
not my target before I read the Great Replacement.'' Le grand 
remplacement is a 2012 dystopian book lamenting the coming extinction 
of white Europeans on the continent by Muslim immigrants and other 
people of color, that has become a recent staple in an international 
chain. The killer concluded by warning, ``This is just the beginning of 
the fight for America and Europe.''

    Less than 20 minutes after uploading his hateful exhortation, its 
author opened fire on mostly older shoppers in a crowded El Paso 
Walmart with a legally purchased semi-automatic military style rifle 
killing 22--the worst white supremacist/far right terrorist attack 
since 168 perished in the Oklahoma City Murrah Federal Building bombing 
of April 19, 1995.
            leaderless resistance and propaganda of the deed
    That same year, Stormfront, the first white Supremacist website was 
launched by Don Black, a neo-Nazi white supremacist felon, whose vision 
of an international racist network was succinctly stated in its moniker 
``White Pride World Wide.'' In 1995, I testified before another 
Congressional committee about the central role that the ``Leaderless 
Resistance'' tactic plays regarding scripted violence by autonomous 
loners or small cells against those perceived as enemies of whites. 
News reports of random ``propaganda of the deed'' violent attacks 
against minorities alone was supposed to inspire other extremists. In 
today's fragmented social media landscape, the white supremacist 
embrace of leaderless resistance has produced a ``propaganda of the 
deed 2.0'' effect. The violence is not only inspired by racist 
folklore, but through an accompanying text or video, the terrorist 
seeks to write the next chapter of it. Most of these young terrorists 
have no direct operational connection to, or affiliation with terror 
groups. However, the internet has also apparently enabled newer small 
violent groups, with short half-lives, like the Kansas plotters, 
Atomwaffen Division, the Rise Above Movement and the Base to not only 
recruit individually, but to also assemble, across borders when 
necessary, for violent activities or training.
    The spread of white nationalist and, to a lesser extent, other 
extremist viewpoints into an increasingly fragmented and sometimes 
violent mainstream socio-political landscape provides an overflowing 
elastic reservoir for intergroup conflict around the globe, where 
offenders are also co-influenced by a variety of factor ranging from 
conspiracy theories to misogyny. At its most jagged and unstable 
digital edges, it has resulted in political violence, intimidation, and 
threats with transnational reach. As then DNI director Coates stated to 
the Senate in January, ``In the past 2 years, individuals with ties to 
violent ethno-supremacist groups in France, Sweden, and the United 
Kingdom have either carried out attacks on minorities and politicians 
or had their plots disrupted by authorities.'' Britain's intelligence 
agencies explained recently ``Increasingly, the vital piece of 
information that might stop an attack is unlikely to be held by MI5, 
but buried somewhere else in the mountain of data generated each day, 
often scattered across the world.'' And just last month the Swedish 
Security service observed ``a development in the violent right-wing 
extremist scene that could increase the risk of certain individuals 
being inspired to carry out attacks or violent crime . . . [as] violent 
right-wing extremist ideology might be going from something considered 
extreme to something considered normal, could prompt certain 
individuals to become radicalized.''
    As one can see, violent extremism is evolving and while currently 
dominated by white nationalists/far right ideologues, they do not exert 
a monopoly. Still, with 43 percent of American respondents to a 2018 
Reuters poll saying whites are under attack, there is a wide bench from 
which these extremists can try to draw recruits.
              caution respecting major statutory overhauls
    With dozens of statutes available to combat domestic terrorists and 
the unknown impact on civil liberties from major changes, I hold the 
same basic position today that I did when I testified almost 25 years 
ago regarding a broad overhaul of domestic Federal statutes.
    CSHE does however, support the following:
    Enacting H.R. 3106, the Domestic Terrorism DATA Act to improve the 
availability and production of timely government data on terrorism and 
the Jabara-Heyer NO HATE Act;
    Enhancing both statutory and administrative provisions to counter 
the growing threat against public officials and elected office holders;
    Amending 18 USC Sec. 231 to punish not only trainers, but trainees 
in violent methods designed to foment civil disorder;
    Improving background checks and closing loopholes on firearms 
purchases, as well as the placement of restrictions on semi-automatic 
rifles, and extended magazines inter alia;
    Providing greater funding and resources to enhance interagency 
coordination to combat the threat that white supremacist/far right 
extremism poses to the homeland.
    As I noted in May, the domestic terror threat is a fluid one, with 
increasingly transnational and internet dimensions. The societal and 
international divisions that fuel extremism will likely be further 
exacerbated by a highly-charged political season and increasing 
international instability.
    Thank you.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Joscelyn to summarize his statement for 
5 minutes.

STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR THE 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, Chairman Thompson, Ranking Member 
Rogers, and other Members of the committee, thank you for 
inviting me to testify here today. This is actually the 
nineteenth time I have testified before Congress, many of those 
times before this committee. I find this committee in 
particular to have a pretty bipartisan air about it, and that 
is great for--especially when addressing issues that really are 
a threat to all of us across the ideological spectrum, as the 
other guests here have said.
    You know, I deal a lot with ISIS and al-Qaeda, and there is 
a lot of sentiment in the United States right now that people 
just want to move on. I get that. You know, if you were telling 
me 18 years after 9/11 I would still be talking about al-Qaeda 
I would probably be surprised at the time. Unfortunately, 
however, I am always reminded of a simple, pithy phrase, which 
is ``The enemy gets a vote.'' Both ISIS and al-Qaeda are 
continuing to fight. I think that was recognized in the opening 
statements both from you, Mr. Chairman, and you, Mr. Ranking 
Member.
    I would say I had some--a preamble dedicated to the called-
off discussions at Camp David. But if we could just copy and 
paste Peter's opening remarks as my critique, as well, that--I 
agree with every one of his points there.
    I wanted to add one additional point of critique on that, 
in terms of negotiations with the Taliban, which is that in 
July the Taliban released a very disturbing video. My 
colleagues and I are nerds who troll through all the Taliban 
propaganda. We troll through all al-Qaeda and ISIS propaganda.
    In this video, about 10 minutes in, they were justifying 
the 9/11 attacks and the Madrid train bombings and the 7/7 
bombings in London. They said that it was a slap on--a very 
hard slap on our dark faces--``our,'' meaning Americans. They 
said that we deserved it, that it wasn't their fault or the 
jihadis fault, it was Americans' fault for their policies 
overseas. This has been a consistent Taliban message for the 
past 18 years. It is very disturbing to me that that sort of 
detail would be whitewashed while we are negotiating with them, 
and that people aren't taking that into account.
    I will add one other fact on that. In my testimony you will 
see I quote from 4 very recent U.N. Security Council reports 
dealing with al-Qaeda and ISIS. You can find the links are all 
given in my testimony for this. But one other fact that doesn't 
get enough attention is what the U.N. Security Council says 
about al-Qaeda and the Taliban in Afghanistan. What the U.N. 
Security Council says is that al-Qaeda continues to see 
Afghanistan as a safe haven for its leadership, based on its 
long-standing strong ties with the Taliban.
    In addition, these reports from the U.N. Security Council 
say things like al-Qaeda members act as instructors and 
religious teachers for Taliban personnel and their family 
members.
    I won't bore you with the additional details, but there are 
ample facts like that recounted in these U.N. Security Council 
reports that show that al-Qaeda is very much interested in 
resurrecting the Taliban's Islamic Emirate in Afghanistan. The 
idea that the Taliban is going to somehow restrain or renounce 
al-Qaeda right now today I find fanciful. Yet that was the 
whole exchange in this deal that was sort-of proffered, was 
that we were going to withdraw our troops in exchange for this 
sort of promise. I--if you go back to the 9/11 Commission 
Report and many other details, you know there is no reason to 
believe that.
    I used more of my time on that than I thought I would. But 
I will just say this very quickly. You know, ISIS in 
particular, you know, as we have been warning--and there is, I 
think, uniform agreement across the expert community on this--
ISIS is not close to dead. Despite losing its physical 
caliphate, obviously, ISIS is very much alive.
    There is--there are real challenges there, in terms of 
making sure that they are not able to reconstitute certain 
threats to the West. In particular, you know, I still find it 
fascinating that we know of guys who have been fighting for 
ISIS or its predecessor organizations for over a decade who are 
still in the game, and are still fighting that haven't been 
taken out.
    As I think Ali pointed out, they are in--they have a number 
of so-called provinces, everywhere from West Africa all the way 
to South Asia. They are fighting. By the way, those provinces 
were set up to compete with al-Qaeda's presence in each one of 
those regions, because al-Qaeda is the deep, entrenched 
insurgency in most of those areas, including Shabaab in 
Somalia, or in West Africa, or, as I mentioned, Afghanistan or 
elsewhere.
    I would just say this. I echo--if you look at my testimony, 
even though it is not the main thing I focus on, I echo the 
alarm over the rise of far-right terrorism and extremism. I 
think it is an obvious growing threat.
    One of the paragraphs in my testimony deals with how 
individuals responsible for attacks everywhere from New Zealand 
to El Paso were sort-of feeding off of each other and trying to 
one-up each other in trying to kill more people in the name of 
this sort-of twisted ideology. That, to me, makes it a global 
threat right off the get-go, just being able to see the ideas 
transit all the way from New Zealand all the way to El Paso and 
various other areas.
    I will say this, too. Well, there is--there are a lot of 
points to argue, or to sort-of go into about the comparisons 
between jihadism and far-right terrorism. One point of 
similarity that I think comes across is after the New Zealand 
terrorist attack I was very struck by the fact how many jihadis 
were sharing the video of the massacre in the mosques in New 
Zealand. In fact, I got the video by--from al-Qaeda channels. 
They were sharing it and commenting on it. You could see this 
twisted sort-of feedback loop, this cycle of violence between 
the two feeding off of each other as they are talking about 
this.
    In my written testimony--I won't read it here--I produced a 
quote from a Shabaab spokesman--this is al-Qaeda in Somalia and 
East Africa--and he used the New Zealand terrorist attack to 
argue, yes, basically that terrorist was right, Muslims don't 
belong in the West. You need to come fight for us against the 
West. Come back to your homelands.
    So that is exactly how--and one of the areas that I am 
doing research on right now--these twin threats are sort-of 
feeding off each other. I am very worried, in particular, about 
both growing in the near future. Thank you.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
    Chairman Thompson, Ranking Member Rogers, and other Members of the 
committee, thank you for inviting me to testify today.
    It is hard to believe that 18 years have passed since the September 
11, 2001, hijackings. The world has changed dramatically during that 
time. Many in the United States want to move on from the fight against 
jihadism, including from the wars unleashed by 9/11 and America's 
response. I cannot say I entirely blame them. But the enemy gets a 
vote, and our enemies have not given up.
    Many in Washington argue that ``great power competition'' is 
America's main concern, and that the United States needs to pivot away 
from protracted conflicts against the jihadists. Some argue that we can 
no longer afford to have our limited resources tied up in the fight 
against the Islamic State or al-Qaeda, because we need to focus on 
near-peer competitors such as China, or on spoilers like Russia. Rising 
challengers, and especially China, do demand more of the U.S. 
Government's attention. But I think the resource allocation argument 
misses a key point: By and large, the U.S. military's pivot has already 
occurred. The last ``surge'' of American forces ended in 2011. Today, 
there are far fewer American troops deployed to wartime theaters than 
at the height of the U.S. commitment.
    The United States has also already shifted much of the burden to 
its allies, as they have carried out the bulk of the on-the-ground 
fighting against Sunni jihadists for years. For example, Kurdish, 
Iraqi, and other forces played a leading role in the ground campaign 
against the Islamic State, ending its territorial claims in Iraq and 
Syria. Those same allied forces sustained the overwhelming majority of 
casualties in the war against the so-called caliphate. The same is true 
in jihadist hotspots such as Afghanistan and Somalia. Unfortunately, 16 
Americans have perished as a result of the conflict in Afghanistan this 
year. Still, Afghan military and security forces, as well as civilians, 
have sustained far higher casualties.
    Going forward, as the United States presumably draws down further, 
a key question is: How will America's allies continue to keep the 
jihadists at bay with even less external assistance? We see in 
Afghanistan, for instance, that the government is barely holding the 
Taliban and other jihadists back throughout the country. This has been 
the case even though approximately 14,000 American troops, along with 
thousands of NATO partners, have been assisting the Afghans. America's 
airpower and Special Forces have been essential for preventing the 
Taliban from capturing more ground, especially several provincial 
capitals. This means it is extremely unlikely that the situation will 
improve with less Western assistance. This does not mean that we should 
paper over the problems with the war effort or ignore wasteful 
spending. The wide-spread frustration with these issues is well-placed. 
However, there are also legitimate concerns about the threat of 
terrorism emanating from Afghanistan in the future.
    Even though the U.S. military's footprint has been significantly 
reduced, America's armed forces continue to strike terrorist targets in 
several countries. Law enforcement and intelligence officials also 
continue to face a wide spectrum of threats. These include threats from 
the Islamic State and its global arms, al-Qaeda and its international 
network, as well as other foreign terrorist organizations. The Islamic 
State, al-Qaeda, and allied groups are fighting or operating across an 
enormous amount of ground, stretching from the remote regions of West 
Africa, through North and East Africa, into the heart of the Middle 
East, and all the way into Central and South Asia. The jihadists' war 
is far from over. Most of the jihadists are fighting for territory over 
there, but new threats to American security could emerge from within 
their ranks at any time.
    There are also ample reasons to be concerned about the rise of far-
right extremism, including terrorist attacks by white supremacists or 
other anti-government actors. To date, most of the far-right attacks 
inside the United States have been carried out by individuals. It is 
far too easy for a lone terrorist to wreak havoc. And we have already 
witnessed how an attack in one part of the world can inspire or 
influence another, even half a world away.
    Consider that Brenton Tarrant, the accused terrorist who massacred 
51 innocent civilians at a mosque in Christchurch, New Zealand, in 
March, claimed to be inspired by Anders Behring Breivik, who killed 77 
people in Oslo in 2011, as well as by Dylan Roof, who murdered 9 
churchgoers in a 2015 mass shooting in Charleston.\1\ Even if the 
Christchurch terrorist exaggerated his ties to Breivik--he claimed to 
be in ``brief contact'' with the jailed mass murderer\2\--the evidence 
shows how one far-right terrorist's words and deeds can influence the 
actions of another living far away. In fact, Patrick Crusius, who has 
been charged with killing 22 people in August at a Walmart in El Paso, 
Texas, reportedly wrote: ``In general, I support the Christchurch 
shooter and his manifesto. This attack is a response to the Hispanic 
invasion of Texas.''\3\ In addition to their hatred for immigrants, the 
gunmen in New Zealand and El Paso have also been described as ``eco-
fascists.''\4\ This demonstrates how different extremist ideas can be 
combined in the minds of would-be terrorists to produce an even more 
toxic hatred. Also in August, another terrorist opened fire on a mosque 
in Norway, injuring 1. The man named as the main suspect in that 
attack, Philip Manshaus, reportedly drew inspiration from the killings 
in New Zealand and El Paso as well as from a shooting at a synagogue in 
California in April.\5\
---------------------------------------------------------------------------
    \1\ Adam Taylor, ``New Zealand suspect allegedly claimed `brief 
contact' with Norwegian mass murderer Anders Breivik,'' The Washington 
Post, March 15, 2019. (https://www.washingtonpost.com/world/2019/03/15/
new-zealand-suspect-allegedly-claimed-brief-contact-with-norwegian-
mass-murderer-anders-breivik/).
    \2\ Ibid.
    \3\ Tim Arango, Nicholas Bogel-Burroughs, and Katie Benner, 
``Minutes Before El Paso Killing, Hate-Filled Manifesto Appears 
Online,'' The New York Times, August 3, 2019. (https://www.nytimes.com/
2019/08/03/us/patrick-crusius-el-paso-shooter-manifesto.html).
    \4\ Joel Achenbach, ``Two mass killings a world apart share a 
common theme: `ecofascism,' '' The Washington Post, August 18, 2019. 
(https://www.washingtonpost.com/science/two-mass-murders-a-world-apart-
share-a-common-theme-ecofascism/2019/08/18/0079a676-bec4-11e9-b873-
63ace636af08_story.html).
    \5\ Jason Burke, ``Norway mosque attack suspect `inspired by 
Christchurch and El Paso shootings,' '' The Guardian (UK), August 11, 
2019. (https://www.theguardian.com/world/2019/aug/11/norway-mosque-
attack-suspect-may-have-been-inspired-by-christchurch-and-el-paso-
shootings).
---------------------------------------------------------------------------
    I have studied jihadists for years. There are differences between 
the current far-right threat and that posed by groups such as the 
Islamic State and al-Qaeda. But I am struck by one similarity. The 
jihadists portray themselves as the guardians of Islam and its glorious 
past. They rely on a heavily mythologized view of history, justifying 
their violence by arguing that it is necessary to restore lost glory. 
This was a large part of the Islamic State's caliphate claim. Abu Bakr 
al-Baghdadi and his henchmen wanted people to believe that an Islamic 
empire had been resurrected for Muslims, even though most of their 
victims are in fact Muslims.
    There is a similarity with far-right extremism in this regard. The 
terrorist in Christchurch covered his weapons with historical symbols 
and names, portraying his wanton violence as a defense of the West 
against Muslims. Of course, his shootings were no such thing. But not 
only far-right believers were emboldened by Tarrant's historically 
illiterate narrative; so were some jihadists. Al-Qaeda's senior 
leadership and their loyalists around the globe called for revenge in 
the wake of the massacre in New Zealand. We collected messages from 
Afghanistan and Pakistan, Syria, Somalia, West Africa, and elsewhere.
    One message, from Shabaab's spokesman, the appropriately-named Ali 
Mahmoud Rage, was especially noteworthy. Rage agreed with Tarrant that 
Muslims have no place in the West. ``We say to the Muslims in the West, 
wake up from your slumber, and know that you are in the den of wolves 
who surround you from every direction and lie around you,'' Rage 
claimed. ``You are not safe from their gaze, even when you are inside 
the mosques.'' Rage continued: ``O Muslims, you must realize that there 
is no future for you in the West, and that you must return to your 
countries, to participate in liberating them from the enemies and to 
live afterwards as Muslims, free under the shade of the Shariah and the 
governance of Islam.''
    In other words, both Tarrant and Rage portrayed themselves as the 
guardians of whole civilizations. Neither man is any such thing. But 
their hate is not all that different.
    My other key points today are as follows:
    1. While the Islamic State has lost its territorial caliphate and 
        suffered other significant blows, the group lives on as a 
        global terrorist and insurgent organization. The organization 
        has highlighted the continued loyalty of more than a dozen of 
        its so-called ``provinces'' outside of Iraq and Syria this 
        year. Some of these are smaller operations. But its 
        ``provinces'' in West Africa and the Khorasan (a region 
        covering Afghanistan and Pakistan as well as parts of several 
        other neighboring countries) are especially active. As was the 
        case at the height of its power, the Islamic State's violence 
        is focused primarily overseas.
    2. To date, Abu Bakr al-Baghdadi's men have had far more success 
        orchestrating professional plots in Europe than inside the 
        United States. This has to do with ease of travel and other 
        logistical issues. But officials will have to continue 
        monitoring this threat stream for some time, as Baghdadi's 
        surviving goons would like to orchestrate a large-scale attack 
        inside the United States or against American interests 
        elsewhere. Fortunately, a number of hurdles stand in their way. 
        But continued pressure is necessary to ensure they do not 
        exploit any holes in America's defenses.
    3. The Islamic State's threat inside the United States has come 
        primarily from its remote planners or through inspiration. Many 
        of the group's ``remote-controlled'' plots--that is, attacks 
        guided by on-line handlers working overseas--have been 
        thwarted, but some inspired attacks have succeeded. With the 
        proliferation of encrypted messaging capabilities, it may 
        become easier for the jihadists to remotely guide larger-scale 
        plots in the future, providing bomb-making or other tactical 
        advice to people living in the United States. There is evidence 
        that the Islamic State has done this elsewhere and that others, 
        including al-Qaeda or far-right terrorists, could employ the 
        same methods.
    4. Eighteen years after 9/11, Americans have the right to wonder 
        how much of a threat al-Qaeda is to them. The organization has 
        failed to conduct another high-profile attack inside the United 
        States. Some early plots were thwarted, while others failed on 
        their own. However, al-Qaeda is far from dead. Despite 
        triumphalist claims about the organization's supposed demise, 
        al-Qaeda is a global terrorist and insurgent organization. 
        Indeed, al-Qaeda's loyalists are probably fighting in more 
        countries today than ever before. Although this is not widely 
        understood, al-Qaeda has devoted most of its resources to 
        various insurgencies, seeking to build Islamic emirates that 
        could one day join together and resurrect an Islamic caliphate. 
        Of course, this vision is far from becoming a reality. But it 
        does motivate much of the al-Qaeda network's violence. This 
        central idea also explains al-Qaeda's global structure. Al-
        Qaeda in the Arabian Peninsula, al-Qaeda in the Islamic 
        Maghreb, al-Qaeda in the Indian Subcontinent, Jama'at Nusrat 
        al-Islam wal Muslimin (also known as the ``Group for the 
        Support of Islam and Muslims''), and al-Shabaab in Somalia are 
        all openly loyal to al-Qaeda's senior leadership and serve as 
        regional branches of the group. In addition, there are several 
        al-Qaeda-affiliated groups in Syria, though the organization's 
        structure in the Levant is now a bit murky due to various bouts 
        of infighting and disagreements over strategy. There are other 
        al-Qaeda-linked groups elsewhere as well.
    5. Al-Qaeda has not attempted a large-scale attack in the West in 
        years, but this does not mean the threat has been entirely 
        eliminated. Al-Qaeda deliberately chose to prioritize fighting 
        in various theaters over spectacular, 9/11-style terrorism. 
        There is always a possibility that al-Qaeda will decide to take 
        a big shot at the United States or Europe once again. The last 
        al-Qaeda attack in the West came in January 2015, when two 
        brothers carried out a precisely planned assault on Charlie 
        Hebdo's offices in Paris. That attack, facilitated by al-Qaeda 
        in the Arabian Peninsula, was part of al-Qaeda's targeted 
        global campaign against supposed blasphemers. Al-Qaeda's men 
        wanted to portray themselves as the avengers of Islam after 
        Charlie Hebdo and other publications printed allegedly 
        offensive images of the Prophet Mohammed. Al-Qaeda has also 
        sought to inspire individuals to lash out on their own, and has 
        had limited success in this regard.
    6. There are a variety of ways al-Qaeda could attempt a major, mass 
        casualty attack in the West in the future. Part of the story 
        that is often overlooked is the U.S. Government's role in 
        suppressing various emerging threats. For example, the U.S. 
        military struck alleged al-Qaeda leaders in Syria twice this 
        year, claiming that these unnamed individuals are ``responsible 
        for attacks threatening U.S. citizens, our partners, and 
        innocent civilians.''\6\ Previous American airstrikes in Syria 
        have targeted al-Qaeda figures suspected of plotting against 
        the United States and the West as well. In recent years, the 
        United States has also taken out al-Qaeda operatives in 
        Afghanistan and Yemen after intelligence officials learned they 
        had a hand in anti-American and transregional plans.\7\ This 
        counterterrorism campaign demonstrates how al-Qaeda's external 
        operations planning has become more geographically dispersed 
        over time, a direct result of the group's role in various 
        insurgencies.
---------------------------------------------------------------------------
    \6\ U.S. Central Command, ``Statement from U.S. Central Command on 
strike against al-Qaida in Syria,'' June 30, 2019. (https://
www.centcom.mil/MEDIA/STATEMENTS/statements-View/Article/1891697/
statement-from-us-central-command-on-strike-against-al-qaida-in-syria/
); see also: U.S. Central Command, ``Statement from U.S. Central 
Command on U.S. Forces strike against al-Qaida in Syria leadership in 
Idlib, Syria,'' August 31, 2019. (https://www.centcom.mil/MEDIA/
STATEMENTS/Statements-View/Article/1949406/statement-from-us-central-
command-on-us-forces-strike-against-al-qaida-in-syria/). These 
airstrikes targeted Ansar al-Tawhid and Hurras al-Din (or possibly 
former members of the group). Both are al-Qaeda-affiliated groups 
operating in Idlib as well as elsewhere in Syria.
    \7\ Cheryl Pellerin, ``Transregional Strikes Hit al-Qaida Leaders 
in Syria, Yemen, Afghanistan,'' U.S. Department of Defense, November 2, 
2016. (https://www.defense.gov/Newsroom/News/Article/Article/994180/
transregional-strikes-hit-al-qaida-leaders-in-syria-yemen-afghanistan/
).
---------------------------------------------------------------------------
    7. The Trump administration has been pursuing a deal with the 
        Taliban as part of its effort to extricate American forces from 
        Afghanistan, but this will not lead to peace. As the Taliban's 
        recent actions have demonstrated--including its large-scale 
        assaults on the cities of Kunduz and Farah, suicide bombings 
        throughout the country, kidnapping and murder of a human rights 
        official, and release of a video justifying the 9/11 attacks--
        there is no good reason to think the organization is interested 
        in peace. The Taliban currently contests or controls more 
        ground than at any time since 9/11. Americans' frustration with 
        the war effort is well-placed. In my view, however, a deal with 
        the Taliban is not necessary to withdraw American forces from 
        Afghanistan, nor will it advance American interests. A number 
        of regional or international terrorist organizations fight 
        under the Taliban's banner today, and there is no indication 
        that the Taliban will truly break with them.
    8. The Taliban remains closely allied with al-Qaeda, and this is 
        not likely to change as a result of any agreement between the 
        United States and the Taliban. At FDD's Long War Journal, we've 
        documented this relationship for years. In addition, 4 reports 
        submitted to the United Nations Security Council since last 
        year have warned that: Al-Qaeda is ``closely allied'' with the 
        Taliban, and the group's ``alliance with the Taliban and other 
        terrorist groups in Afghanistan remains firm'';\8\ al-Qaeda's 
        relationship with the Taliban is ``long-standing'' and 
        ``strong'';\9\ al-Qaeda ``has grown stronger operating under 
        the Taliban umbrella across Afghanistan and is more active than 
        in recent years'';\10\ the Taliban is the ``primary partner for 
        all foreign terrorist groups operating in Afghanistan, with the 
        exception of'' the Islamic State's Khorasan branch;\11\ al-
        Qaeda ``members continue to function routinely as military and 
        religious instructors for the Taliban'';\12\ and al-Qaeda 
        ``considers Afghanistan a continuing safe haven for its 
        leadership, relying on its long-standing and strong 
        relationship with the Taliban leadership.''\13\
---------------------------------------------------------------------------
    \8\ United Nations Security Council, ``Twenty-second report of the 
Analytical Support and Sanctions Monitoring Team submitted pursuant to 
resolution 2368 (2017) concerning ISIL (Da'esh), Al-Qaida and 
associated individuals and entities,'' June 27, 2018, pages 3 and 15. 
(https://undocs.org/S/2018/705).
    \9\ United Nations Security Council, ``Twenty-third report of the 
Analytical Support and Sanctions Monitoring Team submitted pursuant to 
resolution 2368 (2017) concerning ISIL (Da'esh), Al-Qaida and 
associated individuals and entities,'' December 27, 2018, page 16. 
(https://www.un.org/sc/ctc/wp-content/uploads/2019/02/N1846950_EN.pdf).
    \10\ United Nations Security Council, ``Tenth report of the 
Analytical Support and Sanctions Monitoring Team submitted pursuant to 
resolution 2255 (2015) concerning the Taliban and other associated 
individuals and entities constituting a threat to the peace, stability 
and security of Afghanistan,'' April 30, 2019, page 9. (https://
www.undocs.org/S/2019/481).
    \11\ Ibid.
    \12\ United Nations Security Council, ``Twenty-fourth report of the 
Analytical Support and Sanctions Monitoring Team submitted pursuant to 
resolution 2368 (2017) concerning ISIL (Da'esh), Al-Qaida and 
associated individuals and entities,'' June 27, 2019, page 16. (https:/
/undocs.org/S/2019/570).
    \13\ Ibid., page 15.
---------------------------------------------------------------------------
    9. Far-right terrorism is a global phenomenon. To date, high-
        profile attacks have been carried out primarily by individuals 
        or very small cells. As the brief summary above makes clear, 
        however, violent provocations are traveling around the world at 
        an alarming rate. Individual terrorists are not only inspired 
        on-line, but can also engage in one-upmanship, with aspiring 
        terrorists attempting to outdo one another. Racially-motivated 
        extremist beliefs do not have to be focused exclusively on 
        cultural or ethnic identity, but can also incorporate other 
        radical ideas, sometimes making it difficult to distill the 
        beliefs of a perpetrator down to a single issue. Several recent 
        terrorist attacks have been conducted by individuals who 
        combined far-right, anti-immigrant views with other beliefs. 
        However, their targets--whether they are Hispanic, African-
        American, Muslim, Jewish, members of the LGBT community, or 
        other civilians--indicate their primary motivations.
    10. Going forward, we must be vigilant regarding the possible 
        development of more sophisticated far-right terrorist 
        organizations and networks with capable leaders, both inside 
        the United States and abroad. There are already indications 
        that neo-Nazis and others are organizing their on-line presence 
        to make it easier for aspiring terrorists to get their hands on 
        evil knowhow such as bomb-making techniques. As we have seen, a 
        single shooter can terrorize a community and kill dozens. A 
        small team of dedicated individuals could hypothetically do 
        even more damage, especially if they combine small arms with 
        explosives. Paramilitary or other organized training could 
        greatly increase the threat even further. Coordination across 
        national boundaries is also a very real concern.

    Chairman Thompson. Thank you very much. The Chair now 
recognizes himself for 5 minutes. This is kind-of the broad 
brush question for the Members.
    As we look at this global threat, what is your suggestion 
to this committee for us to focus on for the next year, both 
internationally and domestically, in your learned opinion?
    Mr. Bergen. Can I remind the committee that Representative 
King introduced legislation a long time ago? No fly, no buy. If 
you are too dangerous to be on a no-fly list, why is it OK for 
you to buy semi-automatic weapons?
    There was a moment after the Florida attack where it seemed 
like Congress actually might vote for this. This is 
astonishing. The NRA have produced a huge smokescreen, saying 
there is some Americans on that list who shouldn't be on there. 
Well, we know that only 800 Americans are on that list. My 
guess is all but 2 of them should be on that list, and that the 
civil rights of the 2 people that are being infringed are less 
important than the civil rights of every American who might be 
killed in a mass shooting because somebody legally purchased 
semi-automatic weapons, as Omar Mateen did, the guy who killed 
49 people down in Florida, as did the terrorists who killed 
this lady's father in San Bernardino.
    This is the simplest thing we could actually do to reduce 
the threat.
    Chairman Thompson. Mr. Soufan.
    Mr. Soufan. I think, when it comes to terrorism--I agree 
with what Peter said about mass shootings. But also, when it 
comes to terrorism, I think we need to be sure that the Islamic 
State won't rise again. We need to figure out a strategy that 
goes beyond just the military and the intelligence. We need to 
start focusing on targeting the ideology and targeting the 
incubating factors that is making these groups recruit all over 
the place.
    When I talk about ISIS, I also talk about al-Qaeda. Shabaab 
has been recruiting based on local reasons in Somalia. Al-Qaeda 
and the Islamic Maghreb is recruiting based on tribal and 
ethnic and resources conditions in the Sahel region. The same 
thing in what is happening in Syria with al-Qaeda and ISIS, and 
what is happening in Afghanistan.
    After 18 years of this so-called war on terrorism, we spend 
more than--I don't know. It is reported $5-6 trillion, and now 
we have more terrorists than when we started on 9/11. What we 
are doing is--internationally, globally--is not working. What 
we are doing domestically is working very well. I think the 
intelligence community, the law enforcement community have been 
doing an amazing job in containing that threat and preventing 
that threat from coming to the United States.
    Joint terrorism task forces around the Nation, intelligence 
folks and military personnel on the front lines are doing an 
amazing job, and they are keeping us safe. But we are actually 
putting a Band-Aid on the wound. We need to cure it. By curing 
it, I think we need to go beyond the military and the 
intelligence.
    Chairman Thompson. Mr. Levin.
    Mr. Levin. Thank you. I think there are 3 major things that 
we need to look at.
    One are socio-political divisions, which are getting very 
hot throughout North America and Europe. If you want to look at 
where a threat comes from, look at where you have the bench 
with the most players. Forty-three percent of Americans, 
according to a Reuters Ipsos poll, said whites are under 
attack. That is up 4 percent from 2017.
    That being said, I think we also have to look at unstable 
states, displaced persons internationally, and--as well as 
civil war.
    Two other quick things. One, the internet. Thank you very 
much for calling in the head of that toxic waste dump, 8chan, 
which not only says--not only has bigoted things on there, it 
is really a place for rallying other extremists to commit acts 
of mass violence.
    Last, I have the daughter of someone whose father--who 
painted murals of Jesus at children's hospitals--shot dead in 
our community. We just had some--we just had a California 
highway patrolman shot dead. At the time, San Bernardino was 
the worst post-9/11 violent Salafist Jihadist attack by way of 
fatalities. That has been eclipsed since.
    We have to do something about the weapons of war. I am 
former NYPD. I am a gun owner. But you know what? I don't want 
unstable lunatics or ideological extremists having access to 
these weapons of war. We have seen, for instance, FBI--rifle 
deaths have hit a 10--a decade high. That is the subset of 
where semiautomatic comes from. So I think, with regard to 
magazines, all that kind of stuff, we have to look at magazine 
size. We have to look at types of these semiautomatic rifles, 
which are now the weapons of choice.
    Also, I would say for my friends who also look at these 
jihadist messages, they say, ``Go get a gun. It is easy in the 
United States.''
    So I think, you know, we can dance around the circle, but 
the bottom line is that these kinds of weapons are wreaking 
havoc in our country, and 89 percent of Americans, just in a 
poll that came out just over this past week, said that they 
favor things like background checks, restrictions on magazines, 
and also perhaps even hiking the age of purchasers who have not 
served in the military. So there are a variety of things. I 
want to thank the committee for the holistic approaches.
    Last, though--I think it is really important--the threat is 
really diversifying. While white nationalist, white 
supremacists are on the--on top, these other groups that we are 
talking about internationally, they have a remarkable ability, 
like hitting mercury with a hammer, to come back and coalesce. 
So I think we have to keep a broad spectrum approach. But right 
now, white nationalists, white supremacists represent the 
biggest threat. I think, if you look at what the U.K. services 
have said, what Sweden said just in the last month, this is 
something that is hitting all over the world.
    Chairman Thompson. Thank you. Thank you very much.
    Mr. Joscelyn.
    Mr. Joscelyn. Two quick points. One on al-Qaeda. I think it 
is fitting, since we are 18 years after 9/11, we can ask why we 
haven't been attacked again. There are many reasons, I would 
say, one of which is, of course, the U.S. Government suppressed 
a number of threats, one of which is that they were incompetent 
on several occasions, thank goodness, and the third of which is 
very misunderstood, and is not something that you hear often, 
but I think this committee should explore, which is that over 
last several years al-Qaeda has absolutely de-prioritized 
attacks in the West, in particular, and certainly in terms of 
mass casualty attacks, or attempting one.
    The last al-Qaeda attack in the West was actually January 
2015 against the Charlie Hebdo offices in Paris. That was a 
very precise, well-planned, military-style assault that they 
designed to try and send a message across the Islamic world to 
pretend that they are avenging Islam for the cartoons that were 
published or re-published by Charlie Hebdo. That is a very 
different sort-of style of attack than just sort-of blanket 
trying to bring down planes, or to bomb buildings, or go after 
random civilians.
    The fact of the matter is we have evidence, which I can 
share with you later, that al-Qaeda has had a stand-down order, 
and has not tried sort-of a 9/11-style attack in some time. It 
doesn't mean they will be successful if they push that button 
again. There are a lot of tripwires they could, you know, come 
across that would stop them. But I would ask the question of 
why. Why is it they really haven't tried that recently? They 
have been growing their insurgency footprint, and I think they 
have more assets to try that in the future.
    Very quickly, on the far-right threat--or I am terming the 
``far-right threat,'' this committee, I think, should spend 
time, in my opinion, looking at the increasing indications of 
organizational capacity, which I think Ali Soufan had addressed 
in his testimony. I think that that is where I think this may 
be going.
    I am worried that, when you look at the recent big attacks 
we talked about in El Paso or New Zealand, or the attack on the 
mosque in Norway, or some of these other ones, these were 
carried out by individuals. If you have a team, a small team of 
individuals who are well armed, who have procured weapons, they 
could be even more deadly, and they could be training for 
something along those lines, and training along those lines 
they can get inspiration from a number of different sources.
    I wouldn't--I am not going to share all my thoughts on that 
in an open setting, because I don't want to accidentally 
inspire somebody, but I would be happy off the record to 
provide more thoughts along those lines.
    Chairman Thompson. Thank you. I think you will probably get 
a chance to do an off-the-record conversation about it, too.
    The Chair recognizes the Ranking Member of the full 
committee for questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Joscelyn, what steps can the United States and its 
allies take to keep pressure on terrorist networks and their 
safe havens?
    Mr. Joscelyn. Well, I think the No. 1 thing is 
transparency, talking about what is going on. I am a little 
worried that our leaders are not articulating what is going on, 
or what we see overseas, and explaining to the American people 
the threats that are developing.
    I will give you an example. Just days before President 
Trump was elected, a very senior al-Qaeda leader was killed in 
Kunar Province in Afghanistan. He was planning attacks against 
us from Afghanistan. He was laying the groundwork for long-term 
planning. That made barely a ripple in the news cycle. Nobody 
even knew that that occurred. Yet we see stuff like that all 
the time. You can see in Syria, where the U.S. military has 
bombed al-Qaeda locations twice this year, there has been no 
real explanation of why, or what the threat was, or what they 
were doing.
    So I think there is a basic level of education that is not 
being met right now. But I think we have to keep pressure on 
these networks, the leadership structures, and, most 
importantly, work with allies and partners around the world to 
keep the jihadi insurgencies at bay, because, as those jihadi 
insurgencies spread and have spread, the threats can multiply 
to global security. And that is not something that we are going 
to at this point have the U.S. military taking the lead in 
large coin-style operations around the globe.
    But we have to be very careful about identifying partner 
forces on the ground to back. The big threat in Afghanistan, as 
Peter outlined, and I agree with, is that we have been 
negotiating with the Taliban, while throwing the legitimate 
government of Afghanistan under the bus. That is our best hope 
of keeping the Taliban and al-Qaeda at bay is propping them up. 
I know it is costly. I know people are frustrated with the war. 
Believe me, I get it. But that is the best hope in the long run 
for not allowing these threats to multiply out of Central and 
South Asia.
    Mr. Rogers. Can I point out, Mr. Levin, you said we should 
go beyond what we are doing to combat global terrorism. Mr. 
Soufan talked about how, after 18 years, we have many more of 
these global terrorists than we had when we were attacked in 
2001.
    So I would ask the whole panel, what do you think we should 
be doing differently from what we have been doing to combat 
this global terrorist threat? Start with Mr. Levin.
    Mr. Levin. First, don't take your eye off of the violent 
Salafist Jihadists. Also, don't take your eye off of a variety 
of different places that are becoming hot. FDD was just 
threatened by Iran. I mean we now have an American think tank 
basically being threatened by a foreign power, and they have 
proxies that do bad things----
    Mr. Rogers. What should we do about it, though? That is 
what I am asking all of you. What should we be doing 
differently from what we have been doing as a Nation? You said 
don't take our eye off of them, but then what other action?
    Mr. Soufan.
    Mr. Levin. Oh, could I just----
    Mr. Rogers. Sure, sure.
    Mr. Levin. I don't think we should just get out of 
Afghanistan as if we are--you know, we are heading to a 
football game that we are late for because we are impatient. So 
I just wanted to make sure I made that point.
    Mr. Rogers. Right.
    Mr. Levin. Ali.
    Mr. Soufan. So, sir, first you correctly said that al-Qaeda 
has more than 40,000 members today. We are not even including 
the so-called Islamic State and all the members that they have.
    I mean, at one point they had 45,000 foreign fighters from 
110 different countries that joined them in Iraq and Syria. 
Remember, after the war in Afghanistan, after the Soviets 
pulled out of Afghanistan in 1989, we had about 10,000 foreign 
fighters. ISIS alone had more than 45,000 foreign fighters from 
110 different countries, and you see what those 10,000 did on 
9/11, almost created a path that led us to 9/11.
    What made this ideology, the Salafist Jihadi movement? What 
made it stay after all the trillions of dollars that we spent?
    First, resiliency of the ideology. Frankly, wouldn't even 
attempt to counter the ideology. We are not comfortable in 
dealing about countering the ideology under many 
administrations.
    Two, sectarianism. That started with the Iraq war. The 
sectarianism created opportunities for regional countries to 
fight each other using the sectarian elements which fed into 
groups like ISIS and al-Qaeda, and gave a new blood for al-
Qaeda, the Iraq war.
    Third, I think it is the Arab Spring. The Arab Spring 
changed the calculus of Osama bin Laden. This is when he 
ordered his organization not to focus on the far jihad, not to 
focus on the United States, but to focus regionally, create 
chaos, prevent anyone from filling the vacuum, and then they 
can create an alliance between all these groups and create 
their own caliphate.
    So now they are doing exactly what bin Laden told them with 
al-Qaeda and the Islamic Maghreb. Then it goes to the Horn of 
Africa with the Shabaab. Then it goes to AQAP in Yemen. Then it 
goes to the different names that al-Qaeda uses in Syria, from 
Ansar al-Deen to the Tahrir al-Sham. You can put a lipstick on 
a pig, it is still a pig. They are all al-Qaeda members.
    So if you look at that, the Arab Spring changed the 
calculus of the global jihad. The Syria war that gave them 
another opportunity that Afghanistan--you know, that we took 
away from them in Afghanistan. We need to engage in countering 
the sectarian elements by cohesive diplomatic initiative, and 
solving a lot of these problems there. We need to counter the 
ideology using people from the region, tribal leaders, 
governments, scholars--preventing our allies from using 
religion in order to fight Iran, for example, and this way it 
is feeding into al-Qaeda.
    We need to find solutions for a lot of these incubating 
factories that is feeding these groups and make them recruit. 
We need to diminish their ability to recruit. You know, al-
Qaeda and ISIS should not be the answer for the grievances of 
Muslims in the Middle East. When we do that, we will be on the 
first path of success.
    Mr. Rogers. Great, thank you. I yield back.
    Mr. Bergen. I mean I think it is very simple. Just learn 
from our own history. We closed our embassy in Afghanistan in 
1989. Into the vacuum came the Taliban and then al-Qaeda. We 
withdrew completely from Iraq at the end of 2011. By the way, 
this is a bipartisan failure, because it was George W. Bush's 
plan, it was implemented by the Obama administration. Let's not 
make the same mistake in Afghanistan.
    Let's also learn from our successes. You know how many 
people have died in the operation against ISIS, how many 
American servicemen have died in the Iraq and Syrian war? It is 
16. Now, each one of those deaths is an individual tragedy. But 
tens of thousands of Iraqis and Syrians died on our behalf. We 
trained up one of the world's worst military, the Iraqi 
military, to become the Iraqi Counter Terrorism Service, one of 
the most effective counter-terrorism groups in the region, and 
they did a great job in defeating ISIS. We did the same thing 
with Syrian Democratic Forces. Its--those forces are still 
there, and they make it much less likely that either ISIS--that 
ISIS could come back in the same way that it did in the summer 
of 2014.
    So I think just learn from our history. We know how to do 
this. The Trump administration's approach to this and the Obama 
administration's approach to this have, broadly, been very 
similar. No big footprint. Use special forces, use drones, use 
cyber operations, keep the number of Americans that are 
actually fighting on the ground pretty--to a very small group. 
That is a tried-and-true kind of approach.
    Mr. Rogers. Great, thank you.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentlelady from New York, Ms. Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Bergen, has the announcement of the death of Osama bin 
Laden's son had an effect on al-Qaeda's ability to recruit 
newer, younger members? Are you concerned that the leadership 
void, such as there is one, leaves opportunities for more 
extreme spin-off groups to rise?
    Mr. Bergen. Thank you, Miss Rice, Representative Rice. You 
know, bin Laden's son, the State Department put a million 
dollars on his head. I think that is actually kind-of--if you 
think $25 million for Ayman al-Zawahiri, the actual leader--
Hamza was a, you know, 30-year-old. He wasn't--there is no 
evidence he was carrying out operations. It is not good for 
them that they lost him, because he could have become a next 
generation leader. Ali Soufan has written about this 
extensively. I don't think it is really that big a deal, either 
way. Al-Qaeda's leadership is mostly dead, and that is because 
of the drone program.
    We don't know how Hamza died. I wouldn't be surprised if it 
was on the wrong end of an American drone, but it has been very 
effective. The best witness for that is bin Laden. If you look 
at the Abbottabad documents, he was extremely concerned about 
the drone program because it was killing his entire 
organization, the leadership of it.
    Miss Rice. How close do you think Iran is to acquiring a 
nuclear weapon?
    Mr. Bergen. I have no idea.
    Miss Rice. Does anyone on the panel have any thoughts about 
that?
    Mr. Bergen. I mean, look, the International Association for 
Atomic Energy has said at least 9 times that the Iranians are 
not enriching uranium to the point where it is really an issue. 
Right now the agreement was 3.67 percent. It is now--they have 
been enriched to 4.5 percent. Well, they need to get to 90 
percent for a weapon. So, look, I am not a nuclear weapons 
expert, but, I mean, they are a very long way from it.
    But they are kind-of fiddling around the edges, and we are 
kind-of in this kind-of ironic situation, where the thing the 
Trump administration is supposedly trying to prevent is 
actually beginning to happen, which is they are trying to inch 
up to getting this capacity. But they are being very careful. 
They don't want a conflict with us in the same way that we 
apparently don't really want a conflict with them.
    Miss Rice. Peter, I think that you actually mentioned 
before, you know, that a lot of how we address the issues that 
we are talking about here today requires a level of cooperation 
with our international partners. A big concern that I have--and 
I am sure many people on this panel have--is our ability to 
actually build those kind of international--or continue those 
kind of international relationships that are so important, not 
just to intelligence gathering, but to a collective response to 
whatever threat it is that we are talking about.
    So, Peter, your thoughts on that, and anyone else on the 
panel?
    Mr. Bergen. No, I mean, our allies are still with us in 
Afghanistan. If we--but if we withdrew, they are not going to 
stay. I mean, they are advising and assisting the Afghan army. 
So, I mean, they are looking to us for leadership, obviously. 
Yes, I think that is about it.
    Mr. Joscelyn. I have one thing.
    Miss Rice. Yes.
    Mr. Joscelyn. You know, we--I hear a lot in this town about 
great power competition. I am sure you guys hear quite a bit 
about it. You know, especially with China, and homeland 
security, and different threats and issues. My own view, as you 
see in my written testimony, is that the resource allocation 
argument is a little bit misplaced.
    I am sure there is still fat on the bone to be cut in terms 
of what we are spending on counterterrorism, maybe, actually. 
But the pivot away from making that the centerpiece of what the 
U.S. military does, in particular, happened years ago. If you 
look at Defense Department budgets, you look at how our forces 
are deployed around the world, it is just simply not the case 
that they are sort-of tied up resources fighting al-Qaeda or 
ISIS that need to be freed up to worry about China or worry 
about Russia. I just don't buy that argument, as a whole.
    You can argue about different--what you think we should be 
doing in Afghanistan, or you can argue we should be doing 
things differently. Fine. But I don't think that there is sort-
of this meme that has grown about how we just have to worry 
about China and great power competition now, and don't worry 
about this stuff.
    The bottom line is that the best cost management way to 
deal with this jihadism going forward is to make sure that our 
allies are properly supported in the fights, since they are the 
ones who are incurring the on-the-ground casualties, by and 
large, since they are the ones that are expending the 
resources, and since, by and large, it is their societies and 
their homes that are in jeopardy.
    You know, if we pull back from that and we take--pull the 
rug out from under them, then guess what? We are going to have 
to spend more resources to deal with it in the long run, and 
then it is going to become an even bigger resource allocation 
problem.
    Miss Rice. Yes. Mr. Soufan, what more should be done to 
combat the use of crowdfunding and crypto currencies to fund 
white supremacist extremists?
    Mr. Soufan. Well, first we need to recognize the threats. I 
bet our intelligence and law enforcement folks will do a great 
job in dismantling it.
    Our allies, for example, the Canadians and the British, 
already designated some white supremacist groups as terrorist 
organizations. Guess what? These groups have contacts with 
white supremacist groups in the United States. Now you have an 
ally like the Brits or the Canadians saying, ``Those are 
terrorists, America. What are you going to do about it?''
    So this is really interesting. We need to recognize the 
threat. We need to start looking into designation of foreign 
entities that is involved in promoting this hateful narrative. 
Then the next will come.
    Unfortunately, with 9/11 we were screaming and crying, 
``Hey, pay attention to this al-Qaeda. Pay attention to Osama 
bin Laden.'' I remember when the USS Cole happened and we were 
in Yemen. Nobody cared. When we finally convicted Osama bin 
Laden and his operatives who were blowing up two embassies in 
East Africa, in Nairobi and Dar es Salaam in August 1998, the 
day after the conviction the cover pages in the New York papers 
were a fight that took place between Jennifer Lopez and P. 
Diddy in a club. Nobody cares about what we are doing.
    People cared and woke up after 9/11. We were in that battle 
for a long time. We have been asking people, ``Please pay 
attention.'' I think we need to recognize that. Other allies 
started recognizing that threat. We need to pay attention 
before it is too late. Thank you.
    Miss Rice. Thank you all very much. Thank you, Mr.----
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from New York, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. Let me thank all the 
witnesses for their testimony.
    Mr. Levin, thank you for your service with the NYPD. In 
your testimony you mentioned about the social and political 
divisions here in the country which edge the violence. Let me 
just say at the outset white nationalism is evil. Whatever has 
to be done to stamp it out, we have to do, whether it is 
cooperation internationally, nationwide among local police. 
Coordination that we put in against al-Qaeda and ISIS has to 
all be also used against white nationalism.
    I would say, though, that--so we don't take our eye off the 
ball all together, even domestically, there have been attacks 
from the left. For instance, the attack on Steve Scalise and 
the Republican baseball team. It was motivated by somebody from 
the left. We had El Paso. We also had Dayton, which appears the 
person was motivated from the left.
    Now, not to ascribe any of this to people on the left, but 
we do have people who can be driven off the edge. So I think, 
while white nationalism is most organized right now, also we 
should keep an eye on, again, groups like Antifa on the left, 
because there is a, I think, a violence in our society. It is 
more pronounced on the right right now, but it is also there on 
the left. We should keep that in mind.
    Also, the attacks on police officers have increased 
dramatically in the last several years. So all of that, I 
think, should be part of the holistic approach we are talking 
about.
    Also, I can't agree more with all of you who say that we 
can't take our eye off the ball, as far as overseas, as far as 
the Islamist threat, the terror threat. Just go back to 2009 
with Najibullah Zazi. If he had been successful, we would have 
had hundreds, if not thousands, of people killed with that one 
attack. There was going to be a attack on the--a liquid 
explosive attack on the New York City subway system, which 
almost succeeded. I was actually with Commissioner Kelly the 
night they were waiting for that to happen. They didn't know if 
they had gotten everybody or not. So with one mistake, or one 
taking our eye off the ball, we could have another 9/11, or we 
could have had someone like Zazi getting through.
    So I think it is a temptation on both sides to, you know, 
sort-of live in your own silo. I think that those of us on the 
right have to realize there is a definite threat coming from 
white nationalism. It is there. It is evil. But also, as a 
country, we can't let battle fatigue cause us to make decisions 
which may seem pleasant at the time--we are finally bringing 
our troops home, we are finally easing some of the 
restrictions--and then find out we get attacked the next day.
    As you said, otherwise it will be a Jennifer Lopez replay. 
We will be--I remember in 2001 also the big issue that summer 
had been the attacks by sharks and people at the beach. That 
was the headlines every day. We never heard from it again after 
9/11.
    So with that, if I could just, again, ask each of you if 
you can just comment. Do you think that significantly the reach 
between overseas Islamist terrorism, al-Qaeda, ISIS, and the 
offshoots, that reach they have into the United States as far 
as actual interconnection has been reduced, and where it stands 
right now since 9/11?
    Mr. Bergen. Well, let me make an observation. Every lethal 
terrorist attack carried out by jihadi terrorists since 9/11 
has been carried out by a U.S. citizen or a U.S. legal 
permanent resident. None of them are foreign terrorists. None 
of them came from overseas. So the reach is entirely 
electronic.
    I mean--so the travel ban was kind-of a solution in search 
of a problem that didn't really exist. You can't ban the 
internet, and the people involved aren't--they are here, they 
are Americans.
    So the question is one of domestic radicalization, whether 
it is right-wing terrorists, or whether it is jihadists, or 
whether it is black nationalist terrorists, or ideological 
misogynists, or other groups.
    So the real issue is what is happening on the internet, and 
what is radicalizing people here, notwithstanding the fact 
that, as everybody has said, we have to be cognizant of the 
overseas threat. But the kind of proximate threat is the local 
threat here in the United States.
    Mr. King. Mr. Bergen, if I could just add, though, to that, 
though, for instance, Zazi was an American citizen.
    Mr. Bergen. Yes.
    Mr. King. But he was--also had been over in--I guess it was 
Afghanistan, where the attack was coordinated from. So he was 
an American of Afghan ancestry, and he was over there. So that 
was, yes, an American carrying it out, but with direct 
coordination from Afghanistan.
    Mr. Bergen. That is correct, sir. So, you know, Faisul 
Shahzad, trained by the Pakistani Taliban in 2010, tried to 
blow up an SUV----
    Mr. King. Times Square.
    Mr. Bergen [continuing]. In Times Square, and the Underwear 
Bomber was a Nigerian who was trained in Yemen who tried to 
bring down a flight. So--but these are all a decade ago. I'm 
not saying it can't happen again, but the things that are 
happening all the time are these domestic terrorists.
    Mr. Levin. Could I just respond to something you said, 
Congressman?
    Mr. King. Yes, sure.
    Mr. Levin. Nobody knows the Antifa threat like I do, since 
the last death threat I got was either from the hard left or 
Antifa. We don't know who it was.
    But now, Dayton is in a little bit of a holding pattern. 
FBI apparently still is looking at it as domestic terrorism. It 
could be a hard left thing. However, over the last couple of 
years we have not seen any homicides committed by Antifa or the 
hard left. Not saying it couldn't happen--1970's, a different 
picture. When I testified before the committee just 4 years ago 
I said the biggest threat facing the United States homeland are 
violent Salafist Jihadists. Then, within weeks, we had Paris 
and our community was hit.
    But I think we also have to look at a little bit of 
operational effectiveness. What we have seen is this pattern 
around the world of these white nationalist, far right--we just 
had a Nazi elected in Germany. So yes, could the hard left do 
things different?
    One of the things that we see is when one goes up, another 
goes up. If you remember, after the Oklahoma City bombing, who 
came out of the shadows? The Unabomber.
    So what we are seeing is a lot of convergence. We even see, 
like, mixed messages and mixed motives. But bottom line is, at 
this point, we have not seen the kind of organized threat--
Antifa, I think, is more concerned, frankly, with shouting loud 
at a lot of these places, and minor physical assaults. But we 
did see in Tacoma an Antifa partisan commit an attack with 
firearms and an IED, just in the last few months.
    But bottom line is we have counted--we--so the year after I 
testified, 3 homicides by white supremacists. Now, this year 
alone, 26.
    Mr. King. Yes, I am not disputing anything you said. I 
would say that, right now, the main threat is white 
nationalism. We should also keep an eye, since there is, as you 
said, violence going throughout our society, and some of the 
recent attacks have also been coming from the left.
    But again, I--let's make it clear. White nationalism right 
now is the main domestic threat. I am not getting away from 
that.
    Mr. Joscelyn. Can I make a very quick point? Just to answer 
your question about the issue of infiltrating a terrorist team, 
which is what this gets to the heart of, the--one of the big 
reasons why they haven't been able to do another 9/11-style 
attack is because there are a number of trip wires for 
infiltrating into the United States a team of trained 
terrorists from abroad. That doesn't mean it has been perfect; 
some of them have gotten through on an individual basis, that 
sort of thing.
    My main concern with the spread of a jihadist insurgency is 
it gives them more jumping-off points to try and get a team 
into the United States. That is my main concern. I don't 
think--although the United States is definitely tracking that 
threat in places like Syria and Yemen and elsewhere, I think 
there are probably holes developing in our vision of the enemy, 
which may be a concern, going forward.
    There are some indications of what they are trying to do, 
in terms of basically finding a side way in to try and do 
something along those lines. But again, that is sort-of the--
that is, obviously, not the bulk of what we have seen since 9/
11, but it is still a possibility that can't be ruled out.
    Mr. King. OK, thank you. I yield back.
    Chairman Thompson. The Chair recognizes the gentlelady from 
New Mexico, Ms. Torres Small for 5 minutes.
    Ms. Torres Small. Thank you, Mr. Chair. Thank you all for 
being here today.
    I am concerned about the rise of white nationalism abroad, 
and their connection to domestic terrorism in the United 
States. As you know, authorities believe that the shooter of 
the El Paso massacre last month, just a few miles from the 
district I serve, wrote a anti-Hispanic manifesto, referencing 
white supremacist ideologies, and support for the Christchurch 
shooting in New Zealand.
    Mr. Soufan and Mr. Levin, can you please talk about the 
nexus between global white supremacist extremism and its impact 
on domestic terrorism in the United States?
    Mr. Levin. Sure. From time to time we see, like, different 
flavors of the year. So the Turner Diaries back in the 1980's 
was a book that inspired a group that committed the largest 
armored car heist and had a list of people to kill. Now there 
are others. I don't even want to mention these other books, by 
the way, so I am not going to.
    But if you look at the words of the actual terrorist in El 
Paso, he said exactly why he was doing this. It wasn't until he 
read a book, and that book was this ``The Great Replacement.'' 
What ``The Great Replacement'' started out--is a book by a 
fellow named Camus, not the one that you all studied in high 
school, another Camus. What it talked about was Muslims in 
Europe, and how they were taking over, this whole concept of 
white genocide. What has happened is this has become a world-
wide template.
    In the United States it is now, with this terrorist, 
Latinos. But we have also seen them talk about conspiracies and 
Soros. The killer that murdered congregants at the Tree of Life 
Synagogue spoke about immigration, because Jews were supporting 
immigrants.
    So the bottom line is, just like the violent Salafist 
Jihadists, there is a template of grievance and this fear, as 
America changes. We have ceased to be a white majority 
Christian nation, and there is going to be some tension, not 
only with that kind of thing, but also political changes.
    Interestingly enough, the young people who have been 
committing this--look at this. We have seen Poway. We have--we 
haven't put Gilroy as ideological white supremacist at this 
point. But bottom line is those counties, if you look at those 
counties, they are all counties that have had their demographic 
change. The young people who are committing these attacks--we 
are talking, like, teenagers and young 20's--they are in the 
most diversified group of any age cohort.
    So I think we have to do a lot with regard to education, 
weaponry, but also we need----
    Ms. Torres Small. Sir, I just--I have got 2 more minutes, I 
want to get to a few more----
    Mr. Levin. Sure.
    Ms. Torres Small. Just one more question. The other thing I 
appreciate is Mr. Bergen and Mr. Soufan both talked about the 
range of terrorism threats, and that terrorism is terrorism. So 
understanding ideology is one key piece of how we address that; 
the other is understanding platforms.
    So I wanted to just get a sense of--because the shooters of 
El Paso and Christchurch massacres both used on-line platforms 
to spread their xenophobic ideologies. So, Mr. Soufan, if you 
can, speak to how--what on-line platforms are doing to better 
detect and mitigate terrorist groups and individuals from 
promulgating violent extremist context and galvanizing support.
    Mr. Soufan. We always hear Facebook and Twitter putting 
down accounts and closing accounts. But you know what? You put 
out something, and they open 3 or 4 more.
    You heard about the ideology, but there is actually an 
organizational transnational network that goes beyond the 
ideology. We have groups--and I don't want to name any of them 
here, because I don't want to give them the PR of their names 
being mentioned in the U.S. Congress, but I will be very happy 
to share all the names and the organizations with you. These 
organizations operate in so many different places in the 
Western world, all the way from Australia through Ukraine to 
Western Europe to the United States.
    We have groups in the United States, they actually go on a 
trip all together to Europe every year to celebrate Hitler's 
birthday, where people from all over the white supremacist 
movement get together and they party and they coordinate and 
they work together. We have people training exactly like the 
jihadi----
    Ms. Torres Small. What can on-line platforms do to better 
mitigate those convenings?
    Mr. Soufan. Well, from that perspective, what the on-line--
this is a problem that we have witnessed with them with the 
jihadis, and we still--we see it with the white supremacists. 
They have to monitor their websites, and they claim, when they 
are selling ads on their websites, that--or on their platforms, 
that they can monitor everything. That is why they can--you 
know, you can make money out of it. Well----
    Ms. Torres Small. What can Congress do, and the Department 
of Homeland Security, to improve coordination with the on-line 
platforms?
    Mr. Soufan. Well, I think you need to hold the on-line 
platforms accountable. We need to work--you hold them 
accountable for what is on their platforms. Unfortunately, this 
is something that hits with the First Amendment. I think 
Congress--and I think I believe people in this committee had 
dialogs with the platforms on this.
    Ms. Torres Small. Thank you.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Texas for 5 minutes, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me first say at the outset--express, Mr. Chairman, my 
disappointment that the Secretary of Homeland Security, the FBI 
director, and the director of NCTC is not here today. It has 
been a long-standing tradition of this committee when I was 
Chairman, and Mr. King. They annually have testified before 
this committee. I regret that, and I hope that we can follow up 
in a bipartisan manner on that.
    Let me also say, Peter, your experience--been one of the 
only journalists who have interviewed Osama bin Laden; Ali, 
your tremendous work at the FBI, both pre-9/11 and post, is to 
be commended. I thank the other witnesses, as well.
    But I want to talk also about Afghanistan. I think we need 
a residual force, as we need one in Syria, if anything, for 
homeland security response. We can't nation-build, but I think, 
to have that residual force to protect the homeland, is 
extremely important.
    On the--I want to ask one question on the international 
terrorism and one on domestic terrorism.
    I would say that we--in 2015 and 2016 our threat briefings 
were terrifying. I think that there is one operational external 
operation per month to kill Americans in the United States. 
That has greatly diminished, and I attribute a lot of that to 
the crushing of the so-called caliphate.
    Having said that, I think they have retreated, and they are 
embedded. They are on the rise in the Sahel in Africa. So maybe 
Mr. Bergen and Mr.--Ali, if you could, comment on where is al-
Qaeda today, and how big of a threat are they as they were, 
say, pre-
9/11?
    Mr. Bergen. Yes, I mean I think al-Qaeda, you know, for 
some of the reasons Ali laid out, has, you know--they have 
kind-of moved to a local insurgency model in places like Syria 
and other places. Their capacity to attack the United States 
has really diminished. So, you know, that can change, but right 
now they are--you know, the last time al-Qaeda carried out an 
attack in the West was the 7/7 attacks in London on July 7, 
2005. You know, that was 15 years ago, almost.
    So--but, you know, why did ISIS--there were 80 ISIS cases 
in the United States in 2015. The number has gone down to 18 in 
2019. The fact that ISIS had this geographical caliphate was 
very inspirational. So the model is a little bit different. If 
a jihadi group has large amounts of territory, is able to 
recruit, as Ali's group has documented, you know, tens of 
thousands of people from around the Muslim world, you know, we 
have a strong interest in making sure these geographical safe 
havens disappear, because they are very inspirational to people 
that may not even travel there.
    Mr. Soufan. I think, sir, there was a reason al-Qaeda was 
focusing locally, because the Arab Spring gave them the 
opportunity to do so.
    Al-Qaeda's strategy is basically based on the management of 
savagery, 3 different stages: First, you do attacks in order to 
have the system that you are fighting collapse; and then you 
fill the vacuum and prevent anyone else from filling that 
vacuum but you; and then you establish a state. That is exactly 
what al-Qaeda is trying or attempting to do in each of these 
areas that experience the vacuum after the Arab Spring, all the 
way from Sahel to Yemen to Syria to Iraq. Remember, ISIS was 
al-Qaeda in Iraq before.
    So, basically, al-Qaeda, when it started--I spoke about the 
resiliency of the group. Al-Qaeda, when it started, they didn't 
focus against the United States, they were focusing in Sudan 
about trying to help the Somalis against the United States, and 
then went to Afghanistan after the Sudan government kicked out 
Osama bin Laden.
    But then, after that, they started their global jihad. 
There is a big possibility that, at one point, when they feel 
that they already established a network, they already have the 
operatives, they already have the expertise, they already have 
a network, globally, to go back to the global jihad--because 
global jihad is what al-Qaeda is all about, and----
    Mr. McCaul. Right. My last question--and from my position 
as the lead Republican on the Foreign Affairs Committee, I do 
think the Sahel is a new hotspot to look at with the jihadists.
    But on domestic terrorism, you know, my father was a 
bombardier, he bombed the Nazis. I have no tolerance for white 
supremacists, you know, for Nazi doctrine. It disturbs me 
greatly. When I talked to the FBI in 2015, 2016, it was all 
about--every shooting that took place was by--it was 
traditionally a jihadist. Now it seems to shift, and we are 
talking more about white supremacy, domestic terrorism groups.
    My question is this: We have a National counter-terrorism 
center. Does it make any sense to have a domestic counter-
terrorism center under the FBI that would have this same 
discipline of fusion intelligence?
    But also, as Ms. Torres Small mentioned, the role that 
Twitter and Facebook played--and I worked with them greatly to 
bring down the sermons of Awlaki, all this stuff that was out 
there, jihadist material, off the internet, does it make any 
sense to have a similar discipline, domestically, to take down 
this--you know, when a manifesto is published on the public 
internet, to take that down?
    Mr. Bergen. I think, sir, on the first, I mean, yes. I 
think a domestic analog of the NCTC I think is an interesting 
idea.
    On the second, you know, the Germans criminalized--have 
made it a criminal matter for these companies not to 
immediately take things down.
    Now, it is not really a First Amendment issue, it is really 
a terms of use issue, right? We are not criminalizing free 
speech, we are just saying, hey, being on these platforms is 
not a right. They are private property. You are allowed onto 
them. But if you incite violence, we can get you off. So it is 
really just about making social media companies enforce their 
own terms of use.
    How do you do that? You don't necessarily do it through 
legislation. You do it through having hearings like this, and 
you do it through shaming and naming, and making it, like--you 
know, think about Facebook. Facebook was creating the Promised 
Land 10 years ago. Now it is a much more complicated picture.
    You know, these companies need to face--they tend to have, 
first of all, denial and then, eventually, acceptance is the 
usual. I think they know they have a huge public relations 
problem, and--but it is based on some real problematic things 
that people are doing on their platforms. We need to just 
constantly keep the pressure on them to do the right thing, 
because it is not a First Amendment issue, it is a terms of use 
issue.
    Mr. McCaul. Thank you.
    Chairman Thompson. Yes, and let me say that this committee, 
as you know, we have been looking into this, and our next 
speaker might talk about it. But shaming is part of it, but I 
think there is some responsibility that we, as Members of 
Congress, will have to exert as we do our review. But we are 
trying to get it right, you know, and not a knee-jerk response, 
but try to get it right.
    The gentleman from New York for 5 minutes.
    Mr. Rose. Mr. Chairman, thank you. I would like to just 
start out by saying, Mr. McCaul, I think this notion of a 
domestic NCTC is a brilliant concept, and would really love to 
work with you on that. I think there is a tremendous amount of 
potential for progress there.
    Mr. Levin, thank you, as well, for your support to the 
NYPD.
    Mr. Levin. Thank you for your service to our country. One 
of the contributors to this is a student of ours who is an 
Afghan veteran. God bless you.
    Mr. Rose. All right. Well, that is--thank you. I needed to 
hear that today.
    So here is the problem with social media right now, is that 
they are committed to getting foreign terrorist organization 
content off of their platforms. When they don't do it 
correctly, we call them out on that. We have to do a better job 
of establishing a system by which we can publicly hold them to 
a standard, a standard that we have helped establish, and an 
organization where they can solve that collective action 
problem.
    But the issue, as we face domestic terrorism, is--and white 
nationalist terrorism--is that many of these entities are not 
established as FTOs.
    So my question to you is simple. Which organizations should 
the State Department establish as FTOs, as it pertains to the 
white nationalist threat? We will start with Mr. Bergen.
    Mr. Bergen. I am going to defer to Mr. Levin and Mr. 
Soufan, but I think this is a very fruitful idea, because there 
are, obviously, huge First Amendment issues around this. But if 
you can designate a white nationalist organization overseas 
that somebody here domestically is communicating with, then you 
open yourself up to all sorts of material support charges. So I 
think it is a very fruitful potential idea.
    Mr. Soufan. Yes, that is exactly what I mentioned in both 
my oral statement and my written statement. I think we already 
have a few organizations that has been designated as foreign 
terrorist organizations.
    The Canadian--for example, when they designated one of 
their organizations, they designated it as a part of a foreign 
terrorist network. It was a white supremacist group, domestic 
white supremacist group. So we already have some groups that 
has been designated by our allies. I think we can work on our 
allies in trying to help them build material support cases 
inside the United States for these individuals that have been 
in contact with them.
    Mr. Levin. Here is the problem. It is very similar to--I 
know the rest of the panel will remember this--when bin Laden 
was killed, there was a treasure trove of emails and documents. 
He was upset that it was being farmed out to do-it-yourselfers. 
It was--he was a little--you know, he was upset about the 
change with regard to that.
    What we are seeing is a fragmentation, often times--not 
always--but with regard to groups which are splintered. They 
are splintered and very hard to identify, No. 1.
    No. 2, in Europe they outlaw hate speech, which is legal 
here.
    Mr. Rose. But that is not going to change here. So I want 
to keep us focused here. Foreign terrorist organizations, white 
nationalist organizations, who should we identify as such?
    Mr. Levin. We should look at some of these neo-Nazi groups 
that are in Britain, that are in Germany.
    Mr. Rose. OK.
    Mr. Levin. I don't want to give them free publicity.
    Mr. Rose. That is all right. They get enough of it on 
Facebook already.
    Mr. Levin. Right. But the security services in Sweden, in 
Germany, in Britain know who the ones that have the violent----
    Mr. Rose. OK.
    Mr. Levin. I think we have to have the same kind of 
coordination with that that we had with regard to violent 
Salafist Jihadists.
    One other quick point on this. There is a difference in 
threat. Europe, you have the return of foreign fighters that we 
don't have here, for instance, with regard to the violent 
Salafist Jihadist threat. Here we are looking at a lot of 
people who are disenfranchised folks who are almost self-
radicalizing.
    Mr. Rose. Yes. But with all respect--and I want to get to 
the next witness--we see the same thing in the jihadist threat, 
too. So the--there are striking similarities between these two 
likely threats. Not the most dangerous threat, but the most 
likely threat we face is that of a self-radicalized gunman. But 
the ideologies are relevant.
    So just--because I have limited time----
    Mr. Levin. Sure, but we can't drone white supremacists in 
Germany.
    Mr. Rose. Right.
    Mr. Joscelyn. Just very quickly, believe me, I monitor a 
lot of hateful content. If you could see my computer in the 
room in the back you would probably be shocked at how much 
stuff is still on-line. Every day, hundreds and hundreds of 
terrorist channels that I monitor on Telegram, in particular, 
that have been active for probably 2 years, some of them.
    All I would say is this. In terms of removing content from 
on-line, I am generally sympathetic to that idea. The only 
thing I will tell you is if you talk to the real professionals, 
like at the FBI or elsewhere, they will tell you that there is 
a lot of material that goes on-line. It is very useful for 
figuring out who to be investigating----
    Mr. Rose. Sure.
    Mr. Joscelyn [continuing]. Because these guys interact. If 
you can designate certain terrorist organizations overseas, 
then that can be a trip wire to get more investigative work 
done, in terms of who is actually engaging with content from 
those organizations.
    Mr. Rose. Absolutely. Just to close things out, I believe 
that this is the epicenter of the problem, is that right now in 
the United States of America if someone says, ``I declare 
allegiance to ISIS, and I want to hurt people,'' we have an 
amazing amount of law enforcement resources available to us to 
address that. When they say the exact same thing about a white 
nationalist organization, we do not. Terrorism is terrorism, 
and we have to fix that.
    The first step, I believe, is to start establishing some of 
these organizations as true foreign terrorist organizations.
    Mr. Soufan. Not only that. There are 17,000 people from 
across the Western world that went to fight in Ukraine. The 
great majority went to fight was white supremacist 
organizations. Some of them are from the United States.
    We have another problem with foreign fighters, and it is 
white nationalist problem, not jihadi problem. These guys can 
travel to the Ukraine, can meet with other like-minded groups, 
come back to the United States, and no one is monitoring them. 
At least one of them got indicted by the L.A. office of the FBI 
as part of an organization that I won't name, and their job was 
to organize violence in Charlottesville.
    This is a reality. We know these groups----
    Mr. Rose. But you would agree we have the infrastructure in 
place----
    Mr. Soufan. Absolutely, absolutely.
    Mr. Rose. We have to identify them.
    Mr. Soufan. Absolutely. Declare those guys in Ukraine as 
terrorists, and then we will monitor each and every one when 
they come back to the United States.
    Mr. Rose. Great. Thank you.
    Chairman Thompson. Thank you. The Chair recognizes the 
other gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman. At the outset I want to 
echo the sentiments of my--some of my colleagues here about the 
FBI director, the Homeland Security Secretary, and the director 
of NCTC not being here. I don't think we should tolerate that 
conduct much longer, and I think that--our job is to provide 
oversight. I don't think the tail should wag the dog. I think 
that we should let them know in no uncertain terms that when we 
call them to testify, it is not an option, and that we should 
put our foot down and get them here.
    Now, I want to turn to what we have discussed here today. 
It is pretty clear to me that we have had a very healthy 
discussion, and we got some direction, especially from Mr. 
Rose's questioning, about maybe labeling some of these 
foreign--some of these white supremacist groups as foreign 
terrorist organizations, and then using the model that we have 
used with the jihadist organizations to help go after them, 
which is a great idea.
    I do want to understand the scope of it, the problem in the 
United States, a little bit better, and I am not sure I got it 
absolutely clear that white supremacists is the biggest 
problem, and we got to go after that, and we have to address 
it. I will talk more about that in a moment.
    But Mr. Levin, you stated that the risk is diversified, and 
we need to look at the entire field in your testimony. Could 
you briefly tell us what you meant by that?
    Mr. Levin. Sure. I mean the risk is diversifying in a 
variety of ways. One, organizational structure. We talk a lot 
about loners, but there have been recent cases--and again, I 
don't want to mention these groups--but they have included 
transnational. We now have a missing Canadian service member 
who was just booted out of the service, who is a member of a 
paramilitary group that trained here in the United States. So 
we are also seeing this stuff bubble up, where we are not just 
talking loners, we are seeing that--the internet, and other 
ways of people to congregate, to train with military weapons.
    I believe that 18 United States Code 231, which prohibits 
paramilitary training to foment civil disorders, should be 
amended to also punish trainees, not just trainers. That is 
something that is not ideological, it is not a First Amendment 
kind of issue.
    I would also say that I am a bit concerned--and, gosh, I 
don't want to come up as being the white supremacist defense 
person here--but we must make sure that it relies on criminal 
predicates. What we have seen recently in Southern California, 
a group on the left that was actually peaceful that was 
investigated, and what I worry about is we--whatever we are 
going to do, we want to make sure that we have restrictions 
which make sure that people who--we might just disagree with 
are not being tracked because they are a terrorist----
    Mr. Katko. I understand that. There has got to be 
safeguards of that.
    Mr. Bergen, you say--you testified words to the effect that 
prioritizing one domestic ideology is a mistake. What did you 
mean by that?
    Mr. Bergen. Well, I just mean that, you know, for--look, if 
we get--political violence has been a way of life in the United 
States--I mean, in the 1970's it was the underground black 
national--Black Panthers. Black--people motivated by black 
nationalist ideology have killed 8 people in the last 2 or 3 
years in the United States. People motivated by ideological 
misogyny have killed 8 people in the United States in the last 
several years.
    So all I am saying is that there are many different 
ideologies that young men who want to carry out violent acts 
might attach themselves to. Jihadism and white supremacy are 
the two most important ones, but there are others. 
Representative--you know, I mean, everybody knows the Steve 
Scalise case, and how lucky he was to survive that attack. So 
we are seeing a little bit of an uptick on leftists.
    Despite what Representative King said, Antifa is not 
carrying out lethal attacks. They may not----
    Mr. Katko. Right, right. I understand what you are saying, 
and I guess that is my point, too, is we are so laser-focused 
on the jihadist movement that maybe we took our eye off the 
fact that this--we now have a burgeoning white supremacist 
movement. If we start focusing on the white supremacist 
movement, we should not take our eye off some of the other 
possible burgeoning things like you mentioned. Whatever we do, 
as a committee, and whatever we do, as a Congress, has to keep 
an eye on that fact.
    So, with that in mind, is there any suggestions that any of 
you have as to things we should do to make sure that not only 
do we go after the white supremacists, and do what we have to 
do with that, but how we not take our eye off some of the other 
groups that are starting to develop and burgeon and become 
concerns?
    Mr. Soufan. I think we have joint terrorism task forces, 
each one has a domestic terrorism squad or squads, and they are 
focusing on that. I think they work very closely with people--
--
    Mr. Katko. They do focus on--I don't mean to interrupt you, 
but I get the sense when talking--I have worked with them for 
20--ever since 9/11. I get the sense sometimes that domestic 
terrorism is not as much of a priority, No. 1. No. 2 is they 
don't really have the guidelines for domestic terrorism that 
they do for international terrorism. You know what I mean?
    Mr. Soufan. You are correct on both, sir. This is one of 
the problems that now they are facing because they see an 
increase with white supremacist activities, and they don't have 
the legal tools to counter it the same way they counter it when 
it is from a jihadi group.
    Mr. Katko. So what tools should we implement for them?
    Mr. Soufan. Just to give you--you mentioned, you know, one 
of the tools is designation, absolutely. Another is to 
recognize a threat. A third to start looking into these groups 
and see how they are connecting with each other.
    We have--look, the reason I am concerned about this, and 
the reason I am here today is because I saw that in the 1980's 
and 1990's evolving with the jihadis, and nobody was listening.
    Mr. Katko. Exactly, exactly.
    Mr. Soufan. Now we see the same thing. I can sit with you, 
I can give you names, organizations, individuals here in the 
United States and Western countries. In other places they have 
their own Afghanistan, and they are doing the same thing. They 
are today where the jihadis were in the 1990's.
    Mr. Katko. We can't wait----
    Mr. Soufan. We need to pay attention.
    Mr. Katko. We can't wait for the wake-up call that we had 
on 9/11.
    Mr. Soufan. Exactly.
    Mr. Katko. Right? So whatever you--all of you--have as far 
as information--my time has passed--but suggestions, please 
submit them to us. Please talk to us and let us know. Because I 
think we all want to get this right. This isn't a Republican or 
Democratic thing, this is an American thing, and we want to get 
it right. So thank you very much.
    Mr. Soufan. Thank you, sir.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentlelady from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman. With the number of 
domestic terrorism arrests now approaching 100 this year, it is 
clear that domestic terrorism is a pervasive threat to our 
National security.
    Recently, Acting Secretary McAleenan expressed the need for 
further investments at the Department of Homeland Security to 
bolster the agency's efforts to prevent, prepare, and respond 
to domestic terrorism. This issue was underscored when I was 
briefed by the Department's protective security advisors, or 
PSAs, who provided valuable assistance to critical 
infrastructure and community organizations in the region.
    Unfortunately, in communities like mine that are more 
suburban and rural, the PSAs are significantly under-utilized. 
This year region 5 PSAs have conducted 151 assessments in the 
Chicago urban area, yet have only conducted 13 assessments 
located in communities outside of the UASI-designated area.
    As we allocate resources to the Department, I want to make 
sure that communities like mine are receiving their fair share, 
and are not left vulnerable to extremist threats. My team and I 
have been digging into this issue over the past months.
    Beginning in fiscal year 2018, DHS began providing security 
grants to houses of worship and other community organizations 
located outside the urban areas for expenses like cameras and 
security personnel. However, in rural areas, where budgets are 
tight, and revenue sources are limited, we have learned that 
many organizations are not aware of these grants.
    So, for the panel, as we work on legislative options to 
increase DHS's engagement with organizations in rural and 
suburban communities on domestic terrorism, I would be 
interested to hear specific recommendations that you all have 
to ensure that communities in northern Illinois, like Grayslake 
and Aurora, are connected to DHS's resources. Do you have any 
thoughts?
    We can start with you, Mr. Joscelyn.
    Mr. Joscelyn. I would have to look into a whole mess of 
things you said there. I haven't investigated that in any 
detail, but I will. I will look into what you just said.
    Ms. Underwood. OK.
    Mr. Joscelyn. I haven't--I would like to get a copy of what 
you read off, because I didn't get all of it, but I--there is 
an issue there.
    Ms. Underwood. OK, thanks.
    Mr. Levin.
    Mr. Levin. Here is the thing. It is similar, but it rhymes 
with regard to white supremacist versus violent Salafist 
Jihadists. What I think----
    Ms. Underwood. I am sorry, we are asking about grants and 
the ability for these protective service officers to go into 
rural areas.
    Mr. Levin. Right. And my point was going to be as follows--
--
    Ms. Underwood. OK, great.
    Mr. Levin. Because it is more dissipated, you have to have 
the local law enforcement involved. They know who the local 
neo-Nazi skinheads are, much more so--and God bless FBI, I work 
with them. But you have to include local law enforcement, and 
you have to put it--just one thing. You have to make it a 
priority. Law enforcement responds----
    Ms. Underwood. My question is about community grants. Law 
enforcement grants are being provided by DoJ and DHS, and they 
are well-resourced, or at least going to communities rural, 
suburban, and urban. But there is a huge gap.
    So I am going to go next to Mr.----
    Mr. Levin. Yes. Well, off ramps----
    Ms. Underwood. Thank you.
    Mr. Levin. Off ramps for groups----
    Ms. Underwood. Thank you.
    Mr. Levin [continuing]. That help people that are leaving 
the movement.
    Ms. Underwood. Thank you.
    Mr. Soufan. I don't know much about that specific area, 
ma'am.
    Ms. Underwood. OK.
    Mr. Soufan. I am not--but the grant program was always 
great. It helped us tremendously in countering violent 
extremism. We had people in different communities, like, for 
example, in the Somali community, you know, doing a lot of good 
works to counter the propaganda of Shabaab. So the grant 
program was always a great program, and that is something 
definitely worth looking into.
    Ms. Underwood. OK.
    Mr. Soufan. Thank you.
    Ms. Underwood. Mr. Bergen, do you have any comments?
    Mr. Bergen. I don't.
    Ms. Underwood. OK, thank you. Houses of worship have been 
increasingly under threat of white supremacist extremism, as 
seen by the horrific shootings in Pittsburgh, at the Tree of 
Life synagogue, and in Charleston, South Carolina, at the 
Emmanuel AME Church. Houses of worship are no stranger to these 
kinds of threats. But as extremists are emboldened to use more 
sophisticated tactics, we must strengthen protection for places 
of worship.
    So, Mr. Levin and Mr. Soufan, I understand that you are 
former law enforcement professionals. Do you have specific 
recommendations for houses of worship seeking to protect their 
facilities and congregations from domestic terrorism threats?
    Mr. Levin. Yes, they have to step it up. I think every 
department should have a blueprint of houses of worship in 
their area. They are now a target.
    Ms. Underwood. Yes.
    Mr. Levin. We have to have all kinds of security that we 
don't have the time right now to talk about. But I could talk--
I could send things----
    Ms. Underwood. Send it in writing?
    Mr. Levin. Absolutely.
    Ms. Underwood. Thank you.
    Yes, sir.
    Mr. Soufan. I think we have some great organizations doing 
amazing work with that--SCAN, for example--doing phenomenal 
work protecting houses of worship, especially Jewish synagogues 
and Jewish organizations. I think I believe they set up a 
subcommittee in DHS to focus on this threat, too.
    So that is something we need to figure out, how to engage 
with community leaders and how to engage with local law 
enforcement and Federal law enforcement in order to ensure that 
these kind of places are better protected.
    Ms. Underwood. OK.
    Mr. Soufan. Because we have seen attacks against mosques, 
against churches----
    Ms. Underwood. Right.
    Mr. Soufan [continuing]. Against synagogues, and that needs 
to stop.
    Ms. Underwood. So if you have specific recommendations that 
you would like to followup with in writing, we would welcome 
that.
    I look forward to working with the Chairman and Members of 
this committee to advance meaningful legislation, ensuring that 
the Federal Government has the resources needed to combat and 
prevent the spread of all forms of violent extremism and 
domestic terrorism.
    I yield back, thank you.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Soufan, can you describe the similarities between those 
that have pledged allegiance to ISIS or al-Qaeda, and violent 
white supremacists, in terms of how they recruit, coordinate, 
or even plan their attacks?
    Mr. Soufan. Sure. If you look in the United States, for 
example, most of the terrorism that took place, or that 
occurred by ISIS or al-Qaeda in the recent years were 
individuals that had self-radicalized on-line, people that 
never met al-Qaeda individual and an ISIS individual. They 
self-radicalized themselves, and they went from the 
radicalization process to the operational, you know, overnight. 
That is exactly what we see with the white supremacist. 
Usually, with the jihadis, they put a video about why they did 
what they did. With the white supremacist, they put a 
manifesto.
    They advocate violence as the only way to reach their 
goals. One wanted a goal of pure racial society, one wanted a 
goal of pure religious society. The similarity goes on and on 
and on. But the kind of threats that we are experiencing today, 
attacks that--experiencing today, the United States from the 
jihadis--or from the white supremacist, very similar to the 
attacks that we experienced in the last 3 or 4 years by the 
jihadis.
    Mr. Walker. OK, and how do you recommend Federal agencies 
such as the FBI or the DoD address the broad range of these 
emerging threats?
    Mr. Soufan. I think, first of all, we need to recognize 
this. Second, the FBI and DHS and other local law enforcement 
and Federal law enforcement need to be given the appropriate 
tools.
    But we can start, as we mentioned earlier, by designations. 
A lot of these groups and individuals here are connected to 
other groups in Europe that is already considered terrorist 
organizations by our European allies, and this is a good----
    Mr. Walker. Let me go to Mr. Joscelyn just for a minute 
there.
    Do you have anything to add to that?
    Mr. Joscelyn. Very quickly, I offered one similarity 
between the two in my written testimony, which I won't recount 
here. But in terms of portraying themselves as defenders of a 
civilization or an ethos, that is a very common sort of 
psychological phenomenon----
    Mr. Walker. Right.
    Mr. Joscelyn [continuing]. Across both sides. There are 
differences, as I mentioned--alluded to in my testimony, as 
well. We got to be careful.
    I mean ISIS built a paramilitary army that conquered 
territory and declared itself to be a physical caliphate. We 
don't, fortunately, have anything like that on the white 
supremacy side yet right now. They are not, you know, 
developing so-called provinces around the world.
    Al-Qaeda was primarily an insurgency organization since its 
founding, and I think its organization is much more robust than 
people give it credit for. I would just say, on that note, if 
you ask somebody who is really in the game for a list of all 
the veteran al-Qaeda operatives who are still alive, who go 
back to bin Laden's day or beforehand, you would probably be 
surprised.
    Mr. Walker. Yes, and you have just hit a few--answered a 
few of the questions I had, so well done there.
    We have been long aware of the law enforcement challenge of 
international terrorists using encrypted communication to 
recruit, coordinate, plan, et cetera. Is there evidence that 
domestic terrorists are using the same techniques and systems 
at this point, Mr. Soufan or Mr. Joscelyn?
    Mr. Soufan. Yes, absolutely. They--you know, as time can 
tell you, they use, you know, the same--not the same platforms. 
Like, 8chan, for example, is used by the white supremacists. 
The jihadis use the Telegram, and so forth. But yes.
    Mr. Walker. Mr. Levin--and I was--I arrived here a little 
bit late--I was invited to attend an event of the CBC in the 
Emancipation Hall. But I--as I was walking in, I believe you 
were saying something about the changing demographics of both 
political--but I think I heard you say the fact that we are no 
longer a majority Christian nation, that you were weighing that 
into some of the charges--in the increasing white supremacy. Is 
there data to back that up, or is that just a personal 
perspective that you have?
    Mr. Levin. No, there is data, and it is in our report. It 
is white Christians are now a minority in the United States. I 
will----
    Mr. Walker. But to make that--but, yes, I understand that. 
But to say that, as far as--that could be weighing in on 
driving the white supremacy, do you have any data on that?
    Mr. Levin. How it is driving white supremacy?
    Mr. Walker. Yes.
    Mr. Levin. Well, what I can tell you is that a combination 
of changes appears to correspond to certain spikes that we are 
seeing around certain catalytic events like elections, and 
things like that, where this kind of change is being promoted 
by white supremacists.
    I want to be careful here. White Christians are our friends 
and our neighbors. My neighbor runs a Christian school. 
However, the way it is being turned around is that society is 
not only becoming racially changed, but we are also losing our 
religious traditions, as well. That is amplified and perversed 
into another message.
    Mr. Walker. Fair enough. You have made your point there. I 
think--and I agree with my friend, Max Rose, who did an 
eloquent job, and with Representative John Katko--both are an 
issue, and certainly resources are a factor. I think we are big 
enough in Congress to look at the ability to be able to 
override both of these elements in our country.
    With that I yield back, Mr. Chair.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentlelady from Michigan, Ms. Slotkin, for 5 minutes.
    Ms. Slotkin. Hi, gentlemen. Thanks for being here. I want 
to echo and actually amplify some of the comments of my 
colleagues on the other side.
    To both the Chairman and the Ranking Member, it is 
outrageous that the day before September 11 we cannot have an 
annual counter-terrorism brief from DHS, from the FBI, and from 
NCTC. I know you both tried. But I look forward to your plan of 
how this committee can engage, because I am offended for the 
public, because, again, right up against an anniversary, to not 
be able to hear from the leadership of the Cabinet on where we 
are on counter-terrorism threats is just nuts.
    Then, second, I am offended for all the people who work in 
those agencies who have been the ones who have helped prevent 
an additional attack like that. They don't get any credit, 
because it is hard to say what could have happened. But the 
fact that we have gone this many years without a similar style 
attack, I certainly wouldn't have bet on it when I was on New 
York on September 11, 2001.
    So I just wanted to amplify that I think that is just 
beyond the pale.
    We have talked a lot about the similarities between the way 
that people have become radicalized in foreign terrorist 
organizations and in domestic terrorism. I don't want to repeat 
it, but just the radicalization process seems very similar, 
particularly the use of the internet. That sort of quest for 
purity of religion or society or whatever, and feeling like you 
are a defender of that purity seems very similar. The tools of 
violence are very similar, right, the way that you--these 
groups perpetrate violence.
    I think, Mr. Chairman and Ranking Member, we have a lot of 
agreement on our committee that this is just an area of 
interest that we haven't done as much work on as foreign 
terrorism. You know, this committee was stood up because of 
what happened on 9/11, and I think, while we have to remain 
vigilant, we have figured out how to at least minimize the 
threat from foreign terrorist organizations. But I don't think 
we are there on domestic terrorist organizations of all kinds.
    So I think that we have enough interest in us setting up 
either some sort of task force, or some sort of concerted 
effort for this committee to take the lead on the things that 
our local law enforcement and FBI, National Counterterrorism 
Center would need in order to stem this threat. Because if we 
are getting this message that the noise in the system smells 
and feels like what happened before 9/11, where there wasn't a 
lot of attention, but things were happening, then I would argue 
this is the time for us to act, learn the lessons of history, 
and move out with some sort of task force, bipartisan task 
force. I think we need it.
    Just in my remaining time--because folks have asked really 
great questions--can I get from one of you--maybe Mr. Bergen or 
Mr. Soufan--an example of how a specific case of someone 
radicalized to become a domestic terrorist, an example of 
someone over the past year, year-and-a-half, their story, to 
bring it home a little bit for people who may be watching and 
listening to this?
    Of course, as short amount of time as you can manage.
    Mr. Bergen. Well, first of all, thank you for your service 
to the country. You know, Omar Mateen was born in Queens, New 
York, same place our President was born. He kind-of flirted 
with Hezbollah, al-Qaeda. Eventually, you know, many of these 
people are zeroes trying to be heroes, right? He was working as 
a kind-of security guard at a golf community retirement center. 
He had dreams of joining the NYPD, it failed.
    For him, and I think for a lot of these guys--and they are 
almost universally guys--the ideology is something they attach 
themselves to because they have grievances that are unresolved. 
This is the way they are going to be a hero in their own story. 
Then they legally acquire 4 semi-automatic weapons. Omar Mateen 
killed 49 people in a nightclub at 2 a.m. in the morning on a 
Saturday night, an excellent place to kill as many people as 
possible with 4 semi-automatic weapons.
    So that is the story. That is an extreme version of it, but 
that is the story you see.
    Ms. Slotkin. So I would just say we have listed a number of 
things that, you know, we feel like we don't have the same 
authorities to work externally outside the United States as we 
do internally. There is a lot of legal reasons.
    Besides designation, what are the other tools, maybe Mr. 
Soufan or Mr. Joscelyn, that we think our law enforcement need 
in order to squelch the threat of domestic terrorism?
    Mr. Soufan. Well, we need to give them the tools that we 
are giving them for international terrorism. Most of the 
successful terrorism cases are basically based on material 
support charges. We cannot charge domestic terrorists with 
material support. It is impossible to do it. You need to 
designate in order to do so.
    So basically, we are going to look at every case as one 
individual. With the law that exists today, even when we stop--
the FBI or law enforcement stops someone from going to conduct 
a terrorist attack, they have to let him go. Even when they 
charge them, they charge them on some stated charge or 
violation of the Telecommunication Act, because he is 
harassing, let's say, Jews or Muslims on-line. Then, toward the 
end, they have to let them go because there is nothing they can 
do to prosecute these people unless they kill.
    So all our efforts, or the law enforcement effort, is not 
preventative as much as, you know, reactive in nature, after 
the fact. We need to be sure that these things won't happen. In 
order to do so, at least we need to start with making that 
international connection, because a lot of these guys are 
connected to entities overseas, and some of these entities are 
already declared as terrorist organizations by our allies.
    Ms. Slotkin. I know my time is way past up, so thank you, 
Mr. Chairman.
    Mr. Joscelyn. Mr. Chairman, can I give you one quick note, 
please, just 1 second? I have an idea for you, because you are 
interested in transparency and oversight, and I am a big 
advocate of both.
    The Intelligence Committee has a yearly world-wide threat 
assessment hearing, where they have to prepare a written 
assessment, prepare it and testify in public about it. I think 
it would be a great idea to have a similar assessment for the 
Department of Homeland Security to talk about the threats and 
assessments inside the United States, and to testify about what 
those look like, and it basically gives you a mechanism for 
accountability and for inquiring about what is actually going 
on. That is it.
    Chairman Thompson. Well, good suggestion. Just for the 
record, some of the Members have talked about their 
disappointment in not having certain members here. The Ranking 
Member and I made the request in July for their attendance here 
today, and we have received notice that they will be available 
October 30. So it is not as high a priority as it should be, 
and I think we will share the sentiments of what we have heard 
here today as to their not being here is not in the--what we 
think--the best interest of this country.
    The Chair recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I appreciate the 
witnesses being here.
    It will be 18 years tomorrow since the terrorist attacks of 
9/11, and, obviously, international terrorism, specifically 
radical Islamic terrorism, still poses a persistent threat to 
our Nation and to U.S. interests abroad. We have seen various 
spikes in intensity with respect to that.
    To that point, recent Department of Defense and other 
reporting is showing that ISIS has reorganized and recovered to 
some significant degree in Iraq and Syria, specifically. While 
that same reporting does indicate that ISIS is facing some 
financial constraints, I think they still have the ability to 
fund significant operations. Other reporting also shows that 
al-Qaeda is re-introducing its movement and targeting a new 
generation of fighters.
    So to that point, I guess, since its territorial defeat at 
the end of 2017, we know that ISIS still commands somewhere 
around 14,000 fighters in Iraq and Syria. I serve on the--also 
serve on the House Intelligence Committee, and many in the 
intelligence community are raising concerns that ISIS is 
adapting and consolidating and creating conditions for 
resurgence in the Syrian and Iraqi heartlands, where Abu Bakr 
al-Baghdadi and most of the ISIS leadership is now based.
    So I want to start, I think, with you, Mr. Joscelyn. With 
America's intelligence strategy focused so much and shifting to 
a lot of our adversaries, like China and Russia and Iran and 
North Korea, are we and can we ensure that we are devoting the 
appropriate resources to also address these emerging or re-
emerging threats with radical Islamic terrorist groups?
    Mr. Joscelyn. Well, my big concern there is that the 
territorial caliphate was taken away largely by a proxy force 
that required, basically, a minimal amount of boots on the 
ground from the United States and our resources. There seems to 
be an impatience, even with that. That I find to be somewhat 
deplorable.
    You know, if you look at the whole thing that is going on, 
you know, basically, very few--as Peter said, very few 
Americans have died taking away the physical caliphate. This is 
something that is clearly in our National interests, to 
basically make sure this organization does not re-constitute 
itself and grow once again.
    You know, just recently, the State Department release 
rewards for information on 3 different ISIS leaders. All of 
them have pedigrees that go back a decade or more. You know, I 
mean, this is an organization that clearly still has talent 
that has been in the game for a long time, and hasn't been 
taken out of the game.
    I think, going forward, that is why I have emphasized in my 
testimony I don't believe the resource allocation argument that 
we need--we have these vast resources being spent against the 
jihadis that need to be repositioned against China. I just 
don't buy that, when you look at how we are fighting ISIS, and 
we are looking--how we are fighting other organizations. There 
is certainly fat that can be cut from the bone. But overall, it 
is something that is basically a outsourced fight, for the most 
part.
    Mr. Ratcliffe. Thank you.
    Mr. Soufan, I see you nodding and wanting to weigh in, so I 
want you to do that. But I also--I am curious. One of the 
themes that we have seen in statements from Ayman al-Zawahiri 
is the need to reunite the jihadist factions.
    So as you comment on my first question, my second one is do 
you see that happening, al-Qaeda and ISIS uniting under one 
banner? What is the prospect of that?
    Mr. Soufan. First, I agree with everything Tom said. ISIS 
is not dead. Al-Qaeda was--never went away. Al-Qaeda just 
changed focus. Today they have 100 times more members than they 
had on 9/11.
    ISIS today, you know, still have at least $400 million. 
That makes them the richest terror organization in the world. 
Baghdadi is still alive. They are recruiting other already-
existing terrorist groups in different places, provinces, as we 
see in the Sinai, and with Boko Haram in Nigeria. So the threat 
is there.
    Also, ISIS have thousands of members in jail, usually in 
Kurdish authority--under--with the Kurds in Syria. What is 
going to happen to those guys if their countries are not taking 
them back? Are they going to be released? When they are 
released, what kind of threat they will pose on their 
countries? Actually, the United States and the West. A lot of 
them are from Western countries. So the threat is very there 
still. The threat is very dangerous.
    Now, as for your second question, sir, I am sorry, what is 
the second one? I am----
    Mr. Ratcliffe. Reuniting--Zawahiri is saying----
    Mr. Soufan. Yes.
    Mr. Ratcliffe [continuing]. Reuniting al-Qaeda and----
    Mr. Soufan. I think now it is becoming increasingly 
difficult, especially after the death of Hamza bin Laden. The 
folks in ISIS really don't like Zawahiri. That is why they 
broke off from him. We have seen some ISIS members, at least in 
Syria and some in Yemen, rejoin al-Qaeda. But this is very 
limited. It hasn't been a wave.
    I think Hamza bin Laden was to be the person who used his 
father's name. The plan, at least, of the senior members of al-
Qaeda. Some of them are still alive, as Tom said, who 
established the organization with Osama bin Laden in 1988. 
Those guys are still alive, and they are still operational.
    So, basically, their plan was to probably use bin Laden to 
unify the Salafist Jihadi movement again. That is why Hamza, in 
all of his statements, never attacked ISIS. It was a job left 
to Zawahiri. I think at this point, if they don't have a Hamza, 
if they don't have a bin Laden, I think it is going to be very 
difficult for them to reunify.
    Mr. Ratcliffe. Terrific.
    Mr. Joscelyn. If I may, just real quick, what we track 
every day is just a lot of infighting still between ISIS and 
al-Qaeda across the board in different theaters. What I would 
ask, especially because our policy in Afghanistan has become 
very confused, there is this idea that we are going to count on 
the Taliban, basically, to take out ISIS. I would ask people in 
the U.S. intelligence community and Homeland Security who is 
leading the charge in eastern Afghanistan against ISIS for the 
Taliban. It is a guy named Bilal Faat, also known as Bilal 
Zadran. He is in the al-Qaeda fold.
    So basically, you are counting on al-Qaeda to wipe out ISIS 
as part of our strategy, which makes zero sense. Thanks.
    Mr. Ratcliffe. I thank you all for your perspective, all 
the witnesses today, thank you.
    I yield back.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from California----
    Mr. Correa. Thank you, Mr. Chairman----
    Chairman Thompson [continuing]. Mr. Correa, for 5 minutes.
    Mr. Correa [continuing]. For holding this hearing, and I 
want to echo some of the comments made by Republican colleagues 
in this committee that not having the FBI or DHS show up is not 
only disrespectful, but we are talking about the safety of all 
Americans in this country.
    During the break I had a meeting with some religious 
leaders in my community--synagogues, mosques, churches--to talk 
about safety in the community, lack thereof, to see what they 
needed to feel that they were securing more of their houses of 
worship.
    I also had my local sheriff, Sheriff Barnes, attend. He 
made some interesting comments that I thought were disturbing, 
and that is that he still felt that we are still operating in 
silos. When it comes to terrorism, fighting terrorism, we are 
still operating in silos.
    Let me be specific. He said to me in response to some of my 
questions that the FBI still gives him information on the need-
to-know basis. He has what is called a fusion center in Orange 
County, where, essentially, he takes as many of the local 
organizations and Federal organizations to put information 
together to try to approximate when the next attack is being 
planned, or when it is going to take place. Many times he would 
essentially say--my words--we can't get that information from 
the FBI.
    I am hearing the discussion here today, and we are still 
talking about a bigger silo, which is--we are talking domestic 
terrorism versus international terrorism. We are almost having 
a competition to see which terror, which threat is bigger, 
international or domestic. I think it is just one. We are 
talking about the safety of Americans, and when the next attach 
is going to happen, heaven forbid.
    Eighteen years ago this country was attacked, brutally 
attacked. For the most part, we shifted our resources to 
international terrorism. We really took our eye off the ball of 
domestic terrorism. Whatever it is that inspires that domestic 
terrorism, we are not focusing on that right now. Is that what 
I am hearing from all of you here today?
    [Pause.]
    Mr. Correa. Don't all of you answer at the same time, but--
--
    Mr. Joscelyn. Well, I will say this. I mean, certainly, if 
you look at the FBI's testimony to this committee and 
elsewhere, they have certainly, I think, testified to the fact 
that they had a lot of on-going active cases involving domestic 
terrorism, including white supremacists.
    I think the issue has to do with better coordination, and 
probably making sure they have all the capabilities they need 
to go after who I think you are hearing from this panel are 
potentially developing organizational capacity, which is, I 
think, going to be in the next level.
    Mr. Levin. Could I just interject one quick thing on that?
    Mr. Correa. Go.
    Mr. Levin. There are just 4 issues here. There are legal 
issues in dealing with international terror. We have FISA 
courts, we have ways of getting evidence overseas that are 
different than if we are dealing with domestic groups.
    Also, domestic groups are smaller, and they can be violent, 
but they have a much shorter half-life. Therefore, it is really 
important to have local law enforcement up and in equal number. 
Some of the testimony here was that the local folks have a 
better handle on some of these hate groups. Totally.
    Mr. Correa. Yes?
    Mr. Levin. Yes.
    Mr. Correa. So, shouldn't they be coordinating a whole lot 
better with DHS and the FBI?
    Mr. Levin. Absolutely. And also----
    Mr. Correa. That, Mr. Chairman, is the reason I feel we are 
at a loss here today.
    Chairman Thompson. Yes.
    Mr. Correa. OK, so maybe some of the information should not 
be shared in public. We can go private, sir, and address these 
issues. Whatever tools the FBI or maybe my local sheriff need 
to address these issues, we need to give them those tools.
    Please continue in the last minute that I have.
    Mr. Levin. The last thing, how we get the evidence. We have 
intelligence, for instance, with regard to international. 
Certainly--when I say international, I am talking about violent 
Salafist Jihadists, for example.
    With regard to the more localized folks that we have here 
who you call domestic terrorists, these groups are much 
smaller, and the people that are going to find the information 
first are going to be people in the local community. Friends, 
family members, local law enforcement. With that we want to 
make sure that there is reporting.
    So how do we do that? Make sure there is an off-ramp, so 
that those who are neo-Nazis and white supremacists know that 
there is--that, if they want to give it up, there is a place 
that they can go, other than jail or death.
    Mr. Correa. Further comments?
    Mr. Bergen. The FBI did a very interesting study about who 
knows when something is going to happen. The people who know 
the most are peers, and the people who know the least are 
strangers. So strangers produce a lot of false positives.
    Going--just picking up on Professor Levin's point, it is 
getting people, the peers, to come forward. In the case of the 
San Bernardino case, a peer knew exactly what was going to 
happen, provided the weapon.
    How do you get that person to come forward? Off ramps are 
part of this. You can't offer the kind of binary choice of say 
nothing or go to prison for 20 years. You have to sort-of--and 
this is where local law enforcement can help. I mean this is 
what cops do, right? They go out and they kind of talk to 
people, and they get information. So it is appealing to peers.
    Family members know the second most. They are slightly more 
likely to come forward.
    Then, of course, authority figures often know something. 
But--and are very likely to come forward, but they don't know 
the full dimension.
    So when you are looking about, whether it is jihadism or 
right-wing, it is--getting peers to come forward is really--
they are the people with the information.
    Mr. Correa. Mr. Chair, I yield.
    Chairman Thompson. Thank you very much. You bring a number 
of issues. Part of our challenge, as a committee, historically, 
has been this shared jurisdiction. That creates some structural 
impediments that we are just faced with. Some of us are going 
to make another swing at minimizing some of those impediments, 
as we go forward.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, for holding this 
hearing, and I thank the panelists for appearing before us 
today.
    Mr. Levin, thank you for your service to the Thin Blue 
Line, sir. I was a SWAT operator for 12 years. You appear to be 
a very well-read man. You are obviously of high intelligence. 
You are familiar with our Constitution, I am quite sure.
    Mr. Levin. Absolutely.
    Mr. Higgins. And our Federalist Papers?
    Mr. Levin. I won the Civil Liberties Award at Stanford Law 
School.
    Mr. Higgins. Our Federalist Papers?
    [No response.]
    Mr. Higgins. Federalist Papers, the Federalist letters?
    Mr. Levin. Sure.
    Mr. Higgins. Not to put you on the spot. In Federalist 10, 
Madison stated that liberty is to faction as air is to fire, an 
element without which it will instantly expire.
    Now, I have heard you use--now that I have reminded you, 
you recall one of the most famous Federalist letters, I am 
sure.
    Mr. Levin. Mm-hmm.
    Mr. Higgins. What Madison was saying there is that, as we 
were constructing our representative republic, as the 
Constitution was being formed and debated, it was a great 
question of whether or not we could even do this thing, whether 
or not we could have a strong central government and still 
maintain the sovereignty of the States and the freedoms of the 
citizens therein. He clarified that there was an inherent 
danger within a society that allowed great liberties. Yet none 
would argue for the elimination of liberties in order to reduce 
the threat that could be borne of such liberties.
    You have stated a couple of times--if I am quoting you 
correct--``weapons of war.'' But you are not talking about 
tanks and grenades and shoulder-launched munitions, are you, 
sir?
    Mr. Levin. No, I am talking about semi-automatic rifle 
access to people who shouldn't have them in a civilized 
society. If you look at the Constitution, the Preamble is 
``secure domestic tranquility.''
    Mr. Higgins. OK. With great pardon, reclaiming my time, so 
you--when you say ``weapons of war,'' do you support the 
seizure of semi-automatic weapons that are legally owned?
    Mr. Levin. No.
    Mr. Higgins. Your colleagues mentioned the term ``full 
semi-automatic weapon.'' I have heard this term used 
increasingly.
    Mr. Levin. I am sorry, which colleague?
    Mr. Higgins. A full semi--your colleague to your right. It 
is referring more to the term than the colleague.
    A semi-automatic weapon, has--one pull of the trigger, 
there is a release of one round. And there are millions of 
Americans that follow the law and own these weapons. It has 
been suggested by some, as part of the National narrative--and 
we should have this conversation. But I find it reflective of 
Madison's warnings, that to restrict the liberties, or to 
infringe upon the Constitutional protections of law-abiding 
Americans in order to create some illusion of greater safety or 
security would be, in itself, a more significant threat to the 
future of our republic.
    So it has been alarming to me to listen to gentlemen of 
distinguished accomplishment today seemingly leaning toward 
suggesting the serious infringement of Second Amendment rights, 
perhaps First Amendment rights. What about freedom of speech 
and assembly, peaceful assembly, red flag laws? These things 
are quite alarming to many Americans, myself included.
    In my final minute I would like to ask you each to answer 
yes or no. Last Congress, under the leadership of Chairman 
McCaul and this committee, the House of Representatives passed 
the Department of Homeland Security Authorities Act. This was, 
essentially, the first full authorization of the Department of 
Homeland Security. It failed in the Senate. It was never 
brought to a vote.
    My question to each of you--yes or no, given the 
restrictions of time--do you agree that it is in the Department 
of Homeland Security's best interest for Congress to provide it 
with full reauthorization.
    Yes, sir?
    Mr. Bergen. I think so, yes. Just one minor point. My in-
laws are from the great State of Louisiana. They don't go 
hunting with AR-15s. So I think what I am advocating is a very 
minimalist position, which is no fly, no buy. This is something 
Congress can do. This seems like a very basic thing. Anybody 
who is too dangerous to get on an American-bound or an American 
passenger jet is not the sort of person who should be 
acquiring, legally, semi-automatic weapons.
    Mr. Higgins. That gets to be determined by whom, sir?
    Mr. Bergen. Well, by the people around this table sitting 
here, the legislature----
    Mr. Higgins. The people around this table. So bureaucrats 
and career politicians in Washington, DC. shall determine what 
Constitutional protections shall just be----
    Mr. Bergen. You pass the laws, sir. You pass the laws.
    Mr. Higgins. Yes, I would say that our anointed documents 
shall protect our citizens' freedoms and rights.
    Good sir, yes or no regarding full authorization of DHS?
    Mr. Soufan. Yes.
    Mr. Levin. Yes.
    Mr. Joscelyn. I think so, yes.
    Mr. Higgins. Gentlemen, I respectfully thank you for your 
time.
    Mr. Chairman, I thank you for holding this important 
hearing today.
    Chairman Thompson. Thank you very much. Since we have 
conducted this hearing I have just been informed that the 
President has asked for the resignation of our National 
security advisor, John Bolton. In light of the conversation 
that we have been having at this hearing, I would like to get 
some comments from our witnesses on that.
    Mr. Bergen. We are about to get our fourth National 
security advisor of the United States. Interesting question who 
that will be. I think it is surprising, this level of turnover.
    Chairman Thompson. Mr. Soufan.
    Mr. Soufan. I am concerned that it is the fourth National 
security advisor in a period of less than 3 years, but I am not 
surprised, frankly, because I think the President has differing 
views regarding Iran that Mr. Bolton--and I think we have--we 
don't know what is going to happen between Iran and the United 
States over there.
    So it seems that there is probably disagreement about that. 
I don't know. We just heard it from you, sir. But yes, I am not 
really surprised. Recently they haven't been seeing eye-to-eye.
    Chairman Thompson. Mr. Levin.
    Mr. Levin. When I spoke in Europe, one of the things that 
came up was the disorganization that is occurring with regard 
to issues of international security. This kind of rotation is 
troubling.
    Chairman Thompson. Mr. Joscelyn.
    Mr. Joscelyn. I think it acts as a very strong impediment 
to any American who is loyal to their country and just wants to 
serve their country to have a constant turnover of personnel, 
and not have any stability there, in terms of what you are 
going to do. Whether you agree with the people's positions or 
not, you know, you need to have some sort of stability and 
stable hands on the steering wheel. It is a strong 
disincentive, I can tell you personally, for anybody who would 
think about trying to work for their country to have this type 
of turnover, constantly.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentlelady from Nevada for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. First I just would like 
to disagree with that rather weird interpretation of Federalist 
10 offered by Mr. Higgins as justification for not passing gun 
control.
    Actually, Madison was looking at reconciling interests of 
factions of people who disagreed with each other, and he was 
opposed to direct democracy--in other words, rule by mob--and 
thought we needed a representative government to reconcile 
those factions. Certainly, that is what Congress is, and that 
is what our role should be. So it is absolutely appropriate 
that we should consider and pass those kinds of bills that deal 
with gun violence.
    Second, we--you were talking about peers were the ones who 
know first. I think that brings up the role of women. Women in 
some societies are on the front lines, and maybe the best able 
to recognize radicalization, or see something happening in the 
home, and I don't think we are doing enough to talk to women, 
especially in other countries.
    Then, third, as I look at the policies of this 
administration in addition to the turnover of our National 
security, they want to cut ICE funding, which is to help local 
governments deal with terrorism. You got a Muslim ban, which 
you said was a solution looking for a problem, it just keeps 
out the most vulnerable. It has deterred national tourism, it 
has hurt my business in Las Vegas. We have got a limit, and 
they are wanting to reduce that limit again this year on the 
number of refugees we will take.
    Now we hear him using terrorism as an excuse for not 
allowing immigration, like terrorists are going to sneak across 
the border with the people who are coming from El Salvador. Or 
just recently, we can't let the people in from the Bahamas who 
have been devastated, because bad, bad people might come in 
with them.
    Could you all address this? How is--is any of this 
effective, or even accurate?
    Mr. Bergen. OK, the short answer is it isn't helpful. Just 
a quick anecdote.
    Ninety years ago a woman called Mary MacLeod left the Outer 
Hebrides, which was one of the poorest places in Europe, and 
she came to New York, and she married a guy called Fred Trump, 
and had 5 sons. One of them is named Donald Trump.
    The United States has not been this cramped, you know, 
terrified place in the past. This banning refugees as a blanket 
matter is un-American. The travel ban wouldn't have reduced 
terrorism.
    The whole burden of this discussion today has been we have 
a domestic problem. Sometimes it is jihadist, sometimes it is 
right-wing. Sometimes it has been black nationalists. Sometimes 
it is other forms of ideology. This is a problem that we have 
here, not coming from outside.
    Mr. Levin. If I could just address one thing, I think that 
what we have to do is have a reasonable discussion. If you look 
at Antonin Scalia's opinion in the Heller case involving the 
District of Columbia in 2008, he specifically said not everyone 
is entitled to any gun anywhere at any time. What I think that 
we have to do is look at reasonable restrictions. Eighty-nine 
percent of Americans favor certain types of restrictions. 
Eighty percent on another issue, with regard to red flags.
    The bottom line is--and I wish the Congressperson would 
have stayed, because our assistant director is from Louisiana, 
a former member of the military. We are not hostile with regard 
to conservative people of good will who are gun owners.
    But the bottom line is my community keeps getting hit. We 
just had a CHPs officer murdered. We had the San Bernardino 
terrorist attack occur just weeks after I spoke. I promised the 
people in my community that I would bring this up, not as a 
cudgel or a political thing, but something that the 
Constitution, the Second Amendment--even if it is a fundamental 
right, which the Supreme Court has not yet interpreted it as--
we put restrictions on fundamental rights all the time, such as 
freedom of speech, freedom of interstate travel, and all those 
kinds of things.
    Bottom line is we have to have some kind of reasonable 
agreement. In a representative democracy that we live in, yes, 
we have people from all different places. Frankly, we have 
heroes here, sitting on this committee. I think one of the 
things that we should look toward doing--and we heard this 
yesterday in New York at the Senate hearings--is perhaps giving 
this committee a bit more jurisdiction to cover these issues--
of terrorism, that is.
    Mr. Joscelyn. If I could just--we don't have enough time 
for this, but I just wanted to applaud one point you were 
talking about with the role of women, in terms of addressing 
earlier signs of radicalization, and violence, and that sort of 
thing.
    One of the issues that we see across the board when you are 
saying different types of extremism is misogyny is very 
prevalent across different types of extremist beliefs. You 
know, the jihadis that I spent most of my life studying are 
extremely misogynist, you know. You know, you study that in 
different forms of other extremism, as well. So that is--we are 
out of time, but that is a huge issue there.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from Texas for 5 minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you for 
holding this hearing so close to September 11. We are going to 
bring it back on topic a little bit.
    You know, September 11 changed the role of the United 
States, it changed the Middle East, it changed all of our 
lives, my life included. September 11 was possible because al-
Qaeda had the time and the space to operate and plan. One thing 
I fear--and this is coming from rhetoric from the left and the 
right--what I fear is that we are no longer at war with them, 
but they are definitely at war with us.
    This pertains to the resignation of our--of John Bolton, as 
well. He is in favor, generally speaking, of maintaining a 
presence in Syria and Afghanistan and Iraq. I also am in favor 
of that. I worry about what would happen if we had a premature 
withdrawal.
    Maybe starting with Mr. Bergen, you could speak to the 
consequences of premature withdrawals from these places, and if 
any other panelists have something to add to what Mr. Bergen 
says, please do so.
    Mr. Bergen. First of all, thank you for your service, sir.
    Secondarily, I am in violent agreement. I mean we have run 
this experiment before. I testified earlier that in 1989, 
because our embassy in Afghanistan--into the vacuum came 
Taliban and al-Qaeda. We got out of Iraq prematurely at the end 
of 2011. We have--it is, like, why repeat these mistakes? I 
mean these are recent mistakes.
    We know what a withdrawal looks like, and what a vacuum 
looks like, and what these groups will do. It doesn't require a 
vast amount of American resources to stay in these places and 
maintain some kind of advise-and-assist mission.
    Mr. Joscelyn. May I say something real quick? Again, thank 
you for your service.
    I would say this. I am actually deeply ambivalent about all 
war. Because, having covered it every day of my life, I see how 
horrible it is. I am very concerned, in particular, in 
Afghanistan, that we don't have a good grasp on what our 
mission is, and have sort-of lost focus of that along the way. 
I think this happens quite often, actually.
    But that said, the counter-terrorism side of me sees the 
writing on the wall. When you see what groups are operating in 
Afghanistan and Pakistan right now and throughout the region, 
and they have regional and global aspirations, and you see 
these organizations elsewhere, I have no doubt in my mind that 
the main thing that is keeping our thumb on them is the 
American presence, and our ability to----
    Mr. Crenshaw. That is the key. They have global 
aspirations. So if we just left them alone, you don't think 
they would just leave us alone?
    Mr. Joscelyn. So your--earlier, before you got here, 
Congressman, just days before President Trump was elected 
President, a guy named Faruk al Katani, who we profiled based 
on bin Laden's files and other evidence, was killed in Kunar 
Province in eastern Afghanistan. He had a very strong hand in 
al-Qaeda's global operations to come after us, to come after 
the United States. This is just days before the Presidential 
election in 2016. It got almost no notice. Nobody even--very 
few people probably off of this panel even know about it.
    Mr. Soufan. I think--again, thank you for your service, 
sir. I think al-Qaeda had the space and place to plan attacks. 
They also had the intention at the time. Now I think they are 
focusing locally, but the intention is still there. They are 
rebuilding their network. Any premature withdrawal from any 
place, to include Afghanistan, is a Saigon.
    Mr. Crenshaw. Thank you. And----
    Mr. Levin. I concur with that, by the way.
    Mr. Crenshaw. Thank you. I want to move on in my limited 
time here to Hezbollah. Regardless of what anyone thinks about 
the Iran deal, whether it was good or bad, or whether it should 
have been withdrawn from, the reality is that when the JCPO was 
put into place it enriched the Iranian regime. They didn't use 
that money for--on social welfare programs and infrastructure, 
right? They used it to enrich the Quds Force, the IRGC, as well 
as Hezbollah, Hamas, Palestinian Islamic jihad, Shia militias 
in Iraq, Houthis, et cetera.
    Can--and maybe I will start with you, Mr. Soufan. Can you 
speak to the current capabilities of Hezbollah? Are they 
weakened? Are they strengthened? How has their global outlook 
changed?
    Mr. Soufan. Hezbollah is today probably the most powerful 
group, terrorist group, in the world. I think their 
capabilities were shown in Syria, where, if it wasn't for their 
involvement, the Syrian regime will--could have been defeated 
early on.
    Hezbollah today is not only an organization, it is not only 
a political party in Lebanon. Hezbollah is a regional force, a 
regional legion, Quds Force. We put the report on Iran and 
Iran's playbook, and Iran--they learned from what happened to 
Sadam. They know, if they want to challenge the United States, 
they won't last a month.
    However, I think they moved from conventional warfare to 
unconventional warfare, and they started to establish groups 
that can fight for Iran in case there is war. They copied the 
model of Hezbollah, Hashd Sha'abi in Iraq, with the Houthis in 
Yemen, and with so many different groups around. You mentioned 
some. That is something we haven't--we are not paying attention 
to. We are not paying attention to the rise of--some of these 
groups are considered terrorist organizations, but they have 
missiles that can go across continents.
    Mr. Crenshaw. Thank you. I am out of time. I have got a lot 
more questions, but thank you for this, Chair.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you. To the Ranking 
Member, thank you for this very important hearing. Let me, just 
for the record, indicate--because we are in Homeland Security--
my prayers for the people in the Bahamas, and certainly on the 
southeast.
    But we know the enormity of the devastation, which really 
ties into the question from my colleague from Las Vegas about 
precipitous policies that don't do us any good, and certainly 
don't reflect on the status of the most powerful nation in the 
world, and as well, developing allies: Rejection of devastating 
Bahamian citizens is just simply an outrage.
    Let me also indicate, as some of my colleagues have said 
the day before 9/11, that I am one of those Members who was 
here 9/11--in fact, in the United States Capitol--when the 
naivete of the United States was obviously not breached, but 
imploded, if you will. But leadership in that midst decided not 
to stereotype, stigmatize, even though, as we were fleeing with 
no knowledge, I could see the building smoke from the Pentagon. 
It is seared in my heart and mind, as is Ground Zero. Weeks 
later I was able to go by train to New York, and actually be in 
the presence of first responders, who were still recovering, if 
you will--not rescuing, obviously. They were still there, 
seeking the remains of those who had been lost.
    To put this in context, I have been in a lot of meetings. 
Since this is global terrorism, I will say that, as it relates 
domestically--which is part of the global world--that racism is 
now a National security threat, and all of its extensions of 
white supremacy, white nationalism. I know that there is 
thoughts about those who are in the Black Power movement, but 
we can document a recent vintage that we have not seen any 
incidences that could be characterized as terrorist from that 
community, from our community.
    I am wearing a kente cloth, because this is the 400th year 
of return.
    So let me just quickly, in the time left to Peter Bergen, 
who I know--and your work, and I appreciate it very much--tell 
me how terrorism globally, or the attitudes of the United 
States play into not being a breaker, or a blocker of this, but 
it fuels it if we don't take our rightful place of 
acknowledging alliances, fighting where we do fight with 
alliances, but condemning the dastardly actions of racism.
    Mr. Levin, if you would do that, as well.
    Then anyone who wants to speak to the toxicity of guns, as 
relates to those who wish to do evil and harm, and that we 
cannot separate the two. We have just had meetings at the Tree 
of Life. Obviously, a gun was used at the synagogue. A gun was 
used in Pulse Nightclub.
    So, Mr. Bergen.
    Mr. Bergen. Well, let me just make an observation, because 
we--which isn't repetitive of things we have already said. You 
are 3,000 times more likely to be killed by a fellow American 
with a gun than you are to be killed by any terrorist of any 
description in this country. We have a--you know, you are 50 
times more likely to be killed in the United States than, say, 
in the United Kingdom by somebody with a gun.
    We have an endemic problem with gun violence. Whatever 
people's view of the Second Amendment, this is just a fact. We 
are trying to--so I will leave it at that.
    Ms. Jackson Lee. Mr. Levin.
    Can someone answer any value to meeting with the Taliban on 
the soil of the United States without a more detailed plan and 
a strategic plan for that meeting?
    Mr. Levin. The answer to your last question is I am 
astounded by that, and incredibly disappointed.
    With respect to white supremacy and white nationalism, 
again, what is so important, and what I think has been done, is 
before we had more of a curation. The Klan wouldn't associate 
with Nazis. Then, in the 1980's, they did. Then, in the 1990's, 
the Justice Department had a whole task force relating to 
skinhead violence.
    What I think, some of the things we are missing today with 
respect to today's hearings, you cannot entirely approach this 
kind of surgery like you would another type of surgery, because 
the groups that will show up with respect to white supremacists 
are going to be smaller, they are going to have less of a half-
life, and the folks that are going to be most likely to get 
them is not a CIA agent listening in on signals intelligence 
coming from overseas, but a teacher, a peer person, or someone 
who is on the internet with them.
    We are seeing people getting self-radicalized very quickly. 
Years ago Congress looked at an assailant who was arrested on 
an airplane, leaving. He got self-radicalized quickly. Now he 
would be one of the ones who took the longest.
    Ms. Jackson Lee. Just one question. Is racism and--racism 
and this posture of hatred--be considered a National security 
threat?
    Mr. Levin. Absolutely, definitively.
    Chairman Thompson. Thank you very much.
    Mr. Levin. International, as well.
    Chairman Thompson. Thank you very much.
    Ms. Jackson Lee. I yield back, thank you.
    Chairman Thompson. The Chair recognizes the gentleman from 
Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate your 
testimony and your time being here, and I think this is an 
important hearing.
    During the recess I had some very unfortunate news from my 
district. The white nationalist shooter in El Paso, Texas went 
to high school in my district, grew up in my district, lived in 
my district.
    Last year Plano, Texas was the safest city in America. I 
have an African-American mayor, I have two Asian-American women 
on city council. I have a very diverse community. I have the 
largest mosque in North Texas. I have the largest synagogue in 
North Texas. I have a very large Hindu community in my 
district.
    A year ago a young man who went to Plano West High School, 
right, a few miles to the west of Plano Senior High, decided to 
radicalize to become an ISIS-inspired terrorist. He was 
arrested by the FBI before he could--he wanted to conduct 
attacks against Hindu temples in my district and against the 
Stonebriar Mall, which is where I have taken my daughter ice 
skating.
    So what I am trying to understand is how people are 
radicalizing on-line. I don't think it is my community. I think 
I have a very--again, a very diverse, harmonious community. But 
I think that it is--on some level I think it--I am looking to 
the internet to understand that.
    My question is to what extent is radicalization self-
induced by content, and to what extent is there an active 
recruiter helping to radicalize? I have heard ISIS recruiters 
talk about recruiting, and that seemed like an active effort. 
It was difficult to radicalize someone, it wasn't something 
that just happened overnight. Is that the case, or is it--can 
it just happen with content? If the content is there, people 
could radicalize? Or does it require an active effort?
    Mr. Bergen. It is both. You know, what usually--you want to 
broadcast your message, your hateful message, with as many 
people as possible, because only 1 percent is going to respond. 
Then you communicate with them in an encrypted fashion.
    We talk about--you are from Texas, so think about the 
attack on the Prophet Mohammed Cartoon Contest. Those guys, who 
were born in the United States, American citizens, radicalized 
on-line, started communicating via encrypted communications 
with an ISIS recruiter who directed them to do this attack. 
They had 100 communications. We still don't know the content.
    So it is both.
    Mr. Taylor. Right, and I think you are talking about the 
attack in Garland, Texas. Is that right?
    Mr. Bergen. Yes.
    Mr. Taylor. Yes, I actually met that police officer who 
defended that attack. So--I mean, and that was, again, in 
Garland, Texas, which--you know, and it wasn't--it doesn't seem 
to be home-grown. I mean it is not happening at the local 
mosque in Collin County, it is happening on-line.
    But you are saying it is both, it is both the recruiter and 
the content. Is that your experience, as well, Mr.----
    Mr. Soufan. Yes.
    Mr. Taylor. Mr. Soufan.
    Mr. Soufan. Yes, absolutely, it is both. We have seen it 
both. We have individuals who self-radicalize themselves, never 
met with an ISIS guy, never communicated with an ISIS guy, and 
then they take their machine guns, go to a club in Orlando, and 
kill people.
    You have folks that, no, they did exactly what Peter said. 
They watched a lot of these videos, they chatted with them on-
line, and then they moved into encrypted software to talk, and 
they were ordered or instructed to do specific acts. We have 
seen them both, and we have seen the same thing happening with 
the white supremacist movement, frankly, too.
    Mr. Taylor. So is that sort-of a--is it a 50/50 or an 80/
20? I know I am asking you to kind-of start----
    Mr. Soufan. I----
    Mr. Taylor [continuing]. Making a generalization. You are 
saying both, but is it definitively one or the other?
    Mr. Bergen.
    Mr. Bergen. It is mostly the former.
    Mr. Taylor. Meaning?
    Mr. Bergen. Meaning it is mostly the people will just--as 
Ali said, it is like the people reading content, they get a 
semi-automatic weapon, they go and do something. But in some 
cases it is directed by ISIS.
    Mr. Taylor. OK. Mr. Joscelyn, did you want to add 
something?
    Mr. Joscelyn. Actually, in my previous testimony before 
this committee I had a whole bunch of examples of guys in the 
United States who were contacted by ISIS recruiters in Iraq, 
and Syria, and elsewhere, and how the FBI intervened in those 
cases. That gives you a good guide for the sort of the pull 
aspect of it, people who are reaching out to sort-of get people 
in the fold.
    But you were talking about shooting the--draw the Prophet 
Muhammad Contest. That was actually part of an organized idea 
campaign called the Cartoon Jihad started by al-Qaeda, all the 
way back in Inspire Magazine, where they were encouraging 
people to go out and shoot any kind of venue or publication 
that was drawing images of the prophet Muhammad. I think, in 
that case, there was clear evidence that that influenced their 
thinking on that.
    So the--and I--and this--in that case you can see that 
these ideas are being pushed out by organized terrorist 
organizations to seep into the minds of people like that, and 
then they can act on them.
    Mr. Levin. If I could just interject real quickly?
    Mr. Taylor. Sure.
    Mr. Levin. Over 20 years ago I testified before this 
committee about leaderless resistance. It was another 
committee, excuse me. This movement glorifies lone action or 
small autonomous cells, but they have--it is an ecosystem. They 
are not really loners. They are egged on by peers who not only 
help them operationalize, but amplify and direct where this 
aggression goes. They look at themselves in a chain.
    So what we are seeing now is a perverse thing, where these 
people don't need immediate peers in their town, they can have 
a peer in New Zealand who is imprisoned, and they say, oh, I am 
going to inscribe the next chapter in this book of violence. By 
the way, I am going to put something on the internet, either 
text or video, and that is what is becoming more problematic.
    What we are seeing is a dissipation, but also not only from 
loners, but also what we are worried about is duos and small 
cells, which are harder to detect.
    Mr. Taylor. All right. Thank you, Mr. Chairman. I yield 
back.
    Chairman Thompson. Thank you very much.
    Mr. Soufan referenced Orlando. Our next witness--actually, 
the questioner--is a former chief of police from Orlando, who 
is now a Member of Congress, Congresswoman Val Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman and Ranking 
Member, and thank you to our witnesses.
    Mr. Soufan, the Chairman is absolutely right. I am from 
Orlando. The Pulse Nightclub is in my district.
    I walked in on what I thought was a very interesting 
conversation. I was going to say it was strange, but it was a 
conversation, Mr. Bergen, where you were reminding Congress of 
what our job is, and that our job is to write laws, to write 
legislation that will help to keep people in this country safe.
    It is kind-of amazing to me how we have zero tolerance when 
mass numbers of Americans are killed by international 
terrorists, but we sit back and do little or nothing when mass 
numbers of Americans are killed by domestic terrorists.
    You are absolutely right, we can do better. As we talk 
today about the disorganization of National security, surely 
this is one of those areas--in spite of all of the opposition 
that we hear, and the unfounded justifications to not do 
anything, surely this is one of the areas where we can come 
together and work hard to keep Americans safe. If we are not 
doing that, that is the foundation on which we do the rest of 
our work.
    Very, very quickly, would you agree that programs aimed at 
countering home-grown extremism are most effective when they 
have the involvement of local community members and leaders? Do 
you feel that some of the current policies implemented by this 
administration have undermined those partnerships? Could either 
of you elaborate on that?
    Mr. Bergen. To your first, yes.
    To your second, you know, I am not really sure. But the 
point is, you know, it is hard to measure success with these 
programs, because success is something not happening. On the 
other hand, these programs cost almost nothing. I mean your 
committee was instrumental in getting money to--for these 
programs. They are, like, $50 million. I mean it is a drop in 
the bucket.
    Try--you know, throw a few things at the wall, see what 
works, what doesn't work, and understand that this is not 
expensive.
    Mrs. Demings. Anyone else?
    Mr. Joscelyn. Just to echo that point about see what works 
and doesn't work, it is very easy to fund studies to figure out 
which types of programs, with a minimal amount of funding, are 
more effective than others. I mean, yes, it is difficult maybe 
to get the precise metrics you need to figure out which ones--
because you are--as Peter said, you are stopping something from 
happening.
    But you can also sort-of look at other metrics. I don't 
have the time to get into all that, but there are ways to 
design studies of efficacy for little money, overall.
    Mrs. Demings. Thank you.
    Mr. Soufan. I don't think we can secure our communities 
without the community members and leaders being involved. So 
absolutely, that is, I believe, extremely important.
    Then, hey, if something doesn't work, we will figure out a 
way to make it work. But yes, absolutely, it is a must.
    Mrs. Demings. Thank you. I heard a couple of reports about 
a rise in the attempted radicalization of women.
    No. 1, have you seen that? Can you verify those reports?
    And No. 2, are there any programs or strategies targeting 
that specific concern?
    Mr. Soufan. We have seen that. We have seen that with both 
kinds of, you know, the threats that we are talking about 
today, the white supremacist threats, and also the jihadi 
threats. When it comes to ISIS, for example, women are not 
necessarily the victims. They are as involved, and they did as 
evil activities as the men.
    You just look at what is happening now in camp, and how the 
women of ISIS are trying to bring back ISIS inside the 
detention facility in Syria. So we have seen examples where 
women were involved in recruiting members, women were involved 
in enslaving Yazidis, for example, in Syria and Iraq, and where 
women were involved in, you know, establishing the network.
    The same thing in al-Qaeda. Not to the same level with 
ISIS. Osama bin Laden's wife, for example, was instrumental in 
directing him in so many different ways in his global jihad, 
the mother of Hamza.
    So, yes, women can be victims, but we have seen more and 
more women taking a role of, you know, of a villain.
    Mrs. Demings. Are there any particular programs or 
strategies to address that rise or concern at this point?
    Mr. Soufan. I am not familiar, I don't know if somebody----
    Mr. Bergen. I am not, either, but I will say domestic 
violence is often an indicator that you are going to carry out 
other forms of violence. Jihadist terrorists, we mentioned 
misogyny. Obviously, they are misogynists. But also, they are 
going to carry out acts of domestic violence.
    A thing for the committee to look into is to look at the 
cases in the United States that have been preceded by acts of 
domestic violence.
    Mr. Levin. Also, we recently had a violent Salafist 
Jihadist plotter in Arizona who went to a misogynistic videos 
done by far right. So misogyny not only stands alone, but it is 
also an undercurrent.
    In the white supremacist world, generally women play a much 
different role. They are supposed to make white babies to 
prevent the overthrow of white society.
    Mrs. Demings. OK.
    [Laughter.]
    Mrs. Demings. Thank you, Mr. Chairman, I yield back.
    Chairman Thompson. Well, let me thank the witnesses for 
their very valuable testimony. I have been on the committee 
since it was a select committee, and I--let me say that you 
have far exceeded in your testimony today giving us, as a 
committee, I think, what we really need. Your passion, your 
intellect, with the subject matter, speaks volumes.
    So I don't want to speak for the Ranking Member, but you 
know, we--you all have shared with us a lot of things we needed 
to hear, and your talent is beyond reproach.
    Mr. Rogers. I too have been on this committee since it was 
a select committee, and this is an outstanding panel. You have 
been very valuable, and this has been a great hearing. Thank 
you very much.
    Chairman Thompson. Rest assured we will follow up on a lot 
of things that came out of your testimony today. I don't know 
whether you are going to get credit for it, but it might come 
in a different form.
    All of us supported Mr. King's bill, by the way. It just, 
you know--we just got to keep trying in that.
    So Members may have additional questions for the witnesses, 
and we ask that you respond expeditiously in writing.
    Without objection, the committee record will be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
